APPA
la

THE SUPREME COURT OF WASHINGTON
SUSAN CHEN, et al
Petitioner,
vs.

No. 98368-2
ORDER
Court of Appeals

KATE HALAMAY et No. 76929-4-1
al.
(Consolidated with No.
78829-9-1)
Respondents
Department II of the Court, composed of Chief
Justice Stephen and Justices Madsen, Gonzalez, Yu
and Whitener (Justice Madsen recused and Justice
Owens sat for Justice Madsen), considered at its
November 3, 2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4 (b) and
unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review and the “Motion for
Permission for Licensed Lawyer, Mr. James
Daugherty to File Briefs on Behalf of Minor, J.L.” are
both denied. The Clerk’s motion to strike the reply to
the answer to the petition for review is granted.
DATED at Olympia, Washington, this 4th day of
November, 2020.
For the Court,
Stephen, J
CHIEF JUSTICE

APP A
2a

THE SUPREME COURT OF WASHINGTON

SUSAN CHEN, et al
Petitioner,
vs.

No. 98503-1
ORDER
Court of Appeals

KATE HALAMAY et No. 76929-4-1
al.
(Consolidated with No.
78829-9-1)
Respondents
Department II of the Court, composed of Chief
Justice Stephens and Justice Madsen, Gonzalez, Yu
and Whitener (Justice Madsen recused and Justice
Johnson sat for Justice Madsen), considered this
matter at its November 3, 2020, Motion Calendar
and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That both motions for discretionary review are
denied.
DATED at Olympia, Washington this 4th day of
November, 2020.
For the Court,
Stephen. J
CHIEF JUSTICE

APP. B
3a

IN THE COURT OF APPEALS OF THE
STATE OF WASHINGTON
SUSAN CHEN, et
al
Plaintiffs,

No. 76929-4-1
(Consolidated with
78829-9-1)

No.

DIVISION
ONE
UNPUBLISHED
KATE HALAMAY
OPINION
et al.
FILED February 10,
Defendants
2020:

vs.

LEACH, J. — Pro se litigants Susan
Chen and Naixiang Lian, as parents and
guardians of J.L. and L.L1 (collectively Chen),
appeal the summary judgment dismissal of
their lawsuit against Dr. Kate Halamay and
Allegro Pediatrics and the subsequent denials
of their motion for reconsideration and motion
to vacate. Chen claims that questions of fact
exist about whether Dr. Halamay acted
negligently or in bad faith by reporting Chen
to Child Protective Services (CPS) for
suspected child abuse and that numerous
procedural irregularities justify reversal.
Because Chen fails to establish error, we
affirm.1

1 We grant Chen’s motion to use initials to refer to
their minor children

APP. B
4a
FACTS
In August 2012, Chen brought her twoyear-old son, J.L., to Allegro Pediatrics,
expressing concerns that he might have
autism. Staff members provided referrals for
speech therapy, a hearing assessment, and
evaluations at the Seattle Children’s Hospital
autism clinic and the Kindering Center. In
October 2012, Allegro staff attempted to
follow up with J.L.’s parents to check the
status of his progress, as it did not appear that
J.L. had been seen at the autism clinic or at
Kindering. But they were unable to reach the
family.
On November 15, 2012, a physical
therapist at Seattle Children’s Hospital
assessed J.L. as having some characteristics
of a child on the autism spectrum. The
therapist recommended additional therapy
and follow-up with the Kindering Center and
faxed her treatment notes to Allegro. J.L.’s
family subsequently moved to Oregon for
several
months
before
returning
to
Washington. While in Oregon, they took J.L.
to Dr. John Green.
On August 31, 2013, Chen again brought
J.L. to Allegro, where he was seen for the first
time by Dr. Halamay. Shortly before this visit,
laboratory tests ordered by Dr. Green and
performed at Seattle Children’s Hospital
indicated abnormal kidney function. Chen
reported that J.L. was exhausted, urinating

APP. B
5a
more than usual, and was interested only in
eating meat. After consulting with a
nephrology fellow, Dr. Halamay provided
Chen with an urgent referral order to Seattle
Children’s Hospital nephrology clinic. On
September 5, 2013, Chen took J.L. to the
nephrology clinic. The doctor indicated that
J.L.’s lab results appeared to be improving
and that the prior abnormal results may have
been obtained at a time that J.L. was
dehydrated given his history of diarrhea and
inability to access fluids.” The clinic
recommended repeat lab tests in three weeks,
with follow-up at the nephrology clinic if
needed.
Chen brought J.L. for a second visit with
Dr. Halamay on September 16, 2013. Chen
stated that J.L. was very gassy, sometimes
has a “stiff’ stomach, and cries a lot. Although
J.L.’s gastroenterologist had recommended
constipation medication and stool studies,
Chen did not think J.L. was constipated and
did not have the studies done. Dr. Halamay
ordered lab tests, instructed Chen to refrain
from restricting J.L from fluids, and provided
a referral to Seattle Children’s Hospital for
further neurodevelopmental evaluation.
On September 19, 2013, J.L.’s speech
therapist, Jennifer Dierenfeld, contacted Dr.
Halamay to seek more information about the
family. Dierenfeld expressed concern that J.L.
has “extreme sensory dysregulation” and cries
inconsolably” during sessions. She stated that

APP. B
6a
Chen “becomes extremely frustrated” when
J.L. cries and “even threw an object during
one of the sessions.” Dierenfeld further stated
that another therapist observed Chen “raise
her hand toward [J.L.] but did not actually hit
him.” Given this information, Dr. Halamay
planned to recommend to Chen that they
enter social and behavioral therapy and
further evaluate J.L.’s sensory issues.
On September 23, 2013, Dr. Halamay
called Chen to discuss J.L.’s lab results and
her recommendations. Chen was “extremely
concerned” about J.L.’s thyroid lab values and
requested an urgent referral to Dr. Kietter, a
pediatric endocrinologist, which Dr. Halamay
provided. Dr. Halamay also discussed
Dierenfeld’s concerns about the need for
sensory and behavioral therapy, but Chen
declined. Dr. Halamay asked Chen to bring
J.L for a follow-up visit in the next one to two
weeks.
Three days later, Dr. Halamay spoke with
a gastroenterology physician’s assistant at
Seattle Children’s Hospital who opined that
J.L. should be further evaluated for
abdominal distension and gas issues. Because
Chen said she did not want J.L. to be seen by
Seattle Children’s Hospital, Dr. Halamay
referred J.L. to Swedish Medical Center and
asked Chen to make a follow-up appointment
for J.L. at Allegro within the next week.

APP. B
7a
At J.L.’s third visit with Dr. Halamay, on
October 7, 2013, Chen reported that J.L.
continued to have abdominal pain and gas
which had by then been present for six weeks.
Halamay’s
Chen
declined
Dr.
recommendations for J.L. to participate in
development or behavioral therapies or to be
seen by the Seattle Children’s Hospital
gastroenterology clinic. Dr. Halamay again
recommended that Chen take J.L. to Swedish
Medical Center as an alternative, but Chen
said she preferred to take J.L. to Dr. Arthur
Krigsman, a pediatric gastroenterologist in
Texas. Chen asked Dr. Halamay to order a
“page-long list of tests” that had allegedly
been requested by Dr. Krigsman, some of
which Dr. Halamay had never heard of. Given
her unfamiliarity with Dr. Krigsman and the
tests, Dr. Halamay declined. She offered to
order an X-ray to check J.L.’s stool burden, but
Chen declined.
On October 19, 2013, J.L. saw Dr. Roberta
Winch, another pediatrician at Allegro. Chen
reported that J.L. was tired, sweaty, and had
swelling in his knees and feet. Dr. Winch
examined J.L. She determined that he had
abdominal pain and distension requiring
immediate evaluation at the Seattle Children’s
After
department.
Hospital
emergency
“significant persuasion,” Chen agreed to take J.L.
there immediately. However, Chen and J.L. did
not show.

APP. B
8a
The following day, an Allegro nurse called
Chen to check on J.L. Chen stated that she did
not take J.L. to the emergency department
because her other child was sick but agreed to
schedule a follow-up appointment for J.L. if
necessary. That afternoon, Chen took J.L. to
the Seattle Children’s Bellevue urgent care
clinic. There, providers recommended that he
be seen at the Seattle Children’s Hospital
emergency department. Chen became upset
and left the clinic with J.L. against medical
advice.
Later that evening, Chen took J.L. to the
Seattle
Children’s Hospital emergency
department. There, providers noted that J.L.
seemed irritable, tired, and limp, with a
distended abdomen and critically abnormal
lab results. After further testing and
consultation, providers allowed J.L. to return
home on the condition that Chen promptly
J.L.’s
nephrology,
up
on
follow
and
endocrinology
gastroenterology,
treatment orders.
On October 22, 2013, a Seattle Children’s
Hospital nurse contacted Allegro to express
concern that Chen would fail to follow up with
J.L.’s treatment plan. The next day, Dr. Hal
Quinn of Mercer Island Pediatrics called Dr.
Halamay to express his concerns about the
family. He informed her that Chen had taken
J.L. to see him several times during the time
Chen was also bringing J.L. to see Dr.
Halamay. And Chen had also asked him to

APP. B
9a
order long lists of tests. Dr. Quinn felt that
J.L. was very sick and expressed concern that
J.L was not receiving appropriate medical
attention despite seeing numerous doctors.
Dr. Quinn stated that one of his partners
recently saw J.L. and recommended that he be
seen at the emergency department, but Chen
refused. Dr. Quinn discussed the situation
with a gastroenterologist, who expressed
great concern and wanted to see J.L. Dr.
Quinn also spoke with Dr. Metz of the Seattle
Children’s Suspected Child Abuse and Neglect
(SCAN) team, who recommended that J.L. be
admitted to the hospital. Dr. Halamay later
contacted Dr. Metz, who reiterated that J.L.
should be admitted to the hospital to
coordinate his care, provide social support for
the family, and to determine whether SCAN
team involvement would be necessary.
Chen took J.L. to see Dr. Halamay for the
fourth and final time on October 23, 2013. J.L.
was tired, with a distended abdomen and
abnormal lab values. Chen told Dr. Halamay
she did not want to take J.L. to Seattle
Children’s Hospital because she has ‘no
confidence” in them and “{t]hey have not done
anything for him.” Dr. Halamay told Chen she
felt admission was medically necessary, but
Chen said she would find her own specialists.
Dr. Halamay told Chen that if she refused to
bring J.L. to Seattle Children’s Hospital, she
would need to contact CPS to ensure that J.L.
received necessary medical attention. Chen
left with J.L.

APP. B
10a

Dr. Halamay concluded that J.L. had
significant and potentially life threatening
renal, abdominal, liver, weight loss, failure to
thrive, and gastrointestinal issues, all without
a clear etiology. She further concluded there
was a reasonable suspicion that J.L. was a
victim of medical neglect, that J.L.’s parents
were not following up on medically necessary
care, and that the gravity of J.L.’s condition
prevented any flexibility delaying diagnostic
studies and follow-up examinations. Dr.
Halamay therefore reported concerns of
medical neglect to CPS on October 23, 2013.
Later that day, a CPS social worker picked
up J.L and Chen and transported them to
Seattle Children’s Hospital. A clinical exam
showed gross malnutrition and muscle
wasting suspected to result from medical
neglect. J.L. was removed from Chen’s
custody, and the Department of Social and
Health Services (DSHS) initiated dependency
proceedings.2
After an investigation of Dr. Halamay’s report,
the Redmond Police Department determined
probable cause existed to charge Chen with
criminal mistreatment in the second degree. The
King County Prosecuting Attorney filed a criminal
information against Chen on January 31, 2014.
However, in September 2014, DSHS asked the
2 DSHS also initiated dependency proceedings
against L.L. but returned him to his parents’
custody after the hearing.

APP. B
11a
court to dismiss the dependency petition based on
its finding that Chen did not refuse to admit J.L.
to the hospital against medical advice on October
20, 2013. The court dismissed J.L.’s dependency
action, and J.L. was returned to his parent’s care.
The State also dropped the criminal charge
against Susan “due to evidence discovered after
the time of filing.”
On October 24, 2016, Chen filed a lawsuit
pro se, asserting claims of medical negligence
against Dr. Halamay and Allegro Pediatrics
based on her decision to refer Chen to CPS.3
Chen alleged that on October 23, 2013, Dr.
Halamay
misdiagnosed
J.L.’s
medical
condition, failed to contact J.L.’s mam
treating physicians, failed to review his full
medical records, and failed to provide accurate
information to CPS, resulting in J.L.’s
wrongful removal from the home and causing
emotional and mental pain and suffering to all
four family members and developmental delay
and brain damage to J.L.
On December 8, 2016, Dr. Halamay and
Allegro moved for summary judgment,
asserting immunity from liability under
Washington’s child abuse reporting statute.4
To support the motion, Dr. Halamay and
Allegro produced Dr. Halamay’s declaration,
redacted excerpts from J.L.’s medical records,
and a redacted copy of the Redmond Police
3 Chen’s claims against Allegro were based on a
respondent superior theory of liability.
4 Ch. 26.44 RCW

APP. B
12a
Department incident report regarding their
investigation following the CPS report. The
court scheduled the summary judgment
hearing for January 6, 2017. After Chen
retained counsel, the defendants agreed to
reschedule the hearing for February 24, 2017.
Then counsel for Chen withdrew. On
February 13, 2017, Chen asked for an eightmonth continuance of the
summary
judgment hearing, which the defendants
opposed. At the hearing, Chen appeared with
Twyla Carter, her former attorney from her
criminal matter. Carter told the court that she
was not representing Chen but was appearing
as a witness to explain that the case was
“complicated” and to assert that she needed
time to help Chen find an attorney. Although
Chen had requested a Mandarin interpreter
for the hearing, Carter informed the court that
Chen wanted a Cantonese interpreter. The
defendants agreed to a short continuance to
obtain an interpreter. The trial court agreed
to appoint an interpreter, granted a threemonth continuance, and rescheduled the
hearing for May 12, 2017.
On April 13, 2017, Dr. Halamay and
Allegro filed a renewed motion for summary
judgment. Chen failed to file a timely
response. On May 10, 2017, Chen filed a notice
of unavailability due to a medical problem and
requested a continuance of at least two weeks.
The court denied Chen’s request and stated
that it would rule on defendants’ motion
without oral argument. On May 11, 2017, the

APP. B
13a
scheduled date for the summary judgment
hearing, Chen e-mailed the court requesting
appointment of counsel. After considering the
materials submitted by both parties,
including Chen’s most recent e-mail, the court
granted summary judgment in favor of the
defendants and dismissed Chen’s claims with
prejudice. In its order, the court noted as
follows:
The court excused Ms. Chen from
appearing at the summary judgment
hearing on May 11, 2017 pursuant to her
notice of unavailability. The summary
judgment had already been continued once
before at her request. The court entered
this order on summary judgment based
upon he written filings of the parties.
Chen filed a pro se motion for
reconsideration. In support, she attached
three unauthenticated e-mails which were
purportedly authored by two of J.L.’s
providers and a copy of an e-mail Chen
previously sent to the court. The trial court
denied Chen’s motion. Chen timely filed a
notice of appeal seeking review of the orders
granting summary judgment and denying
reconsideration.
Chen later asked for appointment of
counsel and a guardian ad litem for her
appeal. On February 7, 2018, the Washington
Supreme Court denied Chen’s request for
expenditure of public funds. Three weeks
later, the trial court appointed a guardian ad

APP. B
14a
litem for J.L. and L.L. for the limited purpose
of “explaining] . . . the current status of the
proceedings and what options the minors have
at this point.” The guardian ad litem, noting
that Chen wanted to file a CR 60 motion to
vacate, indicated that it would be in the
children’s best interest to appoint counsel to
represent them in that matter.
On May 10, 2018, Chen filed a pro se CR
60 motion to vacate the trial court’s orders
granting summary judgment and denying
reconsideration. She also filed a supplemental
brief seeking appointment of counsel. The
court granted Chen’s request for appointed
counsel for the limited purpose of drafting
J.L.’s reply to the defendants’ response and
appearing at the show cause hearing to argue
on behalf of J.L. After a hearing, the trial
court judge denied Chen’s motion to vacate.
Chen filed a pro se motion to set aside the
judgment or, in the alternative, to reconsider
the denial of her motion to vacate, which the
court denied. Chen timely appealed these
orders, and this court consolidated Chen’s two
appeals.
STANDARDS OF REVIEW
We review a summary judgment order
de novo, engaging in the same inquiry as the
trial court. 5 We consider all facts and

5 Lvbbert v. Grant County. 141 Wn.2d 29, 34, 1
P.3d 1124 (2000).

APP. B
15a
reasonable inferences in the light most
favorable to the nonmoving party and affirm
summary judgment only when the evidence
presented demonstrates no genuine issue of
material fact and that the moving party is
entitled to judgment as a matter of law.6 “A
material fact is one upon which the outcome of
the litigation depends in whole or in part.”7
The application of this standard uses a
burden shifting scheme. A party may meet
this burden in one of two ways: it may “‘set[ }
out its own version of the facts or. . . alleg[e]
that the nonmoving party failed to present
sufficient evidence to support its case.’”8 If the
defendant requests summary judgement and
alleges an absence of material facts
supporting the plaintiffs case, then the
burden shifts to the plaintiff to present a
prima facie case for the essential elements of
its claim.9

6 Wilson v. Steinbach, 98 Wn.2d 434, 437, 656
P.2d 1030 (1982).
7 Atherton Condo. Ant.-Owners Ass’n Bd. of Dirs.
v. Blume Dev. Co.. 115 Wn.2d 506, 516, 799 P.2d
250 (1990).
8 Indoor BillboardAVash.. Inc, v. Integra Telecom
of Wash.. Inc.. 162 Wn.2d 59, 70, 170 P.3d 10
(2007) (quoting Pac. Nw. Shooting Park Ass’n v.
City of Seguim, 158 Wn.2d 342, 350, 144 P.3d 276
(2006)).
9 Young v. Key Pharm., 112 Wn.2d 216, 225, 770
P.2d 182 (1989).

APP. B
16a
We review a trial court’s denial of a
motion for reconsideration, motion for a
continuance, and denial of a CR 60 motion to
vacate a judgment for an abuse of discretion.10
To determine that the trial court abused its
discretion, we must find that the “exercise of
discretion was manifestly unreasonable,
based on untenable grounds, or based on
untenable reasons.” 11
ANALYSIS
A pro se litigant is bound by the same rules
of procedure and substantive law as a licensed
attorney.12 With this in mind, we proceed with
an analysis of the issues presented in this
case.
Summary Judgment
Chen argues that the trial court should not
have dismissed her claims because the
defendants failed to show the absence of a
10 Rivers v. Wash. State Conf. of Mason
Contractors. 145 Wn.2d 674, 685, 41 P.3d 1175
(2002) Turner v. Kohler, 54 Wn. App. 688, 693, 775
P.2d 474 (1989); Mitchell v. Wash. State Inst, of
Pub. Policy, 153 Wn. App. 803, 821, 225 P.3d 280
(2009) (motion to vacate).
11 Moreman v. Butcher. 126 Wn.2d 36, 40, 891
P.2d 725 (1995).
12 In re Marriage of Olson. 69 Wn. App. 621, 626,
850 P.2d 527 (1993); Westberg v. All-Purpose
Structures, Inc., 86 Wn. App. 405, 411, 936 P.2d
1175 (1997).

APP. B
17a
material issue of fact as to whether Dr.
Halamay’s CPS report met the standard of
care and the requirement of good faith
reporting. We disagree.
“any
RCW
26.44.030(l)(a)
requires
practitioner” to report to “the proper law
enforcement agency or to the department”
whenever they have “reasonable cause to
believe that a child has suffered abuse or
neglect.” RCW 26.44.060(l)(a) provides in
part,
[A]ny person participating in good faith in
the making of a report pursuant to this
chapter or testifying as to alleged child abuse
or neglect in a judicial proceeding shall in so
doing be immune from any liability arising
out of such reporting or testifying under any
law of this state or its political subdivisions.
The reporter has the burden of proving the
report was made in good faith.13 Here, Dr.
Halamay made a prima facie showing of good
faith through her declaration and supporting
documents:
Based upon my experience, training,
education and my review of the medical record
for JL, along with my care and treatment of
him on multiple visits, along with the
information I was provided regarding JL’s
13 Yuilte v. State. Ill Wn. App. 527, 533, 45 P.3d
1107 (2002).

(

v

APP. B
18a

condition and the concerns that other
healthcare providers had of JL’s situation and
concern for medical neglect, and given the
gravity of JL’s condition and the risks that
JL’s parents would continue to fail or delay in
the obtaining of essential diagnostic studies
and/or medical evaluations in the face of a lifethreatening condition, it is my opinion that
the reporting of suspected medical neglect to
CPS was reasonably prudent and required by
the Washington child abuse reporting
statutes.

Although Chen asserted that she had
“tons of evidence supporting the merits of the
case,” and despite receiving a nearly threemonth continuance, she did not engage in
discovery and did not file a substantive
response to the defendants’ motion.14 Chen’s
allegations and conclusory statements of fact
unsupported by evidence are not sufficient to
establish a genuine issue of fact to overcome
summary judgment.15
Chen argues that Dr. Halamay acted in
bad faith by failing to consult all physicians
who provided services to J.L. before making
her report. She contends that the eventual
14A party may move for summary judgment
before discovery is complete. Perez-Crisantos v.
State Farm Fire & Cas. Co., 187 Wn.2d 669, 68586, 389 P.3d 476 (2017).
15 Baldwin v. Sisters of Providence in Wash.. Inc..
112 Wn.2d 127, 132, 769 P.2d 298 (1989).

v

APP. B
19a

dismissal of the dependency and criminal
actions proves that Dr. Halamay’s CPS report
was false. “But there is no legal requirement
that information giving rise to a suspicion of
child abuse be investigated or verified before
it is reported.”16 The purpose of immunity—to
encourage those who suspect child abuse to
report it—’’would be undermined if immunity
fell with a showing that the report was
unverified or lacked investigation.”17 Because
the duty to investigate lies with the
authorities, not the individual making the
report, failure to verify or investigate does not
rule out immunity.18 The question is whether
the reporter acted “with a reasonable good
faith intent, judged in light of all the
circumstances then present.”19 The evidence
supports a reasonable inference, and no
contrary inference, that Dr. Halamay met this
standard.
Chen asserts that Dr. Halamay’s acts and
omissions constituted medical negligence.
However, ‘to defeat summary judgment in
almost all medical negligence cases, the
plaintiffs must produce competent medical
expert testimony establishing that the injury
was proximately caused by a failure to comply
16 Whaley v. State. 90 Wn. App. 658, 668, 956 P.2d
1100 (1998).
17 Yuille. Ill Wn. App. at 534.
18 See RCW 26.44.050; Whaley, 90 Wn. App. at 668.
19 Whaley. 90 Wn. App. at 669 (quoting Dunning v.
Pacerelli, 63 Wn. App. 232, 240, 818 P.2d
34(1991)).

APP. B
20a
with the applicable standard of care.”20 “The
expert testimony must establish what a
reasonable medical provider would or would
not have done under the circumstances, that
the defendant failed to act in that manner,
and that this failure caused the plaintiffs
injuries.” 21 Chen did not submit expert
testimony or any other evidence in support of
her claim.
Chen next argues that the defendants’ CR
56
summary
judgment
motion
was
transformed into a CR 12(b) motion when they
submitted an amended summary judgment
motion containing a footnote alleging lack of
personal jurisdiction. She contends that this
footnote requires that we evaluate the
summary judgment motion as if it were a
motion to dismiss under CR 12(b), including
treating the allegations in her complaint as if
they were established.22 But Chen cites no
authority for the proposition that the
inclusion of a footnote referencing a potential
jurisdictional defense converts a substantively
based CR 56 motion for summary judgment
into a CR 12(b) motion to dismiss on
jurisdictional grounds. To the contrary,
motions based on the pleadings are considered
under CR 56 if “matters outside the pleadings
20 Sevbold v. Neu. 105 Wn. App. 666, 676, 19 P.3d
1068 (2001).
21 Reacian v. Newton. 7 Wn. App. 2d 781, 791, 436
P.3d 411, review denied, 193 Wn.2d 1030 (2019).
22 State v. LG Elecs., Inc.. 185 Wn. App. 394, 406,
341 P.3d 346 (2015).

APP. B
21a
are presented to and not excluded by the
court.”23 CR 12(b) does not apply.
Next, Chen argues that the trial court
should have provided her with a fair
opportunity to present her case at oral
argument. Chen relies on King County Super.
Ct. Local Civ. R. 56(c)(1), which provides that
“[t]he court shall decide all summary
judgment motions after oral argument, unless
the parties waive argument.” Noting that
‘waiver is the intentional and voluntary
relinquishment of a known right,”24 Chen
asserts that her request for a two-week
continuance of the hearing for medical
reasons does not constitute waiver and that
the procedural irregularity requires reversal.
We disagree.
Here, the trial court ruled that “[gjiven the
fact that the matter has already been
continued once before, the Court will rule on
the defense motion based upon the materials
already filed on the merits of the underlying
motion without argument.”
The trial court may deny a motion for a
continuance when (1) the requesting party
does not have a good reason for the delay in
obtaining the evidence, (2) the requesting
party does not indicate what evidence
would be established by further discovery,
23 CR 12(b)(7); CR 12(c).
24 McLain v. Kent Sch. Dist., No. 415. 178 Wn.
App. 366, 378, 314 P.3d 435 (2013) (internal
quotation marks omitted)

APP. B
22a
or (3) the new evidence would not raise a
genuine issue of fact.25
Given that Chen failed to submit evidence or
briefing in opposition to summary judgment
despite a three-month continuance and
Carter’s assistance, this decision was not an
abuse of discretion. More fundamentally,
procedural due process does not mandate oral
argument on a written motion. ‘Rather, oral
argument is a matter of discretion, so long as
the movant is given the opportunity to argue
in writing his or her version of the facts and
law.” 26 Chen had ample opportunity to
advance her arguments in writing. King
County Super. Ct. Local Civ. R. 56(c)(1) does
not create a due process right to oral
argument.
Chen next asserts that reversal is required
because the trial court judge did not enter
written findings of fact and conclusions of law.
But CR 52(a)(5)(B) expressly provides that
findings of fact and conclusions of law are not
necessary “[o]n decisions of motions under
rules 12 or 56 or any other motion, except as
provided in rules 41(b)(3) and 55(b)(2).” Cases
cited by Chen pertain to judgments entered in
cases where findings are required and thus
have no applicability here.
Next, Chen contends that the trial court
lacked jurisdiction to dismiss J.L. and L.L.’s
claims with prejudice because the trial court
25 Butler v. Jov. 116 Wn. App. 291, 299, 65 P.3d
671 (2003)
26 State v. Bandura. 85 Wn. App. 87, 93, 931 P.2d
174 (1997).

APP. B
23a
failed to appoint a guardian ad litem as
required by RCW 4.08.050. Chen is mistaken.
A parent may initiate a lawsuit as a guardian
on behalf of a minor child.27 RCW 4.08.050(1)
provides that a trial court must appoint a
guardian ad litem for children under 14 years
of age “upon the application of a relative or
friend of the infant.” Here, Chen and her
husband initiated this lawsuit on behalf of
themselves and as parents and natural
guardians of J.L. and L.L. They did not ask
the trial court to appoint a guardian ad litem
at any time before the court entered the order
granting summary judgment. Chen cites no
authority for the proposition that the court
was obligated on its own initiative to appoint
a guardian ad litem because she was
representing herself or because English was
not her first language.
Motion for Reconsideration of Order Granting
Summary Judgment
Chen argues that the trial court abused
its discretion in denying her motion for
reconsideration under CR 59. She contends
that the court based its decision on the
following untenable reasons: (1) the court was
not required to appoint a guardian ad litem,
(2) Dr. Halamay did not have to rebut
allegations that she failed to consult with Dr.
Green before making her report to CPS, (3) a

27 See, e.g, Tavlor v. Enumclaw Sch. Dist. No. 216.
132 Wn. App. 688, 694, 133 P.3d 492 (2006).

APP. B
24a
false police report submitted by thedefendants
with their summary judgment motion, and (4)
denying reconsideration before she filed a
reply to the defendant’s answer.28
We are not persuaded that the trial
court erred in denying the motion for
reconsideration on any grounds. As previously
discussed, Dr. Halamay met her summary
judgment burden of demonstrating that her
report was made in good faith in light of the
circumstances then present. Any deficiencies
in the police investigation that followed do not
bear on her intent. The trial court did not err
in failing to appoint a guardian ad item. And
Chen cites no authority for the proposition
that a trial court must provide an opportunity
for a reply before ruling on a motion for
reconsideration. 29
Motion To Vacate
We next address the trial court’s denial of
Chen’s motion to vacate. CR 60 exists to
prevent injustices based on “reasons
extraneous to the action of the court or for
matters affecting the regularity of the
28 Although Chen did not specify which
subsections of CR 59 apply here, her arguments
appear to encompass CR 59(a)(1), irregularity of
the court proceeding; CR 59(a)(7), insufficient
evidence supporting decision; CR 59(a)(8), error
of law; and CR 59(a)(9), lack of substantial
justice.
29 See CR 59(c) (providing that “[t]he court may
permit reply affidavits”) (emphasis added).

;

APP. B
25a

proceedings.” 30 The rule provides that a “court
may relieve a party. . . from a final judgment,
order, or proceeding” under specified
circumstances. One of the circumstances is
“[n]ewly discovered evidence which by due
diligence could not have been discovered in
time to move for a new trial under rule 59(b).”
31

Chen argues that the trial court failed to
properly consider an additional 135 pages of
J.L.’s medical records, which she received
from Allegro via discovery in other lawsuits.
She contends that these newly discovered
records revealed significant omissions from
records defendants submitted to the court in
support of their motion for summary
judgment, thus demonstrating that they
intentionally and willfully withheld critical
medical information.
In denying Chen’s motion to vacate, the
court ruled,
I don’t see any intentional withholding of
evidence. I don’t see. . . that the new
evidence [that] has been alleged now
couldn’t have been brought before, or
frankly, that it would have changed
anything in this case.
I also find that. . . the case itself is not
meritorious. . . . [K] nowing the statute
30 State v. Keller. 32 Wn. App. 135, 140, 647 P.2d
35 (1982).
31CR 60(b)(3).

APP. B
26a
involving immunity, . . . this Court can
state on the record that clearly. . . the
referral was made in good faith and that
mandatory reporting to protect children.
. . . for all of those reasons, the Court is
denying the motion.
The court’s reasoning is sound. Because
Chen made no discovery requests before the
court granted summary judgment dismissal,
she cannot show that the evidence could not
have been discovered earlier by due diligence.
The defendants were under no obligation to
provide full copies of J.L.’s medical records in
support of their motion for summary
judgment. And given the purposes of the
immunity statue, the court did not err in
recognizing that the new records would not
have changed the result.
Chen also argues that the judge who ruled
on the CR 60 motion to vacate lacked
authority to hear it because King County
Super. Ct. Local Civ. R 60(e)(2) provides that
“the show-cause hearing on the motion shall
be scheduled . . . before the Respective Chief
Judge.” However, judges sitting on the
superior court in the same county have
identical authority.32 The record indicates
that the hearing was originally set before the
chief judge and that the judge who heard the
motion received the papers the day before the
hearing because she was “covering for another
officer.” No parties objected, and they agreed
to proceed. Under these circumstances, the

APP. B .
27a
judge had authority to hear and rule on the
motion.
Chen further argues that the trial court
should have allowed Lian an opportunity to
speak at the hearing. But the record shows
that Lian did not submit any independent
filings and did not ask to address the court,
directly or via his interpreter. The court was
not required to ask Lian whether he wished to
be heard.
Lastly, Chen argues that the trial court
erred in denying her motion to set aside or
reconsider her denial of the motion to vacate.
She based this motion on cumulative error
and did not raise any new claims. The court
did not abuse its discretion.
CONCLUSION
Because the trial court did not err in
granting the defendants’ motion for summary
judgment or in denying Chen’s motions for
reconsideration and motion to vacate, we
affirm.

WE CONCUR:
Leach. J

Dwyer. J

Verellen, J

No.

3ln tlje Supreme Court ot tlje Qdrnteb States!
Susan Chen.
Petitioner
v.
Kate Halamay et al.

Respondents

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1 (h), I certify that the PETITION FOR
A WRIT OF CERTIORARI in the above-entitled case complies with the typeface
requirement of Supreme Court Rule 33.1 (b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnote, and the this brief contains 7500
words, excluding the parts of the documents that are exempted by the Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on this 4th day of May, 2021.
Respectfully submitted,
/s/ Susan Chen
Susan Chen
PO BOX 134, Redmond, WA 98073
Tel: (323)902-7038

APP. C
28a
The honorable Jeffrey Ramsdell
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et NO. 16-2-26019-5 SEA
al
PLAINTIFFS’
MOTION
Plaintiffs,
FOR RECONSIDERATION
OF ORDER GRANTING
vs.
DEFENDANTS’ MOTION
SUMMARY
KATE HALAMAY FOR
JUDGMENT
OF
et al.
DISMISSAL
Defendants
Comes now, the Plaintiff, Susan Chen, and
moves this court to reconsider and clarify a
portion of its Order of 5/11/17, granting
summary judgment to Defendants Halamay, and
Allegro Pediatrics. This motion requests the
Court to reconsider the following issues:
1) To reconsider the dismissal order as to
plaintiffs, Susan Chen and Naixiang Lian;
2) To clarify that the dismissal with prejudice
does NOT apply to minor children, JL and LL
It is unconstitutional to dismiss minors’
claim with prejudice. As to the minors’ claims,
the dismissal should be without prejudice for re­
filing, as they are still in their minority, and the
statute of limitations is tolled until they reach
majority. RCW 4.16.190. Schroeder v. Weighall

APP. C
29a
et al. 179 Wn.2d 566; 316 P.3d 482; 2014 Wash.,
holding RCW 4.16.190 (2), which excluded
medical malpractice claims from tolling
unconstitutional.
Alternatively, due to failure to appoint a
Guardian ad Litem (“GAL”) to bring the action,
the action on behalf of the minors was a nullity,
and there was no action on behalf of the minors
for judicial consideration, and therefore no action
to dismiss.
In this case, the Court failed to give
consideration to the additional factor unique to
the context of the case, i.e. LL and JL’s minority
status and JL’s disabilities. American Disability
Act (ADA) of 1990 and Rehabilitation act protect
the disabled’s rights to fundamental fairness.
JL’s constitution rights of access to the Court
cannot be denied due to his inability to
understand the legal proceedings without the
assistance of counsel and before reaching
majority. Dismissing minors’ claims with
prejudice violates the due process and equal
protection guarantees of the Federal and State
Constitutions.
Washington Constitution protects the
fundamental right of access tp fairness and
justice, and affords greater protection for the
right to counsel in civil proceedings than the
Fourteenth Amendment. In this case, the
imbalance of power between pro se with
language barriers and experienced counsel made
it difficult to ensure individual access to due

APP. C
30a
process and equal protection. A close reading of
the Washington Constitution reveals that a
Washington court has the inherent power to
appoint counsel for civil litigants whenever, “it
deems proper to appoint counsel where that
course seems to be required in the interest of
fairness.”
Ms. Chen requests the Court to appoint
counsel to assist with this complex litigation so
that her rights of meaning access to the Courts
and fundamental fairness could be achieved.
Acting as Ms. Chen’s former defense attorney,
Ms. Twyla Carter is an important witness of the
case. She had extensively reviewed ALL medical
records, ALL CPS files and interviewed
defendants. She recognized how much injustice
and unfairness plaintiffs went through so chose
to stand up to advocate for justice which she
believes it is the highest standard of Washington
Constitution. Ms. Carter is always ready to
provide further information to the Court for
understanding the merit of the case and the
necessity and importance of appointing counsel
to assist with the litigation. She can be reached
at twyla.carter@kingcounty.gov or 206-4778718. Many other professional witnesses
(doctors. Therapists, etc) are also happy to
provide information to the Court to defeat
defendants’ argument for no merit for the case.
MOTION
On behalf of all Plaintiffs, Plaintiff Susan
Chen moves this court to re-consider its written
Order of 5/11/17:

APP. C
31a

1) language to clarify that the dismissal of
Kate Halamay and Allegro Pediatrics is
WITHOUT PREDJUDICE, as to the minor
children L. L. and J L. And
2) Reconsider dismissal of Kate Halamay and
Allegro Pediatrics as to Susan Chen and
Naixiang Lian in interests of justice.
BASIS
Pro-se Plaintiffs filed multiple claims
against multiple defendants for medical
malpractice due to her lack of legal training.
Claims were filed on behalf of two minor
. children, L L and JL. Defendants claimed there
was no expert affidavit presented supporting
breach or causation, Defendant Halamy was not
served properly, and defendants were immune
from reporting.
The facts in the case were fully explored in
civil and criminal cases that covered the period
October 2013 to September 2014. J L was
diagnosed as autistic at approximately age 2. He
also had extensive GI and digestive problems,
which are sometimes associated with autism. He
received care for these conditions from multiple
providers, including specialists in autism and
digestive issues. With a variety of early
interventions, including ABA (applied behavior
analysis), speech and occupational therapy, JL
made significant progress - he was responsive
and generally cheerful, he could communicate,

APP. C
32a
and he could figure out how to solve problems.
His GI problems were addressed through diet,
which caused him to lose weight but reduced his
chronic diarrhea. He was slim but not as slim as
his parents and brother.
In October 2017, defendant Halamay
disregarded the diagnoses of having GI problems
and treatment plans of his treating physicians
and alleged that his conditions were caused by
abuse and/or neglect by his mother. Further,
Halamay disregarded the fact that JL was sent
to ER by his parents and just released from ER
at SCH as medically stable but reported
differently. Halamay’s arguments was mainly
based on the medical records, many of which was
written by herself.
Dr. Halamay refused to consult with J L’s
main treating physicians and therapists, and
testified falsely at the shelter care hearing. This
resulted in the removal of both children, an eight
month foster care stay for Jason, and the arrest
of his mother. In her motion for summary
judgment, defendant quoted police’s report to
support her argument. However, defendants did
not point out the fact that Ms. Chen’s criminal
charges were dismissed due to information being
withheld from the Court and false information
provided by the defendants.
In foster care, JL was denied his
prescribed therapy, and his autistic behaviors
and GI problems worsened. Over nine months,
his health, behavior and skills declined

APP. C
33a
precipitously, to the point where he lost virtually
all skills, and displayed biting, screaming and
similar behaviors. His treating physicians and
therapists objected vigorously to the diagnoses
and provided statements and declarations to the
social workers, investigators and courts. JL has
not been able to regain the skills that he lost, and
at nearly age 7 is still in diapers, cannot speak,
and screams uncontrollably, sometimes for
hours, at any actual or possible separation from
his parents. The parents have sought treatment
at many hospitals including Harvard, to no avail.
JL had none of these characteristics before the
misdiagnoses of the defendants and the
disastrous nine month stay in eight different
foster homes, with little therapy and minimal
contact with his parents and brother.32
The family is represented in these
proceedings by the mother, who has no legal
training, speaks Chinese, and filed pro se. The
defendant doctor moved for summary judgment
on the ground that the mother did not properly
serve her (there is no allegation that she did not
receive the complaints, just that she was served
by certified mail and later by the sheriff).
Defendants also claimed that they had immunity
for their reports and/or testimony, that the
mother had provided no expert affidavits to
support her claims, and that she should not be

32 J. L. was returned to his father in July but it was two more
months (eleven months total) before his mother was
allowed to have unsupervised contact with him.

APP. C
34a
permitted a continuance to obtain an attorney
and/or expert affidavits.
In her initial response to summary
judgment, the mother requested to amend the
complain dismissing her children when told that
she “cannot represent children” as non-attorney
parents.
In this motion for reconsideration, the
mother brings to the attention of the Court of the
minority status for the two children, JLand LL.
ADA of 1990, Rehabilitation Act and Washington
Constitution guarantee and protects minors’
(especially disabled minor) fundamental rights
to fairness and meaningful access to the Court.
It is unconstitutional to dismiss minors’ claims
with prejudice whose statute of limitations will
not begin to run until they reach of the age of
majority. (JL is now almost 7; LL is 9.) The
applicable sections are CR 59(7) (dismissal with
prejudice against the children is contrary to law
since their statute of limitations has not run) and
CR 59 (9) (substantial justice has not been done,
particularly for the children, who have suffered
and continue to suffer irreparable harm).
In the alternative, she asked that the
Court find the action on behalf of the minors to
be a nullity due to the failure to appoint a GAL
to bring the action. She pointed out that since
there was no action on behalf of the minors for
judicial consideration, there was no action to
dismiss.

APP. C
35a
Childrens’ claims. Constitution protects the
statute of limitations for the children does not
begin to run until the children reach the age of
majority [in Washington, age 18]. It is contrary
to law for the Court to deny the children an
opportunity to present their claims at all, even
though their statute of limitations will not expire
until their twenty-first birthdays. If the
children’s complaints are void due to failure of
appointing GAL, they have not legally filed any
actions, and have many years left to do so.
Immunity. It is an issue of fact as to whether
the actions of the defendant physician was taken
“in good faith.” Although the defendant claimed
that she merely referred the case to CPS, this
does not explain, among other things, why Dr.
Halamay failed to consult with the child’s main
treating doctors and review medical records
before making his diagnosis and testifying on
behalf of DSHS. At the shelter care hearing, the
judge was outraged that doctors never tried to
review the child’s medical records, talk with the
child’s main treating physicians, or talk with the
parents; indeed, the judge had to order Dr.
Migita from SCH to talk with Dr. Green. DSHS
eventually determined that doctor’s report was
contrary to the medical records.
The defendants argue that they are
protected by immunity and that the plaintiffs
were properly required to present opposing
expert affidavits at this early stage, without, in
response to the defendants’ affidavits, which do
not address the facts but instead state simply

APP. C
36a
that they acted in good faith. As seen from
defendants’ motion for summary judgment, it is
not a “reporting” but “a pre-arranged action’ so
that defendants were not immune.
Expert reports. The defendants claim that
they are entitled to summary judgment because
the plaintiffs have not “identified any expert
witness, qualified or not, that will testify to the
standard of care of Dr. Halamay, or that any
alleged action fell below that standard.” This is
disingenuous. The defendants are well aware
that J L’s treating doctors - including those
relied upon by the State - were shocked by Dr.
Halamay’s diagnosis, which they found well
below the standard of care. At the shelter care
hearing, JL’s treating providers who testified to
this effect, including Dr. Green and Dr.
Gbedawo, Jason’s two main treating physicians,
and Brooke Greiner, Jason’s occupational
therapist, who provided a report.33
For eight months, JL’s autism specialists told
the State that the diagnosis by the defendant
doctors was flat-out wrong and that the parents
were providing appropriate treatment.

2 Other experts in the underlying cases who are
expected to testify in these proceedings include Dr.
Chan, psychologist/autism specialist; Dr. Chung,
Jason's ABA therapist; Anastasiya Shapovalova,
behavioral analyst; and Dr. Hugeback, Ph.D. in
Statistics and author of paper on autism. In addition,
Sally Ongaro, visitation supervisor, kept a record of
Jason's continuing GI problems during foster care.

APP. C
37a
In addition to her report, Ms. Greiner
advised the Assistant Attorney General via email:
J. L. has autism and is not a subtle
presentation of autism. He needs and
deserves the usual recommended
services and supports for treatment of
autism. I believe this is what his parents
have been providing since learning Jason
is autistic.
Ex. 2. In addition to his testimony, Dr.
Green, a former emergency room physician who
specializes in treatment for autism and related
GI issues, advised by email:
A detective called me, and I told her
what I’ve said otherwise - that you are
not guilty of any harmful behaviors.
Ex. 3.34 After reviewing all medical records
and CPS files, J. L.’s court-ordered pediatrician,
Dr. Julia Bledsoe from the University of
Washington, confirmed that Jason has severe
autism and GI issues, and strongly supported
Jason returning to his parents since “parents did
NOTHING wrong” and “this should NEVER
have happened”. After interviewing Dr.
34 In another e-mail, Dr. Green stated “I think it’s
damning that Dr. Migita (doctor working with
Halamay) did not bother to obtain the previous
evaluation records before jumping to his
conclusions about autism and abuse/neglect.” Ex.
2.

APP. C
38a
Halamay, CPS’ witnesses agreed that the
defendant doctors from SCH working with
Halamay were wrong, as stated in an email from
the mother’s dependency attorney, Ms. Roberts,
to the Attorney-General:
Okay, I just finished up making copies
of Dr. Quinn’s interview where he states
that he did not think the mother was
starving
Jason,
and
she
acted
appropriately given she did get Jason to
the hospital on the 20 th and he was
released. There is a load of excellent
information from him which again shows
that the parents did nothing wrong. He
admits to making a decision without all
the information.
This case needs to be dismissed.
Period. The department concerns are
based on incomplete and just plain
wrong information... These parents have
done nothing wrong and how one feels
about the mother is not a basis for
dependency. Given what I know now, I
would be ten times worse than Susan if
someone did this to my family.
Ex. 3. 4 Immediately after receiving this email, the Department dismissed the dependency
The criminal
petition without conditions,
charges were also dismissed within days “due to
evidence discovered after the time of filing.”

APP. C
39a
It is evident from the records in the underlying
cases, much of which is described in the
materials submitted by the defendants, that
multiple experts are willing to testify in person
or via affidavit that Dr. Halamay fell well below
the standard of care by ignoring JL’s medical
history and rejecting the diagnoses and
successful treatment plans of the treating
doctors and therapists who were monitoring his
progress carefully, causing great harm to JL and
his family. Because the mother, who speaks
Chinese and has no legal training, was not able
to provide affidavits, or even to understand what
they were or why they were needed, she asked
the Court to appoint an attorney to assist with
her filing. If the Court wishes to revisit this
issue, a court-appointed attorney should be
granted so that formal affidavits may be
obtained.
In her 5/11/2017 email to the Court (exhibit
1), Ms. Chen explicitly requested the Court to
appoint counsel to assist with this complex
litigation “in the interest of the fundamental
right of access to fairness and justice”. Ms. Chen
was found indigent by this court and was
represented by Office of Public Defense. As an
indigent litigant, Ms. Chen recognized her
disadvantage without assistance of counsel, she
requests that “meaningful access to the justice
compels appointment of counsel”. Ms. Chen
wants to have “an opportunity to be heard” and
“an opportunity to offer proof.” Ms. Chen also
brought to the attention of the Court that “it is a

APP. C
40a
case involving a disabled minor’s constitution
rights to justice”.
Interest of justice. It is not in the interest of
justice to dismiss the parents’ claims against the
doctor who set in motion the events that have
caused serious damage to JL and his family. It
would, however, be an even more extreme
miscarriage of justice to dismiss the children’s
complaints with prejudice when they have had
no opportunity to present their claims and their
statute of limitations will not run for more than
a decade. This miscarriage of justice is
particularly great in view of the extreme and
irreparable harm that both children - but
especially JL — have suffered and will continue
to suffer in the decades to come.
Respectfully submitted,
/s/ Susan Chen
Susan Chen, pro se plaintiff
PO BOX 134,
Redmond, WA 98073
M K was asked to type the document for Ms.
Chen due to her vision difficulties caused by
subconjunctival hemorrhages she is suffering.
/s/ M. K.
DATED this 19th day of May, 2017.

APP. C
41a
EXHIBIT 1
From: <brookegreiner@comcast.net>
Date: Thu, Feb 6, 2014 at 12:17 PM
Subject: Re: Neurodevelopmental evaluation
To: "LaRaus, David (ATG)" <DavidL2@atg.wa.gov>,
Ivy Chung <ivv@magnoliabehaviortherapv.com>
Cc: "Kegel, Jill C. (DSHS/CA)"
<KegelJC@dshs.wa.gov>, lian naixiang
<liannaixiang@gmail.com>, David Hoekendorf
<dmhoekendorf@vahoo.com>, "Barnhouse,
Kathryn" <Kathrvn.Barnhouse@kingcountv.gov>,
Caren Goldenberg <caren.goldenberg@gmail.com>.
Hillary Winslow-Simpson
<HillarvWS@childhaven.org>. Anastasiya
Shapovalova
<anastasiva@magnoliabehaviortherapv.com>
Mr. La Raus,
Thank you very much. It is my strong opinion that
Jason has autism. The doctor’s recommendations
lack key services that children with autism receive.
It will be helpful to see her report; I appreciate that
Jill Kegel will be sharing it.
Throughout the time Jason has been separated
from his parents, there have been multiple
statements that question whether or not Jason has
autism. I have found this extremely surprising. I
have provided occupational therapy to children
with autism since 1978.1 have participated in team
evaluations of children and have contributed to
team decisions about whether or not a child has

APP. C
42a
autism (Boyer Children’s Clinic in Seattle and
Providence Hospital Children’s Center in Everett).
J. L. has autism and is not a subtle
presentation of autism. He needs and
deserves the usual recommended services
and supports for treatment of autism. I
believe this is what his parents have been
providing since learning Jason is autistic.
Respectfully,
Brooke Greiner
206.595.5245

APP. C
43a
EXHIBIT 2

From: John Green
Date: Tue, Jan 14, 2014 at 2:42 PM
Subject: Re: updates from Susan
To: lian naixiang &lt;liannaixiang@gmail.com

yes, do you have record of their statement that he
had visited with me? Also, I think it’s damning that
Dr. Magita did not bother to obtain the previous
evaluation records before jumping to his conclusions
about autism and abuse/neglect. JG

From: John Green
Date: Fri, Feb 7, 2014 at 11:22 AM
Subject: Re: criminal charge document for Lian.
To: lian naixiang &lt;liannaixiang@gmail.com

I knew about the criminal charge in October or so,
and I believe I conveyed something of it to you. If I
didn’t, I’m sorry, as I also figured you’d be notified. A
detective called me, and I told her what I’ve said
otherwise-that you are not guilty of any harmful
behaviors. JG

APP. C
44a
EXHIBIT 3
From: Susan Chen <tannannan@gmail.com>
Date: Thu, May 11, 2017 at 3:24 PM
Subject: Re: No. 16-2-26019-5 SEA; Chen v
Halamay, et alTo: ramsdell.court@kingcounty.gov
<ramsdell.court@kingcounty.gov>, todd@favros.com
<todd@favros.com>
Cc: Carter, Twyla <twyla.carter@kingcounty.gov>,
Danielle C. Noune <danielle@favros.com>
To the Court
Mary was asked to type the followings for
Susan Chen due to her vision crisis-—
Eye Doctor's note is attached in this email for
understanding,
Ms. Chen's
In
reference.
"mandarin" is the synonym of "Chinese" in English.
Defendant argued that she is immune for
"reporting" but this cannot explain why she did not
review medical records and contact the child's main
treating physician before jumping to a conclusion.
At the shelter care hearing, the Court was
"outraged" that the doctors did not contact the
child's main treating physician, and orders the
doctor to talk with the child's main treating
physician.There are tons of evidence supporting the
merits of the case but an effective presentation
needs the assistance of counsel. Ms. Carter, as the
former defense attorney after reviewing more than
thousand pages" records including all medical
records and CPS files, and also interviewed

APP. C
45a
defendant Dr. Halamay, concluded that plaintiffs
were absolutely innocent but were treated too
poorly. Ms. Carter does not assist with the current
case.
In the interest of the fundamental right of access to
fairness
and
justice,
Ms. Chen respectfully
requests the Court to appoint counsel to assist with
the complex litigation so that plaintiffs have "an
opportunity to be heard" and "an opportunity
to offer proof’. It is a case involving a disabled
minor's constitution rights to justice. He was
suffering and will continue to suffer due to
defendants' mistakes. Considering the absence of
proficiency in English language impairing
plaintiffs ability to understand the proceeding or to
communicate effectively their interests to the court,
the imbalance of power between parties as
unrepresented pro se litigant v. defendant
represented by experienced lawyer, etc. Meaningful
access to the justice compels appointment of
counsel.
Thank you very much!
Respectfully,
Susan Chen
(Mary typed the above for Susan Chen per her
request)

APP. D
46a
THE COURT OF APPEALS FOR THE STATE
OF WASHINGTON DIVISION ONE
SUSAN CHEN, et al
Petitioner,

No. 76929-4-1

vs.
KATE HALAMAY et MOTION FOR
al.
RECONSIDERATION
Respondents
I. INTRODUCTION
REQUESTED

AND

RELIEF

Pursuant to RAP 12.4, Appellants submit
this Motion for Reconsideration35 and request
that the Court’s reconsider its February 10,
2020 Order affirming the trial court’s order
granting Defendants’ motion for summary
judgment for three reasons.
First, in holding that there is no issue of
fact in determining whether Defendant
Halamay acted “negligently” or in “bad faith”
in filing a CPS report, the Court relied upon
Defendant Halamay’s one-sided statement of
35 Due to the fact that “practice of law” is an
interested topic for Washington State Bar
Association, a copy of this motion will be served
upon the Bar and some of its active members, as
well as some other interested parties as some
other reflected by the names in the service list.

APP. D
47a
facts, which is contrary to the submitted
affidavits as well as the medical records.
These disputed facts require a reversal.
Second, Halamay made no efforts to consult
with J.L.’s primary care autism/G.I. doctor Dr. Green, a highly respected medical doctor
and autism specialist and learned of J.L.’s
medical history prior to jumping to a medical
conclusion. This Court did not address the
issue of how a medical conclusion without
reviewing a patient’s medical history could
meet standard of care.
Finally, the Court dismissed with prejudice
not only the claims of the parents, who
brought this case pro se despite severe
language difficulties and lack of legal training,
36 but the claims of the children, who were not
represented by counsel or even a guardian ad
litem. The rights of the children to proper
representation should not depend on the legal
skill of pro se parents. Despite the fact that
Chen was not qualified or licensed to practice
law 2 in Washington state, the Court gave her
the privilege of unauthorized practice of law
on behalf of others — specifically, her minor
children, J.L. and L.L. - in a case that resulted
in devastating lifelong disabilities for J.L. See,
e.g., Wash. State Bar Assn. v. Great W. Union
Fed. Saw. & Loan Assn., 91 Wn.2d 48, 586
P.2d 870 (1978) (holding non-licensed lawyers’
legal activities constitute “unauthorized
36 See, CP 1505 (Chen declares, “I do not have any
legal training or experience in the legal
profession”.). Also, Appendix A of this Motion.

APP. D
48a
practice of law” and “[t]he “pro se” exceptions
are quite limited and apply only if the
layperson is acting solely on his own behalf’)
(emphasis in original). As this Court recently
made clear, “Only legal counsel can advocate
for the legal rights and interests of a child”. In
the Matter of the Dependency of E.M., Julia
Morgan Biryukova v. State of Washington,
Department of Child, Youth and Families (No
78985-6-1) (Division I) (February 24, 2020)
(emphasis added). In this case, J.L. — who
deteriorated in DCYF custody to the point
that he lost, seemingly permanently, all
speech, toilet training and responsiveness was deprived of legal counsel and his claims
dismissed with prejudice more than a decade
before his statute of limitations would have
run. Since Chen’s representation of J.L. and
L.L. was legally prohibited, any judgment
against the children was invalid. At
minimum, any dismissal as to the children
should be “without prejudice.”
II. STATEMENT OF FACTS
Although the court is required to review
“the record as a whole” (Streater v. White, 26
Wn.App. 430, 435, 613 P.2d 187, rev. denied,
94 Wn.2d 1014 (1980)), the Court in this case
adopted the statements of Defendant
Halamay, which are contrary to the medical
records, and ignored the sworn statements of
the mother (CP 996-1010; 1504-1523) and
Attorney witness Ms. Twyla Carter who
directly interviewed Defendant Halamay (CP

APP. D
49a
1526-1529), which are supported by the
medical records.37 Although Halamay gives
the impression that she was J.L.’s primary
care provider, Halamay never treated J.L.’s
autism or G.I. issues, and she ignored the
records in her file confirming that these issues
were being treated by others, including Dr.
Green, and numerous Seattle Children’s
Hospital clinics, including the Nutrition, GI,
Audiology, Endocrinology, Otolaryngology
and Nephrology Clinics. Halamay also knew
that J.L. was receiving traditional autism
therapy; this too was in her records. In
contrast, Halamay saw J.L. only three times,
mostly on Saturday when J.L’s main
physicians were unavailable. If she had
concerns with the treatment plan for J.L., she
knew who to call - but she did not do so.
Instead, she called CPS and the Seattle
Children’s Hospital child abuse team, giving
them3 false information on J.L.’s medical
conditions and the care he was receiving. She
then repeated her false claims, ensuring that
she would not be held accountable for her
actions.

37 Halamay also shared false information with Dr.
Quinn. In the recorded interview by Ms. Carter,
Halamay admitted that “she did not discuss with
Dr. Quinn [about] J.L.’s two-year history of
fluctuating weight, stomach distention, or
digestive problems nor did she learn that Dr.
Quinn had seen J.L. only one time more than six
months ago. See Carter Decl., at CP 1528.

APP. D
50a
Halamay’s false claims are reflected
throughout the Court’s February 10, 2010
Opinion. For example:
•

Halamay (and the Court) suggest that the
mother did not obtain treatment for J.L.
after he was diagnosed with autism in
2012. In fact, when Halamay met J.L. on
August 31, 2013, he had been receiving
treatment for autism and associated G.I.
issues for more than a year from numerous
treatment providers, including his primary
care doctors (Green and) and various SCH
providers. See,autism diagnosis (e.g., CP
997-98, 1078, CP 1078-1079 &1083-1084);
autism treatments (e.g., CP 1061-1063,
1043-1044, 1034-1037; 1061-1063; CP
1080-1082; 1086-1087 and more); GI
treatment (e.g.,1045-1047).

•

J.L. only saw Halamay when his main
providers were not available, typically on
Saturdays. See, Carter Decl. at CP 1527.

•

Contrary to Halamay’s claim, the family never
moved to Oregon. Instead, the family continued
to care for the children in Seattle, only taking
J.L. to Oregon (and later to New York and
Harvard) for specialized care. This is evidenced
by J.L.’s extensive care received at SCH as well
as the in-home ABA therapists during that
period of time.

•

Halamay knew J.L. was being treated for
autism and related GI issues by Dr. Green - his

APP. D
51a
name was in her records as well as on the order
and labs that J.L.’s parents brought to her- but
she did not contact Dr. Green before rejecting
J.L.’s autism diagnosis and treatment plan in
favor of a claim of abuse or neglect, e.g., CP
1527, 1528.
•

Halamay admitted that when she reported to
CPS alleging J.L. suffered from kidney failure,
his kidney function functions had normalized,
e.g., CP 1005, 1193.

•

Halamay knew J.L. improved before the
October 23 referral but falsely alleged that J.L.
became worse, e.g., CP 1528. She also admitted
that she had falsely alleged that Chen did not
follow referrals. CP 1528-1529. Notably, in a
recorded interview by defense counsel Twyla
Carter, Halamay “was unable to provide even
one valid example that parents failed to follow
her instruction”. CP 1005. Also, see, Appendix
A. Yet this claim continues to appear
throughout the Opinion. See, Opinion at 5.

•

Instead of discussing J.L.’s treatment with his
parents or primary providers, Halamay called a
child abuse pediatrician at Seattle Childrens
Hospital who had no knowledge about J.L.’s
medical history, thereby initiating a child
abuse workup. CP 1004-5. Like her reported
conversations with other doctors or care
providers, one of whom (Dr. Quinn) had seen
J.L. only once, this went well beyond
“reporting” child abuse to CPS, for which she
claims immunity.

APP. D
52a

•

The Court states that on October 20, 2013,
“providers allowed J.L. to return home on the
condition that Chen promptly follow up on
J.L.’s nephrology,
gastroenterology, and
endocrinology treatment order.” Opinion at 5.
In fact, the 10/20/13 records state “follow up
with Kate Halamay 1 to 3 days” and “SCH
Nephrology Clinic 1 to 2 weeks”. CP 893. On
October 23, family first took J.L. to Dr.
Gbedawo, his primary care provider, who found
that his labs were satisfactory and advised a
follow up in 10 days. Parents then took him to
Defendant Halamay, who reported her to CPS,
J.L. understandably could not follow up with
the SCH Nephrology Clinic since he was taken
into DCF custody on October 24, 2013.

•

Similarly, the Court states that Dr. Quinn
informed Halamay on October 23 “that Chen
had taken J.L. to see him several times during
the time Chen was also bringing J.L. to see Dr.
Halamay”. Opinion, at 5. In fact, Dr. Quinn saw
J.L. only once (CP 1004-5; 1528), more than six
months earlier. In this call, Dr. Quinn
purportedly expressed concern that J.L. “was
not receiving appropriate medical attention
despite seeing numerous doctors”. It was not, in
short, a secret that the family was seeking and
obtaining treatment for J.L. from multiple
physicians. Rather than refusing to obtain the
recommended treatment, family was already
obtaining it and saw no need for duplication.

APP. D
53a
•

The Court’s Opinion further omits that in
addition to obtaining appropriate therapy
for J.L., the parents made multiple calls to
Halamay’s clinic requesting referrals for
therapy. As set forth in the mother’s
declaration and other attachments,
Halamay’s records contain 18 pages of
records of such requests. CP 999.

III. ARGUMENTS
A. The Court’s ruling is based on
false
Halamay’s
Defendant
statements.
The Court did not specify whether the
dismissal was on the merits or on procedural
grounds. If the dismissal was based on
procedure, the dismissal should be without
prejudice, particularly for the children, whose
statutes of limitations have not run. If the
dismissal was on the merits, then factual
findings are required by CR 41 (b)(3) and CR
52 (a)(2). There is no dispute that the trial
court never entered the required factual
findings to support the dismissal was on the
merits. Also see, Appellants’ Br, at 35.
The Court is required to review the
record as a whole. Streater v. White, 26 Wn.
App. 430, 435, 613 P.2d 187, rev. denied, 94
Wn.2d 1014 (1980) (holding that the court
should review “the record as a whole”). In this
case, the issue is whether Halamay was
operating in good faith and without negligence
in filing a report with CPS that is now

APP. D
54a
confirmed to be false. What the evidence
shows is that Halamay not just making a
report; she was ignoring the child’s prior
diagnoses and treatment plan and building a
case against the mother by working behind
the family’s back, a strategy that was
devastating to her patient. When moving to
vacate, Chen pointed out material factual
disputes in her own declaration (CP 15101524) as well as in a declaration from a prior
attorney, Twyla Carter, who found “a number
of the statements in Dr. Halamay’s
declaration to be misleading, incomplete, or
inconsistent with the statements she made
during our recorded interview in 2014”. See
CP 1527. These misleading, incomplete and
inconsistent statements are directly relevant
to whether Halamay’s CPS referral was made
in good faith and are more than sufficient to
require a hearing. “The standard definition of
good faith is a state of mind indicating honesty
and lawfulness of purpose.” Whaley v. State,
90 Wn. App. 658, 668, 956 P.2d 1100 (1998).
Chen’s
affidavit
identifies
multiple
misstatements of the medical records, while
Ms.
Carter’s
affidavit confirms that
Halamay’s statements were inconsistent and
contradictory with her earlier defense
interview. Good faith requires “honesty and
lawfulness.” The dishonest statements made
by Halamay in her initial report and
throughout these proceedings cannot be
considered to be “in good faith”.

APP. D
55a
Given these factual disputes, Halamay’s
credibility is a triable issue. “It is not the
court’s function to resolve existing factual
issues nor can the court resolve a genuine
issue of credibility such as is raised by
reasonable contradictory or impeaching
evidence”. Dickson v. Edwards, 105 Wn.2d
457, 716 P.2d 814 (1986). The trial court’s
failure to address this issue was an abuse of
discretion. In ruling that Halamay was in
good faith (Opinion at 17), this Court
overlooked the factual disputes raised by
Appellants, which establish bias and bad
faith.
B. The minors were not given notice in
the litigation.
“An elementary and fundamental
requirement of due process in any proceeding
which is to be accorded finality is notice
reasonably calculated,
under all the
circumstances, to apprise interested parties of
the pendency of the action and afford them an
opportunity to present their objections.”
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 314 (1950). Also, State v. Douty,
92 Wn. 2d 930, 603 P.2d 373 (1979) (holding
“it should be noted that the child, though
named in the action, was never served.
Consequently, he is not before the court.”).
Throughout the litigation, records
before this Court supports an undisputed fact
that minors were never personally served any

APP. D
56a
of the filings or orders. Without appointment
of a guardian ad litem or counsel for the
children, the minor plaintiffs did not receive
notice. In Anderson v. Dussault, 180 Wn.2d
1001, 321 P.3d 1206 (2014), the Washington
Supreme Court stated:
“because the court never appointed
Rachel [the minor] a guardian, she did
not receive legal notice of her potential
breach of trust claim, or her right to
demand an accounting under the TAA,
until she turned 18. At that point the
three-year statute of limitations began to
run, and she properly initiated this
action within three years of that time,
when she was 20 years old.”
Under Due Process, it is fundamental
that parties whose interests are at stake must
receive notice. Such notice was not given to
the minors, who were not represented by a
guardian ad litem or counsel and who would
not in any event have been capable of
understanding what they were receiving
without such assistance due to age (L.L) and
disability (J.L.) Dismissing the minors’ claims
with prejudice without ensuring that they
received meaningful notice violates the
children’s due process rights.
C. The Court erroneously granted pro se
litigants the privilege of unauthorized
practice of law.

APP. D
57a
“In all courts of the United States the
parties may plead and conduct their own cases
personally or by counsel...” See, 28 U.S.C. §
1654. Similarly, Washington courts have long
recognized that only licensed lawyers can
practice law. e.g., Washington State Ass’n v.
Washington Ass’n of Realtors, 41 Wn.2d 697,
699, 251 P.2d 619 (1952). In Wash. State Bar
Assn. v. Great W. Union Fed. Sav. & Loan
Assn., 91 Wn.2d 48, 586 P.2d 870 (1978), the
Washington Supreme Court reiterated that
“[o]rdinarily, only those persons who are
licensed to practice law in this state”. RCW
2.48.010 et seq; APR 5, 7. Having recognized
the “pro se exception”, the Supreme Court
made clear that “[t]he ‘pro se’ exception are
quite limited and apply only if the layperson
is acting solely on his own behalf.” (emphasis
in original). Id.
General Rule (GR) 24 (a) defines the
practice of law as follows, in part:
(a) General Definition: The practice of
law is the application of legal principles
and judgment with regard to the
circumstances or objectives of another
entity or person(s) which require the
knowledge and skill of a person trained
in the law. This includes but is not
limited to:
(1) Giving advice or counsel to others as
to their legal rights or the legal

APP. D
58a
rights or responsibilities of others for
fees or other consideration.
(2) Selection, drafting, or completion of
legal documents or agreements
which affect the legal rights of an
entity or person(s).
(3) Representation of another entity or
person(s) in a court, or in a formal
adjudicative
administrative
proceeding or other formal dispute
resolution process or in
an
adjudicative
administrative
proceeding in which legal pleadings
are filed or a record is established as
the basis for judicial review.
Per GR 24, any legal activities such as
“drafting or completion of legal documents” or
“representation” are considered the practice of
law. Also see Jones v. Allstate Ins. Co., 146
Wn.2d 291, 302, 45 P.3d 1068 (2002) (quoting
State v. Hunt, 75 Wn. App. 795, 802, 880 P.2d
96 (1994) (quoting Wash. State Bar Ass'n v.
Great W. Union Fed. Sav. & Loan Ass'n, 91
Wn.2d 48, 55, 586 P.2d 870 (1978)).
In order to practice laws in
Washington courts, one is required to be an
active member of Washington State Bar. Prior
to admission, one is required to complete the
require legal training, pass the bar exam, and
receive an order from the Supreme Court of
Washington admitting one to practice law.

APP. D
59a
Chen does not meet any the above
requirements and can therefore only
represent herself under “pro se exception”.
The same is true for Lian. Without
authorization to practice law, the parents
cannot represent others, including two
minors.
There is no question but that the parties
in this case were pro se. At the beginning of its
opinion, this Court recognized that parents
are pro se litigants by writing “Pro se litigants
Susan Chen and Naixiang Lian...”. Even with
the knowledge that Chen was pro se, this
Court mistakenly stated, “A parent may
initiate a lawsuit as a guardian on behalf of a
minor child.”. Opinion at 16. In making this
conclusion, this Court cited Taylor u.
Enumclaw Sch. Dist. No. 216, 132 Wn. App.
688, 694, 133 P.3d 492 (2006) but Taylor is
factually distinguished: parent in Taylor was
not pro se but was represented by counsel,
specifically, by a law firm named Tyler K.
Firkins, of Vansicien Stocks & Firkins.
In making a determination that the pro
se parents could represent their minor
children in this case, the Court improperly
granted them privileges of unauthorized
practice of law, which is prohibited by laws. A
search of data base in Washington courts
generates no results that a pro se litigant is
authorized to represent others in Washington
courts. In this case, moreover, the parents
were representing the minor children,

APP. D
60a
including a severely disabled child, with no
regard for whether there might be conflicts
between the parents and the children, or
whether the parents were capable of
representing the children’s best interests. It is
one thing for the Court to say, as it did, “A pro
se litigant is bound by the same rules of
procedure and substantive law as a licensed
attorney.” Opinion at 11. It is another to say
that this rule can be used to eliminate the
rights of a severely disabled child, without
benefit of a guardian ad litem or counsel.
Since the parents were legally not allowed to
represent their minor children, J.L. and L.L.
were never before the court, and should not be
bound by the judgment.
IV. CONCLUSION
In light of the foregoing, Appellants
respectfully ask the Court to reconsider its
decision affirming trial court’s order granting
defendants’ motion for summary judgment. At
minimum, this Court should revise the orders
against the minors J.L. and L.L. to read
“without prejudice.”
DATED this 28th day of February 2020.
Respectfully submitted,
/s/ Susan Chen
Susan Chen, pro se
PO BOX 134, Redmond, WA 98073

I

APP. D
61a

APPENDIX A
In support of motion for reconsideration
In Court of Appeal, Division One

APP. D
62a

Declaration of Susan Chen
I, Susan Chen, make the following declaration
based on my personal knowledge:
1. I am over the age of eighteen.
2. I have attached as Exhibit A, a translated
version of my May 16, 2018 Declaration
highlighting a number of disputed issues
discovered in J.L.’s newly discovered medical
records. The contents in this translated
version are the same as these in the original
version, except for the substitution of the
clerks’ papers with original page number. The
sole purpose for the translation is for the
convenience of this Court.
3.

A true and correct copy of my May 16, 2018
Declaration can be found at CP 1510-1524.
I, Susan Chen makes this declaration under
penalty of perjury under the laws of
Washington in Seattle, Washington on
February 1, 2019.
/s/ Susan Chen
Susan Chen

APP. D
63a

EXHIBIT A OF DECLARATION OF
SUSAN CHEN
IN SUPPORT OF MOTION FOR
RECONSIDERATION IN COURT OF
APPEALS, DIVISION ONE

APP. D
64a
The honorable Ken Schubert
SUPERIOR COURT OF WASHINGTON FOR
KING COUNTY
SUSAN CHEN, et al

NO. 16-2-26019-5 SEA

Petitioner,

DECLARATION
OF
SUSAN
CHEN
IN
vs.
SUPPORT OF MOTION
VACATE
KATE HALAMAY et TO
SUMMARY
al.
JUDGMENT
Respondents
I, Susan Chen make the following declaration
based on my personal knowledge:
1. I am over the age of eighteen.
2.

I am mother of two minor children, J.L.
and L.L. I speak Chinese. I do not any legal
training. Prior to the wrongful CPS
involvement
arisen
Defendant
by
Halamay, I do not have any criminal
history nor any record for suspected child
abuse/neglect.

3. My older child, L.L has been considered as
“a happy child” by his teachers. He loves
sports and music. He is the No. 1 winner
for International Mathleague (China
District) in 2016. My younger child, J.L has
complex medical condition. He was
diagnosed as autism by Lakeside Autism

APP. D
65a
Center in 2012, and has been working with
a team of providers including autism
specialists (Dr. Green and Dr. Gbedawo),
as well as therapists (occupational
therapist, speech therapist, physical
therapist, ABA therapist, etc.) for
behavioral modification. He also sees other
gastroenterology,
specialists
(e-g.
nutrition, feeding, etc.) when necessary.
He occasionally sees urgent care.
4. Prior to bringing the motion to vacate, I
only read the medical record provided by
defendant Kate Halamay. Most recently, I
am able to read an original and complete
medical record for J.L. in this clinic
provided by Attorney General’s Office
through discovery in a federal civil action
(#16-CV-01877-JLR).
5.

I have attached as Exhibit A, a true and
correct copy of medical record (minors’
personal information redacted) in support
of motion to vacate. This second set of
medical records (“original medical record”)
reveal significant omissions from the
medical records provided by Defendant
Halamay before.

6. A comparison on two medical record
reveals Defendant Halamay withholds one
hundred thirty-five (135) pages’ critical
medical information from this Court; The
complete medical record also supports the
fact that defendant Halamay knew J.L see

APP. D
66a
Dr. Green, but did not contact Dr. Green
before making a diagnosis and/or
conclusion of child abuse.
7. Based on this complete medical record, J.L.
was seen at Urgent Care Clinic Pediatric
Associates for a limited time: twice on
Saturday for labs when his main treating
physicians was unavailable; two for follow­
ups. Defendant Halamay saw J.L. for three
times (one on Saturday, one follow-up for
lab results) prior to making her conclusion
on a child abuse/neglect.
8. This first time J.L was seen at Pediatric
Associates
Redmond
Clinic for
a
gastrointestinal distress. The attending
physician was Dr. Megan Kullant who
believes that “it was only because he has
autism”, and “GI problem is commonly
seen in autistic children”. No treatment
was provided except directing parents to
seek an autism evaluation. Referrals were
placed for SCH Autism Clinic and SCH
Nutrition Clinic for Growth and Feeding.
During this visit parents informed Dr.
Kullnat that J.L is allergy to cow milk. Per
medical record, “Diet: He had diarrhea
with cow milk.” See, original medical
record, CP 1025. Five pages’ clinical notes
(see, Id, 1024-28) for Dr. Kullant was
completely missing in the medical record
submitted by Defendant Halamay.
9. Per original medical record, parents
quickly contacted SCH Autism Clinic and

APP. D
67a
J.L . was placed on the long waiting list.
See, Id, CP. 1078. While still on SCH
Autism Clinic’ waiting list, J.L. was tested
by Lake Autism Center (Id, CP 1078-1079;
CP
1083-1084)
subsequently
and
evaluated by Kindering Center on
September 26 (CP. 1061-1063). Parents
decided to seek alternative therapy service
due to the long waiting list for Kindering
Center. Per record, J.L. was also seen at
SCH Nutrition Clinic for Growth and
Feeding on September 10, 2012. See, CP
1043-1044. Note: records for CP 1043-1044
and CP 1083-1084 were again missing in
Defendant Kate Halamay’s submitted
“medical records”.
10. To rule out the potential hearing problems,
parents took J.L. for three hearing tests:
two at Evergreen Speech & Hearing Clinic
(See, CP 1030-10331; see also, CP 10381042) and one at SCH Audiology Clinic
(See, CP 1052-1053). He was also seen at
SCH GI Clinic. See, CP 1045-1047. J.L.
receives occupational therapy (OT) at
Bothell Pediatric & Hand Therapy (P.
1066-1069, 1072-1075, 1083-1085), as well
as Maple Valley Pediatric Therapy. (CP
1080-1082). These records are once again
missing
in
Defendant
Halamay’s
submitted medical record.
11. The missing records for #9 and #10
totaling of thirty-four (34) pages are

APP. D
68a
missing in Defendant Halamay’s “so-called
medical record).
12. In order to quickly put J.L. on therapy
service, J.L.’s parents made multiple calls
to the clinic requesting referrals for
therapy. See CP 1034-1037, CP 1061-1063,
CP 1080-1082). Other records include:
calling requested information (like growth
chart) to have him seen at GI clinic, See CP
1088- 1089; parents calling to inquire
about lab results, See CP 1109-1110, CP
1120-1121, etc. The above eighteen (18)
pages’ records are once again missing in
the
Defendants’
submitted medical
records.
13. After his autism diagnosis, J.L. has been
under care of autism specialist Dr. Joh
Green (an Oregon doctor) in conjunction
with Dr. Gbedawo (a local doctor) as well
as therapist (OT, speech, physical and
ABA therapist). J.L. made documented
progress. Per record received at Pediatric
Associates, he works with OT and speech
therapist at Bothell Pediatric& Hand
Therapy. He is seen by OT at Maple Valley
Pediatric Therapy. See, P. 68-70. Parents
consult with OT and PT at SCH. Per a
complete medical record, all the above
therapy providers sent records to Pediatric
Associates. Defendant Pediatric Associates
has been in possession of these record, and
Defendant Halamay has access to this
record as a physician in this clinic.

APP. D
69a

14. In Defendants’ motion for summary
judgement, at P. 4. Defendants argue that
J.L’s parents did not follow instructions to
have J.L seen by SCH Autism Clinic or
Kindering, and did not follow SCH PT’s
recommended therapy. The fact that J.L
has been tested by Lakeside Autism
Center (CP 1078-1079, CP 1083-1084), and
he has been on the waiting list of SCH
Autism Clinic. See, Id, CP 1078. On a
procedure note dated on 10/23/2012 at
11:20 AM, it was written, “Mom called
back. Received message that referral sent
to Bothell therapy. Really would like
referral sent to SCH OT/PT/Speech
therapy as well. Anxious to have child
seen. Wants sent to both places so that
they can schedule with whoever available
soonest. Mom informed that I will speak to
referrals about having this forwarded to
SCH as well.” See, CP 1061-1062. Thus,
Defendant’s statement was untrue or
materially misleading, and Defendant
Halamay knew the statement was untrue
or materially misleading,
or was
deliberately indifferent to the truth when
she made it in her declaration and motion
for summary judgement.
15. Prior to this baseless CPS report and pre­
arranged removal action initiated and
caused by Defendant Halamay, J.L. saw
Defendant Halamay only three times. The
first time is on August 31 (Saturday while

APP. D
70a
his main treating physicians were
unavailable) to request rechecking labs,
per Dr. Green’s instruction. A copy of lab
results was provided to Pediatric
Associates. On the lab report, it was
printed, “Ordered by: Green, John A:, See,
CP 1094-1096. Other relevant information
was also observed, “MD from other state
order labs on kidney function which she
done at SCH. Results just came
back...Doctor contacted her and she was
told to make an appt...Mom has a copy of
the labs.” , See, Id, CP 1090. Defendant
Halamay wrote, “seen by MD in Oregon...”,
See, CP 1101. These records support the
fact that Defendant Halamay knows that
J.L saw Dr. Green when first saw him on
August 31. On October 23, Defendant
Halamay made a misdiagnosis for J.L. who
has a complicated medical situation
without consulting with Dr. Green.
Defendant Halamay made a conclusion of
child abuse/neglect without obtaining
J.L.’s medical history.
16.J.L’s labs returned improved. On
September 5, as recommended parents
followed up with SCH Nephrology who
thought that J.L.’s abnormal labs may be
have been due to “streptococcus”.
Nephrology wrote, “it is possible his
abnormal lab values were drawn at a time
when he had been dehydrated given his
history of diarrhea and inability to access
fluids.” During this visit, parents once

APP. D
71a
again informed nephrology (as what they
did at the first visit to Pediatric Associates
in 2012) that Dr. Green advises not to give
J.L. cow milk since “he had diarrhea with
cow milk.” (see, Id, CP 1025, five pages’
clinical notes of J.L’s first visit was
completely missing and withheld by
defendant Halamay). Parents followed up
Defendant on September 16 as a follow-up
for her ordering labs.
17. Based on records, Defendant Halamay
knew that J.L.is allergy to cow milk.
Defendant knew that J.L.’s abnormal test
results may also be due to his history of
diarrhea. Defendant Halamay knew J.L.
has GI distress, and she actually placed a
GI referral on September 26, 2013. See, CP
1164-1165. Per phone call records, it was
written, “Mom needs growth chart for [JL],
Has appt with GI”. See CP 1088-1089. Per
medical records, Pediatric Associates has
been in possession of J.L’s GI visit on
September 14, 2012. See, CP 1045-1047.
Defendant Halamay as a physician at this
clinic has access to this record.
18. In her motion for summary judgment, at
P. 4, Defendants argue that mother
withheld fluids from J.L. Defendant
Halamay’s false conclusion is based on
withholding Dr. Kullnat’s clinical notes,
and a misinterpretation of Nephrology’s
report as well as her own unfounded
imagination. Halamay knew this fact, or

APP. D
72a
was deliberately indifferent to the truth
when she made the conclusion.
19. J.L was seen by speech therapist at
Evergreen Speech & Hearing Clinic, he
was reported to having “demonstrated
generally consistent attendance to his
treatment sessions scheduled twice
weekly.” Speech therapist concludes that,
“[J.L.] achieved steady progress towards
and mastery of his initial treatment goal of
transitioning independently of his parents
to the therapy room to promote increased
participation in treatment activities.
Additionally, [J.L.] demonstrated steady
progress towards his goal targeting
increased joint attention via eye-gaze
shifts towards conversation partners
...Over the course of therapy, [J.L.] was
observed to communicate via nonverbal
means (i.e. pushing, reaching, grabbing
objects, using the “MORE’ sign given handover-hand assistance) and verbal means
(i.e. /ma/ which was shaped into
meaningful words including “more”).” See,
CP 1247-1249. Defendant Pediatric
Associates has been in possession of J.L’s
speech therapy records, and Defendant
Halamay has a full access to this record.
Defendant knew J.L. has a good
attendance for his therapy at the clinic,
and he made steady progress, but was
deliberately indifferent to the truth but
specially cited a misunderstanding that
has been clarified: Once while waiting for

APP. D
73a
speech session, mother and J.L. was
practicing “pushing” with J.L. but was
misunderstood as “raise her hand toward
him”.
20. Per records, due to the concerns about
J.L’s height and abnormal labs (see, Id at
CP 1109-1110, CP 1120-1121), parents
request a referral seeing Dr. Kletter (See,
Id, P. 146). Per records, it was written,
“Extremely concerned that abnormal
thyroid results could be causing all of
[J.L.]’s sx (fatigue, dev delay, GI issues,
etc)...Requesting urgent referral w/Dr.
Kletter.” See, CP 1158 See, also CP 1216,
“stes she has an appt scheduled w/Dr.
Kletter (endocrine) for next month.”.
21. Defendants alleged that Ms. Chen
“declined
behavioral therapy”,
see,
defendants’ motion, at P. 5 (CP 20).
However, medical records support that
J.L. was seeing behavioral therapy at
Bothell Pediatrics & Hand Therapy (CP
1066-1069, CP 1072-1075, CP 1083-1085),
SCH (CP 1043-1044, CP 1078-1079), as
well as Maple Valley Pediatric Therapy
(CP 1080-1082). Defendant Halamay has
access to these records but made false
statements
by
withholding
these
information from the Court.
22. After being seen at SCH GI for a couple of
months by fellow or resident without
observed progress for his digestion, J.L.’s

APP. D
74a
parents request seeing an attending
physician either at SCH, Swedish or other
medical facilities for a second opinion. It
was written, “...does not want to be seen by
a resident or fellow, wants to be seen only
by an attending.” See, CP. 1167. Again,
this fact was misrepresented as “[Ms.
Chen] who told Dr. Halamay she refused to
return to SCH.” See, Defendants’ motion,
at P. 6. Medical records indicate that
Defendant Halamay knew these facts or
was deliberately indifferent to them.
23. Due to J.L.’s continuous GI issue, J.L.’s
parents are referred by parents to see a
pediatric GI specialist Dr. Krigsman who
required to do a list of labs prior to the
appointment. On October 7, Parents went
to see Defendant Halamay, requesting her
assisting with the labs so that J.L can see
the GI specialist, but she declined. Parents
do not understand why Defendant does not
want to offer help for this sick child who
has been struggling for his digestion stress
for at least more than one year (See, Id, CP
1045-1047, record indicates that J.L. was
seen at SCH GI clinic on September 14,
2012).
24. On October 19, 2013, J.L. had diarrhea and
looked exhausted. Heeding Dr. Green and
Dr. Gbedawo’s advice, parents need to
have him checked for labs to fully
understand what was wrong with him.
Because it was Saturday, J.L.’s main

APP. D
75a
treating physicians do not work on
Saturday so if having the labs done
(ordered previously by Dr. Gbedawo),
parents may not have the results on the
same day (results typically goes back to
ordering physicians but Dr. Gbedawo does
not work on weekends). To ensure a timely
result, parents decided to request the
urgent care clinic, Pediatric Associates to
order labs for J.L. but was declined. See,
CP 1175, it was written, “Mom called the
lab at SCH and was told he could have
blood work today if I ordered it. They come
in today to get an order.” Eventually,
parents had J.L. checked at SCH urgent
care clinic at Bellevue. Parents requested
lab technician to inform them right away if
the results are abnormal, no calls from the
lab on that day.
25. On October 20, J.L looked much better but
parents still wanted to make sure he is
safe. They once again returned to SCH
urgent care at Bellevue. Parents were very
upset for not being timely notified for the
abnormal lab results. Parents told the
doctor they need to go to ER right away.
About one hour later, J.L was seen at SCH
ER in Seattle per medical records. J.L. was
re-checked labs and released by ER to
follow up with Defendant Halamay (1-3
days) and Nephrology (1-2 weeks) (CP
1214). Based on records, Pediatric
Associates is in receipt of three faxed
copies of SCH ER records on October 20 at

APP. D
76a
three different times: 10/20 at 7:51:23 PM;
10/21 at 9:59 AM and 10/22 at 2:32 PM.
See, CP 1189-1214.
26. On October 23, 2013, parents brought JL
back to see Defendant Halamay per ER’s
instruction. JL’s mother Ms. Chen has a
friction with Halamay -parents decided to
complain her poor service but was treated
with a pre-emptive CPS report and a pre­
arranged removal action (together with
SCH SCN Dr. Metz). In order to formulate
her opinion, defendant Halamay turned to
gain support from two doctors: one is Dr.
Quinn from Mercer Island Pediatric who
only saw JL one time six months ago, the
other is Dr. Metz from SCH SCAN who had
no knowledge about JL at all. Even though
gaining support from Dr. Quinn, Halamay
did not even tell Dr. Quinn all information
about JL. (Per Dr. Quinn’s interrogative
interview by Attorney Ms. Twyla Carter.)
27. Defendant Halamay has access to J.L.
medical records and knew that this is not
a child abuse case. However, In her report
to CPS, Defendant Halamay provided a lot
of false information, not supported by
medical records. For example, Defendant
claimed JL had “kidney failure” which was
not supported by available lab results and
medical records - defendant was aware JL
was seen at ER but was released deemed
as “medically stable”.(CP 1193). Defendant
also alleged that mother “has repeatedly

APP. D
77a
failed to follow through the medical
recommendation.”. This is contrary to a
review on the complete medical record
which supports a diligent and caring
mother. In the recorded interrogative
interview by attorney Ms. Carter,
defendant was unable to provide even one
valid example that parents failed to follow
her instruction.
28. In her CPS report, Defendant also alleged
mother “refused to take the child to a GI
specialist.” This is once again contrary to
medical record. JL had been seen at a
couple times at SCH GI clinic from 2012 to
2013 without observed progress. See CP
1045-1047, CP 1088-1089, CP 1170-1172.
SCH GI did not send all records but
defendants knew that JL had been seen
SCH GI, and that parents only want to
seek second opinion due to the concerns for
the child. Defendant also alleged that “the
mother has neglected to follow through on
lab
tests
to
recheck
levels
as
recommended.” Once again, defendant was
dishonest. Attorney witness Ms. Carter or
Ms. Roberts (Tel: 206-477-8770) would be
more than happy to provide evidence to the
Court that they are in possession of the
direct proof that defendant Halamay failed
to give a valid example that Ms. Chen
failed to follow her instruction. Defendant
has other similar allegations like, “The
child
has
been referred
to
the
endocrinology,
gastroenterology
and

APP. D
78a
nephrology clinic without any attempt to
follow through.” This is again rejected by a
full review of medical record. The child has
been
seen
at
endocrinology
and
nephrology. CP 1124-1126. JL has been
repeatedly seen at SCH gastroenterology
for one year and parents want to seek
second opinion from an attending
physician rather than resident or fellow.
JL’s parents initiated the request to see
Dr. Kletter due to concerns over the child
but Halamay implied in her motion that
parents did not want to see Dr. Kletter.
There are other misstatement and/or
sufficiently
misrepresentation
that
support that Defendant Halamay was
dishonest.
29. Defendant Halamay was not JL’s PCP but
JL’s parents followed all her instructions.
Defendant saw JL at urgent care several
times at urgent care. Among these 250
pages’ medical records, 205 pages were
records before he was remove. Among
these 205 pages’ records, only 18 pages’
clinical notes were from Pediatric
Pediatric
Defendants
associates.
Associates and Halamay are in receipt of
about 60 pages’ records from outside
providers, and 45 pages’ lab reports.
30. Based on records, about 70 pages indicate
that parents are actively involved in
seeking therapy for JL, requesting therapy
referrals and the like. Records indicates

APP. D
79a
that J.L. was tested by Lakeside Autism
Center and was seeing OT, PT, Speech
therapy. He saw specialists including GI,
endocrinology, nephrology. No records
supported that parents did not follow
instruction. Even that Defendant Halamay
was not JL’s main treating physician,
parents still followed her instruction.
31. Defendant did not contact JL’s main
treating physicians and reviewing medical
records before jumping to conclusion of
child abuse/neglect. Defendant knew that
available medical records did not support a
child abuse case, she deliberately withheld
critical medical information from the court
to deceive a dismissal order. Defendant
Halamay’s multiple false conclusions
contained “blatantly false and materially
misleading statements were submitted
through a declaration “under penalty of
perjury under the laws of the state of
Washington” .
32. Defendant Halamay’s initiated unlawful
CPS removal action on my two children
which subsequently led to an unlawful
criminal charge against me. I have been
heavily involved in altogether four
different legal proceedings triggered from
2013-2015, the last one did not get resolved
until 2015. My child J.L significantly
regressed and lost all his abilities he
previously had. We desperately sought
treatments, including New York, Harvard

APP. D
80a
and later China (per Harvard expert’s
advice).
33. On October 24, 2016, I filed the present
case pro se, without the benefit of counsel.
I did not receive any “Notice of Rule
Requirements” under LCR 11 (a) (3).
34. I did not receive any documents for
summary judgment defendants and was
initially unaware that defendants had filed
a pre-discovery motion for summary
judgment until late December was told by
one consulting attorney who checked the
case status and informed me of the filing
for motion for summary judgment.
35. Christmas and New Year vacation
increased my difficulties in locating a
counsel who can help with this litigation.
Mr. Kevin Scudder agrees to ask for a
continuance on my behalf. Mr. Scudder
withdrew after the New Year vacation.
36.1 consulted with many attorneys while
most of them initially showed great
interests but subsequently denied after
reading the medical records provided by
Defendants.
37. I requested a continuance to do discovery
required by CR 56(f), to adequately
respond to the summary judgment motion
raised by Defendants but Defendants
contend by stating that no amount of

APP. D
81a
discovery in this case will create any issue
of genuine material fact on summary
judgment...” Defendants’ Reply, P. 2, CP
213. Pro se plaintiffs were prejudiced and
unfairly denied the opportunity for
discovery, thus were unable to well
prepare for the response.
38. Due to the tremendous stress from the
prejudice in the courtroom, my health
deteriorated to such a point that I
experienced severe headache, and breast
pain, cannot at all get into sleep, I was
conduct
referred
to
diagnostic
mammography, X-ray, ultrasound, MRI
during the period of time. I also suffered
from severe problems for temporal losing
eye sight, sometime in March to May
experienced two severe subconjunctival
hemorrhages. I filed a notice of
unavailability in both state court and
federal court (for another case stemming
from the same event). My request was
granted
Federal
Court
for
by
demonstrating “good cause”. I provided the
pictures of my sick eyes and subsequently
emailed the Court and the Defendants eye
doctor’s letter authorizing a break, but no
accommodation was provided.
39.1 requested this Court for a two-weeks’
continuance based on proved medical
situation because I hope to have “an
opportunity to be heard” and “an
opportunity to offer proof’. I request for

APP. D
82a
continuance because I want to have a
chance to attend the hearing was not
granted.
40. On May 12, the court entered an order
granting Defendants’ motion for summary
judgement without offering me an
opportunity for “oral argument” required
by LCR 56 (c) (1).
41. On May 19, I filed a Motion for
Reconsideration, requesting this Court to
especially reconsider minors’ claims
cannot be dismissed with prejudice. On
May 22, this Court requested defendants
to respond.
42. On May 26, Defendants submitted their
response. I subsequently found Defendants
provide false information to this Court,
and decided to reply. However, I was not
provided such opportunity to “reply” in
support of my motion for reconsideration
required by LCR 59 (b)). The Court entered
an order denying my motion for
reconsideration on May 26, the same day
as defendants submit their response.
43. On May 31, I appealed the trial court’s
decision which is currently pending.
44. In May 2018, I received a copy of medical
records through discovery in federal court
civil action. This is the first time I have

APP. D
83a
access to J.L.’s original and full medical
record in Pediatric Associates.
45.1 have attached as Exhibit A, a true and
correct copy of medical records (minors’
information redacted) obtained during
Susan Chen et al v. Natalie D’Amico et al.,
Western District of Washington Case #16cv-01877-JLR. This second set of medical
records reveals significant omissions from
the
medical
records
provided
by
Defendants before.
46. Medical records support the fact that
Defendant Halamay was deliberately
indifferent to my innocence in 2013,
leading to JL and LL’s wrongful removal
and unlawful criminal prosecution against
me, and causing significant harm to the
family. It was unbelievable that in 2017
Defendant once again utilized the false
information to mislead and conceive the
Court. Defendant Halamay’s misconduct
wrongfully deprived Plaintiffs of their
legal right to due process of law by, inter
alia, depriving them of an unbiased
tribunal with a full and fair record of
evidence and a full and fair hearing.
47.1 have attached as Exhibit B, a true and
correct copy of order granting defendants’
motion for summary judgement of
dismissal.

APP. D
84a
48.1 have attached as Exhibit C, a true and
correct copy of order denying plaintiffs’
motion for reconsideration.
I, Susan Chen make this declaration under
the penalty of perjury under the laws of
Washington in Seattle, Washington on the
16th day of May 2018.
/s/ Susan Chen
Susan Chen, Pro se plaintiff
PO BOX 134
Redmond, WA, 98073
Translated on January 29, 2019.

App E
85a
NO.76929-4-1
(consolidated with 78829-9-1
COURT OF APPEALS, DIVISION I
OF STATE OF WASHINGTON

SUSAN CHEN et al.
Appellants

v.
KATE HALAMAY, M.D. and Allegro Pediatrics
(previously known as Pediatric Associates)
Respondents

APPELLANTS’ OPENING BRIEF

Susan Chen, Pro Se Appellant
PO BOX 134, Redmond, WA 98073
Telephone: (323)-902-7038

App E
86a

TABLE OF CONTENT
Page
TABLE OF AUTHORITIES

1

INTRODUCTION

1

ASSIGNMENTS OF ERROR AND ISSUES
ON APPEAL............................................. ,.... 3
A. Assignments of Error
B. Statement of Issues...
STATEMENT OF THE CASE.

3
3

5

A. Since being diagnosed as autism in 2012, J.L.
had been seeking care in Seattle Children’s
Hospital and other providers. An urgent care
provider, Halamay knew J.L.’s complicated
medical history but reported differently to
CPS in 10/2013, directly contrary to J.L.’s
medical records at Allegro Pediatrics and
without consultation with his main treating
physicians
5
B. J.L. significantly regressed after being
wrongfully removed by CPS. In 9/2014, both
state and prosecutors decided to drop the
dependency and criminal cases concluding
that this is a false CPS referral, directly
contrary to the medical facts in medical
records
6
C. In October 2016, Chen et al. pro se filed a
suit against Halamay and Pediatric
Associates, alleging Halamay’s below the
standard care and dishonest CPS report.
Halamay
quickly moved for summary

v'-'

App E
87a
judgment, relying upon a proven-to-be-false
police report and a selective J.L.’s medical
record (omitting 135 pages). Halamay did
not explain why she never contacted J.L.’s
main treating physicians before jumping to
a conclusion, nor explained why she reported
7
J.L.’s condition differently to CPS
D. On May 12, 2017, Judge Ramsdell dismissed
Chen et al.’s claims with prejudice prior to a
fair hearing. Chen moved for reconsideration,
raising issue of lacking guardian ad litem,
and minors’ unexpired statute of limitation.
Chen reiterated Halamay’s failure to consult
with J.L.’s main treating physicians before
jumping to a medical conclusion and her
failure to deliver accurate information to
CPS. Judge Ramsdell allowed Halamay’s
9
response but denied Chen’s reply
E. Chen obtained J.L.’s full medical record at
Allegro Pediatrics through discovery in a
separate federal civil action and found
significant withholds on critical medical
information in J.L.’s medical records. Chen
et al brought a CR 60 motion to vacate
judgments before Chief Civil Judge per LCR
60 (e)(2)(iii) but Judge Parisien (who was
neither the Chief Judge nor the judge signed
the judgments) exceeded her authority to
rule on the motion. Judge Parisien again did
not address issue of absence of guardian ad
11
litem
ARGUMENT

*

'i

12

App E
88a
A. Summary of Argument
B. Standard of Review.....

>>5

12
14

1. The Standard of Review Is de Novo.
Judge Ramsdell’s May 12, 2017 Order
should be reviewed for a grant of CR
14
12 (b)(2)motion
2. The Standard of Review Is Abuse of
Discretion. Denying Reconsideration
and Vacation is reviewed under this
15
Standard
3. The Standard of Review Is Clearly
Erroneous. Trial Court’s repeated
failure to comply with Mandate of
guardian ad litem statute and Judge
Parisien’s exceeding legal authority in
ruling on Chen’s postjudgment motion
are reviewed under this standard... 16
C. This Court should reverse because Chen,
Lian, J.L. and L.L. are entitled to a fair
hearing to present their claims under
17
Due Process Clause
1. The trial court erroneously dismissed
Chen’s claims with prejudice without
affording Chen a fair opportunity to
present their case in a meaningful
manner, and providing Chen an oral
argument required by LCR 56
17
(c)(1)

App E
89a
2. The trial court erroneously entered
judgments against J.L. and L.L. who
were not properly before the court for
not being represented by guardian ad
litem; and never being personally
19
served
D. This Court should reverse because trial
court’s dismissal with prejudice was not
supported by requirements for either CR
12
or
summary
(b)(2)
judgment
20
1. Trial court erred in dismissing Chen’s
claims
with prejudice
because
Halamay and Allegro Pediatrics
moving for summary judgment has
the initial burden of showing the
absence of an issue of material
fact
23
2. Trial court erred in dismissing Chen’s
claims with prejudice because
Halamay and Allegro Pediatrics had
not met their initial burden of
showing that there were no issues of
material fact
28
3. Trial Court erred in dismissing
Chen’s claims with prejudice because
Halamay and Allegro Pediatrics failed
to specifically rebut Chen’s factual
allegations which was required to be

App E
90a
treated as established under CR
12
30
E. This Court should reverse because the
trial court did not enter any factual
findings and conclusions of law to
support its decisions on disputed
facts
33
1. Judge Ramsdell did not enter any
findings to support a dismissal with
prejudice, nor good cause findings for
not appointing guardian ad litem for
minors
35
2. Judge Parisien did not enter any
findings to support a denial vacating
summary judgment, nor good cause
findings for not appointing guardian
ad litem
35
F. This Court should reverse because trial
court repeatedly failed to comply with
guardian ad litem Statute to appoint
guardian ad Litem for J.L. and
L.L
36
1. Judge Ramsdell did not appoint
Guardian ad litem for J.L and L.L.
after drawing to his attention
37
2. Judge Parisien did not appoint
Guardian ad litem for J.L. and L.L. after
drawing to her attention
37

:

App E
91a
G. This Court should reverse because Judge
Ramsdell and Judge Parisien’s denying
reconsideration
was
based
upon
untenable grounds and for untenable
38
reasons
1. Judge
Ramsdell
denying
reconsideration was based upon
39
untenable grounds
Parisien
2. Judge
reconsideration was
untenable grounds

denying
based upon
40

H. This Court should reverse because Judge
Parisien was statutorily barred to hear
Chen’s CR 60 motion provided by LCR 60
and because Judge Parisien acted
arbitrarily and capriciously in deciding
40
the case
1. Judge Parisien erroneously ruled
Chen’s CR 60 motion which she was
statutorily precluded by LCR 60 (e)
41
(2)(ii) &(iii)
2. Judge Parisien abused her discretion
in failing to consider the merit of the
41
case
3. Judge Parisien’s decision was based
45
on untenable grounds
I. This Court should reverse because
substantial justice had not been done,

App E
92a
especially for two minors, J.L. and L.L.
The cumulative effect of the trial court’s
errors deprived Chen, Lian, J.L. and L.L.
45
of a fair hearing,
CONCLUSION
CERTIFICATE OF SERVICE
INDEX OF APPENDICES

APPENDIX A: Trial Court’s Email
Requesting Defendants’ Response to
Reconsideration
APPENDIX B: Chen’s May 16, 2018
Declaration (CP 1510-1524)
APPENDIX C: Order Granting Summary
Judgment (CP 279-280)
APPENDIX D: Order Denying
Reconsideration (CP 308-309)
APPENDIX E: Order Denying Vacating
Summary Judgment (CP 1533-1534)
APPENDIX F: Order Denying
Reconsideration (CP 1578)

46

App E
93a
TABLE OF AUTHORITIES
Washington Cases
Page(s)
Balise v. Underwood,62 Wn. 2d 195, 199, 381
P.2d 966(1963)
24
Barr v. MacGugan, 119 Wn. App. 43, 78 P.3d
660 (2003)........................................................... 16
Bresolin v. Morris, 86 Wn. 2d 241, 245, 543
P.2d 325 (1975).................................................. 8
Bryant v. Joseph Tree, Inc., 119 Wn. 2d 210,
222, 829 P.2d 1099 (1992)
13,42
Burmeister v. State Farm Ins. Co., 92 Wn.
App. 359, 365, 966 P.2d 921 (1998)............. 25
Chuong Van Pharm v. Seattle City Light, 159
Wn. 2d 527, 538, 151 P.3d 976 (2007)......... 15
Clapp v. Olympic View Pub. Co., 137 Wash.
App. 470, 476, 154 P. 3d 230, 234 (2007)....33
Clements v. Travelers Indemn. Co., 121 Wn.
2d 243, 249, 850 P.2d 1298 (1993)
21,30
Columbia Asset Recovery Grp., LLC v. Kelly,
111 Wn. App. 475, 483, 312 P. 3d 687
(2013).................................................................. 15
Crown Cascade, Inc. v. O’Neal, 100 Wn. 2d
256, 261, 668 P.2d 585 (1983)....................... 17
Curtis v. Lein, 169 Wn. 239 2d P.3d at 1082
(2010).................................................................. 27
Fox v. Sackman, 22 Wn. App. 707,708, 591
P.2d 855 (1979)................................................ 44

App E
94a
Freestone Capital Partners LP v. MKA Real
Estate Opportunity Fund I. LLC, 155 Wn.
App. 643, 653, 230 P.3d 625 (2010)
15,31
FutureSelect Portfolio Mgmt, Inc. v. Tremont
Grp. Holdings., Inc.,175 Wn. App. 840, 88586, 309 P.3d 555 (2013)
30
Golberg v. Sanglier,96 Wn. 2d 874, 880, 639
P.2d 1347, 647 P.2d 489 (1982).................... 34
Graves v. P.J. Taggares Co.,94 Wn. 2d 298,
616 P.2d 1223 (1980)....................................... 22
Hall v. McDowell,6 Wn. App. 941, 944, 497
P.2d 596 (1972).............. .................................. 25
Hash v. Children’s Orthopedic Hosp., 49 Wn.
App. 130, 741 P.2d 584(1987)...
24,25
Hartley v. State, 103 Wn. 2d 768, 774, 698
P.2d 77 (1985)
21,24,30
Holaday v. Merceri, 49 Wn. App. 321, 324,
742 P.2d 127(1987)
15
In re Marriage of Lee, 57 Wn. App. 268, 788
P.2d 564 (1990).................................................. 13
Jane Doe v. Fife Municipal Court, 74 Wn.
App. 444 (1994)................................................. 8
Kleyer v. Harborview Med. Ctr. of Univ. of
Wash., 76 Wn. App. 542, 545, 887 P.2d 468
(1995)................................................................... 15
Ellis v. City of Seattle, 142 Wn. 2d 450, 458
13 P.3d 1065 (2000)
20

App E
95a
Erection Co. v. Department of Labor &
Indus., 121 Wn. 2d 513, 518, 852 P.2d
288(1993)........................................................... 17
Gammon v. Clark Equip. Co., 38 Wn. App.
274, 279-80, 686 P.2d 1102 (1984).............. 44
Hansen v. Friend, 59 Wn. App. 236, 240, 797
P.2d 521 (1990), review granted, 116 Wn.2d
24,44
1007 (1991)
Harbeson v. Parke-Davis, Inc., 98 Wn.2d
460, 468, 656 P.2d 483(1983)........................ 24
Harris v. Groth, 99 Wn.2d 438, 444-45, 663
P.2dll3 (1983)................................................... 24
Hayward v. Hansen, 97 Wn. 2d 614, 617, 647
19,36
P.2d 1030 (1982)
Jacobsen v. State, 89 Wn.2d 104, 108, 569
P.2d 1152 (1977)............................................... 22
In Re Dependency of O. I., 88 wn. App. 690,
947 P.2d 252 (1997).................................... 12,37
Lake Wash. Sch. Dist. No. 414 v. Mobile
Modules Nw., Inc., 28 Wn. App. 59, 61, 621
P.2d 791 (1980)................................................. 18
LaPlante v. State, 85 Wn. 2d 154, 158, 531
24,29
P.2d 299 (1975)
Lindgren v. Lingren, . 59 Wn. App. 588, 794
15
P.2d 526 (1990)
Luckett v. Boeing Co., 98 Wn. App. 307, 309,
16
989 P.2d 1144 (1999)
Madera v. J.R. Simplot Co., 104 Wn. App. 93,
34
15 P. 3d 649 (2001)

App E
96a
Mayer v. Sto Indus., Inc., 156 Wn. 2d 677,
684, 132 P.3d 115 (2006)................................ 16
McDaniels v. Carlson, 108 Wn. 2d 299, 738
P.2d 254 (1987).................................................. 20
Miller v. Sybouts, 97 Wn. 2d 445, 645 P.2d
1082 (1982)........................................................ 20
Morris v. Mcnicol, 83 Wn. 2d 491, 496, 519
P.2d 7 (1974)...................................................... 25
Morrison v. Dep’t of Labor & Indus., 168 Wn.
17
App. 269, 272, 277 P.3d 675 (2012)
Mosbrucker v. Greenfield Implement, 54 Wn.
35
App 647, 652 (1989)
Newell v. Ayers, 23 Wn. App. 767, 598 P.2d 3
12,20,36
(1979)
Olpinski v. Clement, 73 Wn. 2d 944, 951, 442
44
P.2d 260 (1968)
Olympic Forest Frods., Inc. v Chaussee Corp.,
82 Wn. 2d 418, 422, 511 P.2d 1002
(1973).............................................................. 36
Pamelin Indus v. Sheen-U.S.A.,95 Wn. 2d
398, 622 P.2d 1270 (1981)............................ 40
Perry v. Hamilton, 51 Wn. App. 936, 938, 756
P. 2d 150 (1988)................................................ 39
People National Bank v. Birney’s Enters,.54
13, 33,34
Wn. App. 668 (1989)
Pilling v. Eastern & Pac. Enters. Trust, 41
Wn. App. 158, 165, 702 P.2d 1232, review
34
denied, 104 Wn. 2d 1014 (1985)

App E
97a
Port of Port Angeles v. CMC Real Estate
Corp., 114 Wn. 2d 670, 674, 790 P.2d 145
(1990)...............................................................

34

Preston v. Duncan 56 Wn. 2d 678(1960)..... 27
Pybas v. Paolino, 73 Wn. App. 393, 399, 869
16
P.2d 427 (1994)
Putman v. Wentachee Valley Med. Ctr., P.S.,
166 Wn. 2d 974, 983, 216 P.3d
13,26,42
37(2009).........................................
Roberson v. Perez, 123 Wn. App.
320(2004)......................................

13,14,43

Rossiter v. Moore, 59 Wn. 2d 722, 370 P.2d
24,29
250 (1962)
Sandler v. United States Dev. Co., 44 Wn.
App. 98, 721 P. 2d 532 (1986)...................... 33
Schroeder v. Weighall et al., 179 Wn. 2d 566,
3,4,8,12
316 P.3d 482 (2014.)
SentinelC3, Inc., v. Hunt, 181 Wn. 2d 127,
142, 331 P.3d 40 (2014) ................................. 26
Smith v. King, 106 Wn. 2d 443, 451, 722 P.2d
34
532 (1986)
State v. Bryan, 93 Wn. 2d 177, 183, 606 P.2d
1228 (1980)......................................................... 18
State v. Douty, 92 Wn. 2d 930 603 P.2d 603
19,20
P.2d 37(1979)
State v. Gassman, 160 Wn. App. 600, 609,

248 P.3d 155 (2011)................................. 42

App E
98a
State v. Jackman, 113 Wn.2d 772, 779, 783
P .2d 5 80(1989)............................................... 42
State Ex rel. Carroll v. Junker,79 Wn. 2d 12,
26, 482 P.2d 775 (1971).................................. 39
State v. Kingman,11 Wn. 2d 551, 463 P.2d
33,34
638 (1970)
State v. LG Elecs., Inc., 185 Wn. App. 394,
406, 341 P.3d 346 (2015)....13, 14,15,23,30,43
State v. Poirier, 34 Wn. App. 893, 664 P.2d 7
(1983)................................................................... 33
State v. Q. D., .102 Wn. 2d 19, 29, 685 P.2d
557 (1984)........................................................... 18
State v. Santos, 104 Wn. 2d 142
(1985)

19,36

State v. Shultz, 138 Wn. 2d 638, 642, 980
P.2d 1265 (1999)............................................

17

State v. Smith,
68 Wn. App. 201, 842 P.2d 494 (1992)..

13

State v. Stenson, 132 Wn. 2d 668, 701, 940
P.2d 1239 (1997), cert, denied, 118 S. Ct.
1193 (1998)....................................................... 39
Tank v. State Farm, 105 Wash. 2d 381, 385,
32
715 P.2d 1133 (1986)
Tatham v. Rogers, 170 Wn. App. 76, 89, 283
16
P.3d 583 (2012)

App E
99a
Taylor v. Cessna Aircraft Co., 39 Wn. App.
828, 696 P.2d 28 (1985).................................. 44
The dependency of A.G. 93 Wn. App. 268, 968
P.2d 424(1998)
12,20,37,38
Tiffin v. Hendricks, 44 Wash. 2d 837, 843,
271 P. 2d 683 (1954)...................................... 33
Trimble v. Wash. State Univ., 140 Wn. 2d 88,
92-93, 993, P.2d 259 (2000)
20,22,29
Vaughn v. Chung, 119 Wn. 2d 273, P.2d 668
(1992)
13, 43,44
Whaley v. State, 90 Wn. App. 658, 668, 956,
P.2d 1100(1998)
32,33,45
Winbun v. Moore, 143 Wn. 2d 206, 18 P.3d
576 (2001).......................................................... 42
Wilson v. Steinbach, 98 Wn. 2d 434, 437, 656
P.2d 1030 (1982)
20,22
Young v. Key Pharm., Inc., 112 Wn.2d 216,
225, 770 P.2d 182 (1989), review denied, 118
Wn.2d 1023 (1992)..................................... 22,24
Chemstation of Seattle, LLC v. Donahoe,
Court of Appeals (Div. 1), No. 77030-6-1
(2018).............................................................
18
Other Authorities
Phillip A. Trautman, Vacation and
Correction of Judgments in Washington, 35
Wash. L. Rev. 505, 509 (1960)....................... 34

App E
100a
Phillip A. Trautman, Motion for Summary
Judgment: Their Use and Effect in
Washington, 45 Wash. L. Rev. 1,15
(1970).................................................................. 27
6 J. Moore, Federal Practice, 56.07,56. 15 [3]
24,29
(2d. 1948)
Statutes
8

RCW 26.44.060
RCW 26.44.060 (1)

23,27,31

RCW 26.44.060 (4)

23,27,31,32,33

RCW 4.08.050........

16,19,36

RCW 7.70

8

RCW7.70.040

23

Doctrine of Res Ipsa Loquitur

27

Rules
CR 12 (b)(2)

.passim

CR 41 (b)(3)

1,4,35

CR 52..........

..... 12,33

CR 52 (a)(1)

1,4.33,35

CR 52 (a)(4)

4,33

CR 52 (d)....

34,35

CR 56..... .

passim

CR 60

.passim

App E
101a
LCR 56 (c)(1)

.passim

LCR 59 (b)....

4,11

LCR 60(e)....

passim

App E
102a
INTRODUCTION
This is an extraordinary case. The action
involves
Kate
Halamay’s
medical
misdiagnosis and below-the-standard care
without consulting minor patient, J.L.’s main
treating physicians and without reviewing his
full medical history; and Halamay’s bad-faith
CPS referral containing plainly false
information, directly contrary to J.L.’s
medical record. In itself, that claim is
straightforward. The trial court (Judge
Jeffrey Ramsdell) committed four errors in
dismissing Chen, Lian, L.L. and J.L.’s claims
with prejudice.
First, Judge Ramsdell dismissed the
claims with prejudice based upon only one­
sided story, without affording Chen, Lian, J.L.
and L.L.a fair and meaningful chance to
present their case in their own way through
oral arguments provided by LCR 56 (c)(1).
Chen, Lian, J.L. and L.L’s Due Process rights
were violated. Second, Judge Ramsdell erred
in granting Halamay and Allegro Pediatrics1’
summary judgment when they had not met
their initial burden of showing there is no
genuine issue of material fact requiring trial.
Third, having been drawn to his attention of
absence of Guardian ad Litem for J.L. and
L.L., Judge Ramsdell dismissed minors, J.L.
and L.L.’s claims with prejudice without
appointing Guardian ad Litem and making
good cause determination for not doing so.
Fourth, Judge Ramsdell’s dismissal with
prejudice was lacking any written factual

App E
103a
findings and conclusions of law required by
CR 41 (b)(3) and CR 52 (a)(1). Halamay and
Allegro Pediatrics withheld 135 pages’
medical records from Chen and Lian who
eventually obtained these records through
discovery in a separate federal court civil
action (No. 2:16-cv-01877-JLR). These omitted
135 pages’ medical records, which had been
intentionally withheld by Halamay and
Allegro Pediatrics, at the very least, raised
multiple genuine factual disputes as to
whether Halamay was below the standard of
care; and whether Halamay was in good faith
for her CPS referral. Halamay’s withheld
evidence were material to Chen’s fair
presentation, further substantially prejudiced
Chen’s ability to prepare for summary
judgment, and also misled the court. This
Court should reverse.
Chen moved for CR 60 motion to vacate
summary judgment signed by Judge Ramdell.
Judge Susanne Parisien committed four
errors in hearing and denying Chen’s motion.
First, Judge Parisien was statutorily barred
by LCR 60 (e)38 to hear and rule Chen’s CR 60
motion. Legal authority is elementary
prerequire to the exercise of judicial power,
thus an Order exceeding legal authority and
38 LCR 60 (e)(2) permits that only either Judge
Jeffrey Ramsdell “who signed the judgment” or
the “Respective Chief Judge” can hear and rule
Chen’s CR 60 Motion. Therefore, Judge Suzanne
Parisien does not have legal power to hear and
rule on Chen’s CR 60 Motion.

App E
104a
legal power is a nullity. Second, Judge
Parisien denied Lian due process of law for
affording him a fair opportunity at the Show
Cause Hearing. Third, Judge Parisien did not
appoint Guardian ad Litem for J.L. and L.L
after drawing to her attention. Fourth, in light
of the undisputed 135 material evidence
withheld by Halamay, Judge Parisien acted
arbitrarily and capriciously in failing to
uphold justice.
Trial court’s multiple errors in this case
requires a reversal. For example, an absence
of findings and conclusions in the record on
appeal requires reversal and remand. Trial
Court’s repeated failure to comply with
mandate of Guardian ad Litem Statute
warrants a reversal. The judgements against
J.L. and L.L. must be vacated given the fact
that J.L. and L.L. had not been properly
before the trial court, and substantial justice
has not been done. In light of these and other
errors, this Court should reverse.
ASSIGNMENT OF ERRORS AND
ISSUES ON APPEAL
Assignments of Error
1. The trial court (Judge Ramsdell) erred in
dismissing Chen, Lian, J.L. and L.L.’s
complaints with prejudice without entering
any written factual findings and conclusions
of law.
2. The trial court (Judge Ramsdell) erred in
dismissing minors, J.L. and L.L.’s complaints

App E
105a
with prejudice without appointing guardian
ad litem.
3. The trial court (Judge Ramsdell) erred in
granting summary judgment prior to an oral
argument required by LCR 56 (c)(1).
4. The trial court (Judge Ramsdell and Judge
Parisien) erred in denying reconsideration.
5. The trial court (Judge Parisien) erred in
hearing and ruling on Chen’s CR 60 motion to
vacate order granting summary judgment
signed by Judge Ramsdell.
6. The trial court (Judge Parisien) erred in
denying Chen’s CR 60 motion.
7. The trial court (Judge Parisien) erred in not
appointing guardian ad litem for J.L. and L.L.
8. The trial court (Judge Parisien) erred in not
affording Lian an opportunity at the Show
Cause Hearing.
Statement of Issues
1. Must the summary judgment be vacated
because the trial court erred in granting
Halamay and Allegro Pediatrics’ summary
judgment when they had not met their initial
burden of showing the absence of any issue of
material fact requiring trial? (AOE No. 1)
2. Must the order granting Halamay and
Allegro’s CR 12 (b)(2) motion for lack of
personal jurisdiction (converted CR 56 motion)

App E
106a
be vacated and corrected because the trial
court (Judge Ramsdell) was required to treat
all the factual allegations in Chen’s complaint
as verities when Halamay and Allegro
Pediatrics largely failed to specifically defeat
the allegations? (AOE No.l)
3. Must the order dismissing with prejudice
against Chen, Lian, J.L. and L.L. be reversed
because the trial court (Judge Ramsdell) did
not enter any written factual findings and
conclusions of law required by CR 41 (b)(3)
and CR 52 (a)(1) and CR 52 (a)(4)? (AOE No.
1)
4. Must the order denying reconsideration be
vacated and corrected because the trial court
(Judge Ramsdell) failed to (1) consider the
unresolved genuine issue of material facts; (2)
hear an oral argument required by LCR 56
(c)(1); and (3) afford Chen an opportunity to
file a reply under LCR 59 (b) to draw to the
court’s attention about Halamay and Allegro
Pediatrics’
misrepresentation
in
their
response filed on May 26, 2017? (AOE No. 3
&4)
5. Must the order dismissing with prejudice be
vacated and corrected because the trial court
(Judge Ramsdell and judge Parisien) did not
appoint guardian ad litem for minors, L.L. and
J.L. after having repeatedly drawn to their
attention? (AOE No. 2)

App E
107a
6. Must the summary judgment be vacated and
corrected because the trial court (Judge
Ramsdell) did not hear an oral argument
required by LCR 56 (c) (1) before granting
Halamay and Allegro Pediatrics’ summary
judgment? (AOE No. 1)
7. Must the order denying motion to vacate
summary judgment be set aside because the
trial court (Judge Parisien) ignored the
withheld 135 pages’ medical records newly
discovered through a separate federal civil
action (but had been intentionally withheld by
Halamay) proving “substantial justice has not
been done”? (AOE No. 6)
8. Must the order denying motion to vacate
summary judgment be set aside because the
trial court (Judge Parisien) was precluded by
LCR 60 (e) (2) (ii) and (iii) to hear and rule on
Chen’s postjudgment motion vacating orders
signed by Judge Ramsdell? (AOE No. 5)
9. Must
the
order
denying
Chen’s
reconsideration be vacated and corrected
because the trial court (Judge Parisien) erred
in denying Chen’s reconsideration (1) when
drawing to its attention for the lacking
statutory authority to hear and rule CR 60
motion vacating judgments signed by Judge
Ramsdell; (2) when Lian was severely
prejudiced for no service and due process
violation at the hearing? (AOE No. 4)

App E
108a
10. Must the judgment against minors, J.L. and
L.L. be reversed because the trial court (Judge
Ramsdell and Judge Parisien) erred in
entering judgment against minors, J.L. and
L.L. who had not been properly before the trial
court for lacking guardian ad litem and no
personal service upon them? (AOE No. 1, 2, 4,
6 &7).
11. Must the judgment against Lian and L.L. be
vacate because their due process rights were
violated? (AOE 8).
STATEMENT OF THE CASE
A. Since being diagnosed as autism in
2012, J.L. had been seeking care from
Seattle Children’s Hospital and other
providers. An urgent care provider,
Halamay knew J.L.’s complicated
medical
history
but
reported
differently to CPS in 10/2013, directly
contrary to J.L.’s medical records at
Allegro
Pediatrics
and
without
consultation with his main treating
physicians.
J.L.’s complicated medical history
preceded October 2013 and was well-known to
Halamay. J.L. was diagnosed as autism by
Lakeside Autism Center in September 2012.
CP 231, at 35. He also had extensive
gastrointestinal and digestive problems which
are normally associated with autism. CP231,
at 36. Since diagnosis, J.L. had been receiving
therapy services including ABA (Applied

App E
109a
Behavior
Analysis),
speech
therapy,
occupational therapy. “[J.L.] made significant
progress after early intervention”. CP 225, at
5. On October 23, 2013, Chen and Lian sent
J.L. to ER at Seattle Children’s Hospital
(“SCH”) after several days’ diarrheas, and J.L.
was released by ER doctor deemed as
“medically stable, discharged home”. CP 226.
The parents followed ER doctor’s instruction
to follow up with J.L.’s PCP and Halamay at
Allegro Pediatrics who was not J.L.’s PCP. Id,
at 10. Halamay made “a CPS referral full of
falsehood and twists that [J.L.] having ‘kidney
failure’, life threatening’, and ‘parents not
following medical instruction sending J.L. to
ER on October 20, 2013’ which was contrary
to medical records”. Id, at 8. “[The] CPS
referral was submitted by a doctor (Kate
Halamay) who saw J.L. only three times in
urgent care clinic, had conflicts with J.L.’s
parent, and was upset by parent’s intent to
complaint”. CP 226, at 11.
Halamay “had failed to deliver an
accurate information fo CPS and detective
from police department”, and “the court”. CP
4. Halamay’s false CPS referral led to
substantial harms to Chen, Lian, J.L. and L.L..
Particularly, Halamay’s misconduct “caused
plaintiff (JL) being in state custody for eleven
months, continuous damage and suffering to
the plaintiff’ (CP 3); and “caused [Chen] being
putting on criminal charges of criminal
mistreatment and hindering [J.L.] being back
home and suffering to [J.L.’s family]”. CP 4,
284. Halamay’s misrepresentation that J.L.

App E
110a
suffered from “kidney failure,” was not
supported the labs and discharge conclusion
by SCH ER doctor and his PCP who also saw
him on the day when CPS referral and
removal took place. CP 226, at 9. Halamay’s
conclusion was without consultation with J.L.’
main treating physicians and reviewing his
full medical history. CP 3, at 11. CP 284.
B. J.L. significantly regressed after
being wrongfully removed by CPS. In
September 2014, both state and
prosecutors decided to drop the
dependency and criminal cases,
concluding that this was a false CPS
referral, contrary to the medical facts
in SCH medical records.
J.L. significantly regressed after being
removed out of home, as documented by his
treatment providers. He lost language, his
previously learned skills, and was unable to
regain these skills. He has no speech at the
age of six. CP 234-235.
In September 2014, both dependency
and criminal cases were fully dismissed.
Assistant Attorney General (“AAG”), “A full
review of the records [at SCH] does
indicate...that the mother did not refuse to
admit [J.L.] to the hospital against medical
advice on 10/20/13 (reported by Halamay)”.
CP 235, at 55.
The Criminal Court states, “The state is
unable to sustain its burden of proof in this
case due to evidence discovered after the time

App E
111a
filing. “ CP 235. The Prosecuting Attorneys
dropped the criminal charge after finding that
Halamay’ misrepresentation and her false
CPS report was contrary to the medical fact in
J.L.’s medical records. CP 284.
C. In October 2016, Chen et al. pro se filed a
suit against Halamay and Allegro
Pediatrics, alleging Halamay’s below the
standard care and dishonest CPS report.
Halamay quickly moved for summary
judgment, relying upon a proven-to-befalse police report and a selective J.L.’s
medical record (omitting 135 pages).
Halamay did not explain why she never
contacted J.L.’s main treating physicians
before jumping to a conclusion, nor
explained why she reported J.L.’s
condition differently to CPS.
In October 2016, Chen and Lian pro se
filed a civil action against Kate Halamay and
Allegro Pediatrics (previously known as
Pediatric Associates) in King County Superior
Court, alleging Halamay misdiagnosed J.L.,
fell below the standard care “by refusing to
contact Plaintiffs main treating physicians,
and reviewing his full medical records” (CP 3);
and “failed to deliver an accurate information
to
CPS
and
detective
from
police
department...” and “the [dependency] court”.
CP 4. Halamay’s misrepresentation led to the
adverse out-of-home decision for J.L., causing
severe and permanent damage to J.L. and his
family. CP 1-7. The Case Scheduling Order set

App E
112a
Discovery cutoff on September 5, 2017,
deadline for disclosing witnesses on July 3,
2017, trial date on October 23, 2017. CP 589.
On December 8, 2016, Halamay and
Allegro Pediatrics moved for summary
judgment, but did not timely serve Chen and
Lian who were fully unaware of this action
until the end of December being told by a
consulting attorney. CP 1007. Halamay’s
motion was relied upon a police report (CP 4868) which had been determined by three King
county prosecutors and Assistant Attorney
General to be false, resulting in Orders
dismissing criminal and dependency cases as
well as Order granting adding “malicious
prosecution” against police detective in
federal claims. CP 398. Halamay’s another
reliance was a selective medical record (CP 86200) (which was later found to have withheld
135 pages’ medical facts from the court and
Chen). CP 981, 997.
In moving summary judgment,
Halamay and Allegro Pediatrics claimed that
they were entitled to summary judgment
because Chen and Lian unable to provide an
expert affidavit to support their claims under
RCW 7.70; and Halamay was immune for her
CPS referral under RCW 26.44.060. CP 16-35.
While claiming good faith, Halamay and
Allegro Pediatrics did explain why Halamay
never contacted J.L.’s main treating
physicians before jumping to a conclusion; and
how Halamay demonstrated her “good faith”
through delivering false information to CPS

App E
113a
and law enforcement. Id. Halamay did not
explain why she claimed J.L. having kidney
failure, not supported by his lab results. CP
226.
On February 13, Chen and Lian filed a
response requesting a continuance because
they were told that they “cannot represent the
children in this claim [due to lacking
appointment of guardian ad litem]” CP 210;
and they “need more time to request, review
and investigate lots of discoveries.” Id.
Halamay and Allegro Pediatrics replied,
repeatedly (CP 213-214) claiming “no amount
of discovery” will create any issues of genuine
material fact on summary judgment, and “no
additional discovery will provide plaintiffs any
fact or information that will defeat summary
judgment”. CP 215.
On February 24, 2017, Chen and Lian
replied, providing detailed background and
factual allegation. CP 223-240. Specifically,
Chen and Lian presented to the court that J.L.
was officially diagnosed as autism and had
been seeking medical care for digestive
problem in Seattle Children’s Hospital since
2012. CP 231. J.L. was removed due to a false
referral placed by an urgent care provider
(Halamay) who falsely alleged J.L. having
“kidney failure” (not supported by lab results),
“parents not following medical instruction
sending J.L. to ER on October 20” (directly
contrary to the facts in medical records). CP
226. The criminal and dependency cases were
fully dismissed concluding the CPS referral

App E
114a
was contrary to the facts in the medical
records. CP 235.
The February 24 hearing was
continued due to the interpreter issue. On
April 13, 2017, Halamay and Allegro
Pediatrics moved to significantly amend their
motion for summary judgment. CP 241-256.
This newly amended 4425 words’ motion (the
12/8/2016 motion contained 6083 words) was
per se a CR 12 (b)(2) motion challenging trial
court for lack of personal jurisdiction due to
the alleged “improper service” CP 242.
Halamay also improperly suggested that
except for two minors, J.L. and L.L Chen and
Lian’s claims “must be dismissed with
prejudice” for untimely filing. CP 242. This
amendment did not comply with CR 15 (a).
CP 241-256.
D. On
May 12, 2017, Judge Ramsdell
dismissed Chen et al’ claims with
prejudice prior to a fair hearing. Chen
moved for reconsideration, raising issue
of lacking guardian ad litem and minors
unexpired statute of limitation. Chen
reiterated Halamay’s failure to consult
with J.L.’s main treating physicians
before jumping to a medical conclusion
and her failure to deliver accurate
information to CPS. Judge Ramsdell
allowed Halamay’s Response but denied
Chen’s Reply.
On May 10, Chen filed Notice of
Unavailability
seeking
two
weeks’

App E
115a
continuance for the summary judgment
hearing due to subconjunctival hemorrhage.
Chen submitted photos of her sick eyes,
together with a letter from Dr. Kimberly
Skyles who recommended 1-3 weeks’ rest. CP
263-266;
CP
275-278.
Chen
also
communicated with the court and Defendants
requesting two weeks’ accommodation for her
medical issues. CP. 268-274. In her email,
Chen explicitly requested “an opportunity to
be heard” and “an opportunity to offer proof’.
CP 274. Judge Ramsdell did not grant Chen’s
request for two weeks’ continuance but
entered an order on May 12, 2017 dismissing
Chen’s claims with prejudice without oral
argument required by LCR 56(c) (1). CP 279280.
On May 19, Chen moved for
reconsideration on grounds of minors’ statute
of limitation, absence of guardian ad litem,
and in the interest of justice. CP 281-290. This
motion was done under the assistance of MK
(who typed the motion) because Chen was still
suffering from subconjunctival hemorrhage.
CP 290. In their Motion, Chen and Lian
reiterated Halamay’s conclusion was without
consultation with J.L.’s main treating
physicians. CP 284. Chen further presented to
the court that Halamay et al’ reliance on a
police report which had been determined by
Criminal court to be false. Id. In response to
Halamay and Allegro Pediatrics’ claimed
immunity, Chen and Lian pointed out that
“[ajlthough the defendant claimed that she
merely referred the case to CPS, this does not

App E
116a
explain, among other things, why Dr.
Halamay failed to consult with the child’s
main treating doctors and review medical
records before making her diagnosis and
testifying on behalf of DSHS.” CP 286. Chen
further contended that “it is not merely a
“reporting” but “a pre-arranged action” so that
defendants were not immune”. CP 287. Chen
and Lian also presented the court that they
were not required to submit an expert
affidavit “at this early stage”. CP 286.
Judge Ramsdell requested a response
from Halamay and Allegro Pediatrics. App. A.
Halamay and Allegro Pediatrics submitted
their response on May 26, 2017. CP 298-306.
In this response, Halamay denied knowing
J.L.’s main treating physician, Dr. John Green.
CP 299. (but Dr. Green’s name was clearly
printed on J.L.’s lab report in Allegro
Pediatrics’ sole possession. These evidence
had been withheld by Halamay and Allegro
Pediatrics but eventually became available
after the judgment entered. CP 1094-1096;
also, CP 1528, at 14). Without providing Chen
an opportunity to reply under LCR 59 (b) in
support of their Motion for reconsideration,
and to rebut Halamay’s misstatement in their
response, Judge Ramsdell entered an Order
denying reconsideration (without factual
findings and conclusions of law) on the same
day. CP. 308-309. Chen timely appealed. CP
310-318.
E. Chen obtained J.L.’s full medical record
at Allegro Pediatrics through discovery

App E
117a
in a separate federal civil action and
found significant withholds on critical
medical information in J.L.’s medical
records. Chen et al brought a CR 60
motion before Chief Civil Judge per LCR
60 (e)(2) (ii) &(iii) but Judge Parisien
(who was neither the chief judge nor the
presiding judge) exceeded her authority
to rule on the motion. Judge Parisien did
not address a number issues including
absence of guardian ad litem.
Chen et al. eventually were able to
obtain J.L.’s full medical record at Allegro
Pediatrics through discovery in a separate
federal court civil action (#2:16-cv-01877-JLR)
and were shocking to find that Halamay and
Allegro Pediatrics had withheld 135 pages’
medical records from them and the trial court.
Chen moved for a CR 60 postjudgment motion
to vacate summary judgment before the Chief
Civil Judge Honorable Ken Schubert under
LCR 60 (e)(2)(iii).
Judge Schubert signed a Show Cause
Order, appointed counsel for J.L., reviewed
pleadings from parties. Judge Suzanne
Parisien (who was neither the judge signed
the judgment nor the chief judge) heard and
denied the motion to vacate. Chen et al moved
for reconsideration on grounds that (1) Judge
Parisien does not have legal authority to hear
Chen’s CR 60 motion under LCR 60 (e)(2)(ii)
&(iii); (2) Lian was prejudiced for not being
served, not affording a chance to argue on his
behalf as an independent party; (3) In light of

App E
118a
genuine issues of material facts in “newly
discovered”,
summary
judgment
was
improper; and (4) unresolved issue at the
hearing, i.e., absence of guardian ad litem for
L.L.. CP 1542-1548. On August 9, 2018, Judge
Parisien denied reconsideration. CP 1578.
Chen timely appealed. CP 1580-1587. On
September 28, 2018, this Court consolidated
two appeals.
IV. ARGUMENT
A. Summary of Argument
Washington long recognized the “[t]he
[Guardian ad Litem] Statute is mandatory,
and children’s interests are paramount.”
Dependency of A.G., 93 Wn. App. 268, 968 P.2d
424 (1998). “a minor must be represented by a
guardian ad litem, or the judgment against
him may be voidable at his option.” Newell v.
Ayers, 23 Wn. App. 767, 598 P.2d 3 (1979).
“Had [parents] drawn the court’s attention to
its failure...and the court still failed to act or
relied for its findings on something other than
good cause, there might well be reversible
error.” In Re Dependency of O. I., 88 wn. App.
690, 947 P.2d 252 (1997). Here, trial court’s
repeated failure to comply with statute even
after Chen’s multiple reminders warrants a
reversal.
When moving for summary judgment,
the moving party bears the initial burden of
showing of no genuine issues of material facts
requiring a trial. In this case, even after
significant withholds, Halamay et al. still had

App E
119a
not met their initial burden, the dismissal
with prejudice was improper.
Trial court did not enter any formal
written factual findings and conclusions of law
to support a dismissal with prejudice. “CR 52
requires written findings. This means formal
findings on all disputed facts.” People
National Bank u. Birney’s Enters, 54 Wn. App.
668, 775 P.2d 466 (1989); An absence of
findings and conclusions in the records on
appeal requires reversal and remand. In re
Marriage of Lee, 57 Wn. App. 268, 788 P.2d
564 (1990). In State v. Smith, this Court held
that,
“[T]he lack of formal findings and
conclusions render [the reviewing
court] unable to be sure exactly what
the court’s theory was or exactly what
facts the court found to be established
by the testimony. The trial court’s
opinion is a far cry from the
‘comprehensive opinion’ which has
been fundamental to every case in
which the court proceeded to address
the merits...when a case comes before
this court without the required
findings, there will be a strong
presumption that [reversal] is the
appropriate remedy.”
State v. Smith, 68 Wn. App. 201, 842 P.2d 494
(1992).
Washington courts favor deciding
cases on their merits. Vaughn v. Chung, 119

App E
120a
Wn. 2d 273, P.2d 668 (1992). Based on
selective medical records, Halamay brought a
pre-discovery motion to dismiss Chen’s claims
with prejudice, aiming to avoid engaging in
discovery. In State v. LG Elecs., Inc., 185 Wn.
App. 394, 406, 341 P.3d 346 (2015), this Court
explicitly held that,
“our liberal notice pleading system,
which allows plaintiffs to ‘use the
discovery process to uncover the
evidence necessary to pursue their
claims,’ tempers this aspiration.
Putman v. Wenatchee Valley Med.
Ctr., P.S., 166 Wn. 2d 974, 983, 216
P.3d 374 (2009); cf. Bryant u. Joseph
Tree, Inc., 119 Wn. 2d 210, 222, 829
P.2d 1099 (1992) (“The notice pleading
rule contemplates that discovery will
provide parties with the opportunity
to learn more detailed information
about
the
nature
of
a
complaint.”)...that their objective
has been to avoid engaging in
discovery....this objective- when
pursued in a manner antithetical
to the purpose of notice pleading
and the structure of the Civil
Rules
-must
be
rebuffed.”
(emphasis added)
In Roberson v. Perez, 123 Wn. App. 320
(2004), trial court setting aside dismissing
orders
and
imposed
sanctions
upon
Defendants for withholding material evidence
from the court and plaintiffs. The Roberson

App E
121a
Court’s decision was affirmed by Division
Three who held that, “[w]hen a trial court
grants a new trial on the ground that
substantial justice has not been done, the
favored position and sound discretion of the
trial court is accorded the greatest deference
by a reviewing court, particularly when it
assessment
of
involves
the
occurrences...cannot be made a part of the
record.” Id.
The facts here are similar to those in
Roberson. Halamay and Allegro Pediatrics
took advantage of their sole possession of
J.L.’s medical records, and moved for
summary judgment prior to discovery through
a selective medical records (omitting 135
pages’ material evidence). When substantial
justice has not been done to Chen due to
Halamay’s significant withholds, the trial
court did not uphold justice deciding the case
on its merits. This Court should reverse.
B. Standard of review
1. The Standard of Review is de
Novo.
Judge Ramsdell’s May 12
Order should be reviewed for a
grant on CR 12 (b) motion.
On April 13, 2017, Halamay and
Allegro Pediatrics significantly amended their
originally pure Motion for Summary
Judgment, alleging trial court lacking
personal jurisdiction over them due to Chen’s
insufficient service. CP 241-256. Halamay’s

App E
122a
newly added argument made it per se a CR 12
(b)(2) motion. CP 242. The introduction of
evidence beyond the pleadings may cause a
CR 12 (b) motion to be converted into a CR 56
motion but a different evaluation standard
applied when prior to full discovery. In a
published opinion, this Court held,
“our case law does not prohibit the
introduction of evidence in support of
a motion brought pursuant to CR 12
(b)(2). However, when this occurs
prior to full discovery, neither CR
12 (b) itself, nor controlling case
law, provides that the motion be
analyzed as if it were brought
pursuant to CR 56. Instead, our case
law
sets
out
the
particular
requirements for evaluation of such a
CR 12 (b) (2) motion...Even where the
trial court has considered matters
outside the pleading on a CR 12 (b)(2)
motion to dismiss for lack of personal
jurisdiction... this court treats the
allegations in the complaint as
established.”
State v. LG Electronics, Inc., 185 Wn. App.
394, 406, 341 P. 3d 346 (2015) (emphasis
added)
The LG court sets forth the standard of
review for such a CR 12 (b) (2) motion.
Specifically,
“When the trial court considers
matters outside the pleadings on a

App E
123a
motion to dismiss for lack of personal
jurisdiction, we review the trial court’s
ruling under the de novo standard of
review for summary judgment.”
Columbia Asset Recovery Grp., LLC v.
Kelly, 177 Wn. App. 475, 483, 312 P.3d
687 (2013) (quoting Freestone Capital
Partners LP v. MKA Real Estate
Opportunity Fund I, LLC, 155 Wn.
App. 643, 653, 230 P.3d 625 (2010))
When reviewing a grant of a motion to
dismiss
for
lack
of personal
jurisdiction, we accept the nonmoving
party’s factual allegation as true and
review the facts and all reasonable
inferences drawn from the facts in the
light most favorable to the nonmoving
party. Freestone, 155 Wn. App. At 65354; accord Walden v. Fiore, _U.S._134
S. Ct. 1115, 1119 n.2, 188 L. Ed. 2d 12
(2014)”
Defendants’ later filed CR 12 (b)(2) motion
superseded their previously pure CR 56
motion. Thus, the standard of review on Judge
Ramsdell’s May 12, 2017 Order should be
reviewed for a grant of CR 12 (b) motion
which requires this Court accepts all the
factual allegation in Chen’s complaint as true
and established, and all reasonable inference
should be drawn from the facts in the light
most favorable to the nonmoving party, Chen
and Lian.
2. The Standard of Review Is Abuse
of Discretion. Denying Motion for

App E
124a
Reconsideration and Motion to
Vacate is reviewed under this
Standard.
A trial court’s ruling on a motion for
reconsideration is reviewed for abuse of
discretion. Lindgren v. Lindgren, 59 Wn. App.
588, 794 P.2d 526 (1990). A trial court abuses
its discretion when it exercises its discretion
on untenable grounds or for untenable
reasons. Chuong Van Pham v. Seattle City
Light, 159 Wn.2d 527, 538, 151 P.3d 976
(2007). “We review a trial court's denial of a
motion for reconsideration for abuse of
discretion.” Kleyer v. Harborview Med. Ctr. of
IJniv. of Wash., 76 Wn. App. 542, 545, 887
P.2d 468 (1995). “An abuse of discretion exists
only if no reasonable person would have taken
the view adopted by the trial court.” Holaday
v. Merceri, 49 Wn. App. 321, 324, 742 P.2d 127
(1987). Both Judge Ramsdell’s May 26, 2017
Order and Judge Parisien’s August 9, 2018
Order denying reconsideration should be
reviewed for abuse of discretion.
The standard of review on a motion to
vacate under CR 60 is also abuse of discretion.
Barr u. MacGugan, 119 Wn. App. 43, 78 P. 3d
660 (2003) at 46 (citing Luckett v. Boeing Co.,
98 Wn. App. 307, 309, 989 P. 2d 1144
(1999)." A decision based on untenable
grounds or reasoning is an abuse of discretion.
Id. (citing Luckett, 98 Wn. App. At 309). Pybas
v. Paolino, 73 Wn. App. 393, 399, 869 P.2d 427
(1994). "A trial court abuses its discretion
when its decision is manifestly unreasonable

App E
125a
or based upon untenable grounds. An abuse of
discretion is found if the trial court relies on
unsupported facts, takes a review that no
reasonable person would take, applies the
wrong legal standard, or bases its ruling on an
erroneous view of the law. Tatham v. Rogers,
170 Wn. App. 76, 89, 283 P. 3d 583 (2012)
(citing Mayer v. Sto Indus., Inc., 156 Wn. 2d
677, 684, 132 P. 3d 115 (2006)). Legal errors
are reviewed de novo. Id.
3. The Standard of Review is
Clearly Erroneous. Trial court’s
repeated failure to comply with
mandate of Guardian ad litem
and Judge Parisien’s exceeding
legal authority to rule on Chen’s
postjudgment
motion
are
reviewed under this standard.
Appointment of guardian ad litem is
mandatory. RCW 4.08.050 (minor as a
plaintiff/defendant in Superior court). Trial
court was repeatedly made aware of absence of
guardian ad litem for two minors but did not
address the issue. Trial court’s repeated
failure to comply with mandate of guardian ad
litem statute and Washington precedents
constitutes a clear legal error.
Statutory
legal
authority
is
elementary prerequire to the exercise of
judicial power. Judge Parisien’s failure to
comply with LCR 60, exceeding her legal
authority to rule should be reviewed under
clearly erroneously standard.

App E
126a
C. This Court should reverse because
Chen, Lian, J.L. and L.L. are entitled
to a fair hearing to present their
claims under Due Process Clause
Essential elements of procedural due
process include notice and a meaningful
opportunity to be heard.
A meaningful
opportunity to be heard means “at a
meaningful time and in a meaningful manner.”
Morrison v. Dep’t of Labor & Indus., 168 Wn.
App. 269, 272, 277 P.3d 675 (2012) (citing
State v. Shultz, 138 Wn. 2d 638, 642, 980 P.2d
1265 (1999)).
Similarly, given its potentially dispositive
nature, King County Civil Rule 56 requires all
summary judgement be decided after oral
argument allowing parties an opportunity to
present their story in a meaningful way,
unless waiver was provided. LCR 56 (c) (1).
Chen did not waive oral argument but a
dismissal order was entered without oral
argument. Trial court’s failure to comply with
court rules mandates a reversal.
l.
The trial court erroneously
dismissed Chen et al’s claims with
prejudice without affording Chen et
al a fair opportunity to present their
case in a meaningful way required
by Due Process Clause; or providing
Chen an oral argument required by
LCR 56 (c)(1).

App E
127a
LCR 56 (c) (1) provides, “The court
shall decide all summary judgment motions
after oral argument, unless the parties waive
argument”, (emphasis added). As a general
rule, the word “shall” when used in a statute,
is imperative and operates to impose a duty
that may be enforced. Erection Co. v.
Department of Labor & Indus., 121 Wn. 2d 513,
518, 852 P.2d 288 (1993) (“It is well settled
that the word “shall” in a statute is
presumptively imperative and operates to
create a duty...The word “shall” in a statute
thus imposes a mandatory requirement
unless a contrary legislative intent is
apparent.”) See also, Crown Cascade, Inc. v.
O’Neal, 100 Wn. 2d 256, 261, 668 P.2d 585
(1983); State v. Q. D., 102 Wn. 2d 19, 29, 685
P.2d 557 (1984) (citing State v. Bryan, 93 Wn.
2d 177, 183, 606 P.2d 1228 (1980)).
LCR 56(c) requires that summary
judgment orders be entered “after oral
argument” unless oral argument was
waived. Waiver is the “voluntary and
intentional relinquishment of a known right.”
Lake Wash. Sch. Dist. No. 414 v. Mobile ,
Modules Nw., Inc., 28 Wn. App. 59, 61, 621
P.2d 791 (1980). There is no evidence that
Chen had any intentional relinquishment of
their right to oral argument. Instead, Chen
specifically requested that the hearing be
rescheduled
to
afford
Plaintiffs
the
opportunity to be heard.39 Chen sought a
39In her email to the Court dated on May 11, 2017, Ms.
Chen explicitly asked the court to afford Plaintiffs “an

App E
128a
reasonable two weeks’ continuance to
accommodate her unexpected medical issue
(an eye issue), for which she provided medical
and photographic documentation. CP 268-277.
She never indicated that she was waiving her
right to a hearing, nor could the Court infer
one based on her conduct, when Chen
specifically requested that the hearing be
rescheduled to two weeks later. CP 272. The
trial court did not grant a continuance but
dismissed Chen’s claims with prejudice. CP
279-280. With the absence of this critical
safeguard, the summary judgment process
was marred by procedural irregularities that
necessitate that the Order be vacated.
On May 19, Chen et al moved for
reconsideration. CP 281-290. Chen raised
issue of absence of guardian ad litem (CP 282);
and reiterated Halamay’s failure to contact
J.L.’s main treating physician, Dr. John Green
before jumping to a conclusion. CP 284, 287.
The court requested a response from Halamay
and Allegro Pediatrics who responded on May
26. CP 298-306.
In their Response, Halamay denied
knowing Dr. Green (but Dr. Green’s name was
clearly printed on top of J.L.’s lab report, CP
1094-1096; Halamay also admitted knowing
this fact during the recorded interview, See,
Carter Decl. at CP 1528, at 14). Chen was
about to inform the court of Halamay’s
misrepresentation but not afforded such an
opportunity to be heard” and “an opportunity to offer
proof.” CP 274. Also, CP 289.

App E
129a
opportunity - the court entered an order on the
same day after receiving Halamay’s response.
CP 314-315. Chen and Lian are entitled to a
fair and full hearing with oral argument. The
procedural
irregularities
in
obtaining
summary judgment warrants a reversal.
2. The trial court erroneously
entered judgements against J.L. and
L.L. who had not been properly
before the trial court for not being
represented by guardian ad litem;
and never being personally served.
The court has no authority to render
judgment against a person who was not
properly before the court or had been made a
party to the action. State v. Santos, 140 Wn.
2d 142 (1985) (quoting Hayward v. Hansen, 97
Wn. 2d 614, 617, 647 P.2d 1030 (1982)) (“no
individual should be bound by a judgment
affecting his or her interests where he has not
been made a party to the action.”). To make
minors party of the action, appointment of
guardian ad litem is required. RCW 4.08.050.
When no appointment of guardian ad litem,
the child was required to personally served.
State v. Douty, 92 Wn. 2d 930 603 P.2d 373
(1979) (“it should be noted that the child,
though named in the action, was never served.
Consequently, he is not before the court.”)
Despite repeated reminders from Chen,
trial court still did not appoint guardian ad
litem for L.L. and J.L, nor made any good
cause finding for not doing so. CP 282, 286,

App E
130a
308-309, 992-993, 1547.1533-1534, 1578.
When guardian ad litem is absent, personal
service upon minors is required to make them
parties to the action. There was no evidence
that two minors, J.L. and L.L. have ever been
personally served, e.g., CP 36; 217; 257; 307;
321. Due to absence of guardian ad litem and
no personal service, J.L. and L.L. had not been
properly before the trial court and are not
parties of the action, rendering judgment void.
Miller u. Sybouts, 97 Wn. 2d 445, 645 P.2d
1082 (1982) (failure of guardian ad litem to
appear at the motion for summary judgment
rendered the summary judgment of dismissal
void).
In State v. Douty, 92 Wn. 2d 930, 630 P.
2d 373 (1979), the Supreme Court held that, “
“[t]he statute’s requirement that a
guardian ad litem be appointed before
a court can act ensures that due
consideration will be paid to the rights
of the a child.” McDaniels v. Carlson,
108 Wn. 2d 299, 738 P.2d 254 (1987)
(emphasis by the supreme court).
In Newell v. Ayers, Division Three held
that when lacking guardian ad litem,
“judgment against minors may be voidable at
his option” . Similarly, this Court recognized
that “[t]he [guardian ad litem] statute is
mandatory, and the children's interests are
paramount. We cannot condone ignoring the
statutory provision specifically designed to
protect them.” Dependency of A. G.. (emphasis
added). The trial court’s repeated failure to

App E
131a
comply with Guardian ad Litem Statute,
which is at variance with Washington
precedents, is untenable.
D. This Court should reverse because trial
court’s dismissal with prejudice was not
supported by requirements for either CR
12 (b)(2) or summary judgment.
A summary judgement ruling is
reviewed de novo, with “the appellate court
engaging] in the same inquiry as the trial
court.” Ellis v. City of Seattle, 142 Wn. 2d 450,
458, 13 P.3d 1065 (2000) (quoting Trimble v.
Wash. State Univ., 140 Wn. 2d 88, 92-93, 993,
P.2d 259 (2000)). Wilson v. Steinbach, 98
Wn.2d 434, 437, 656 P.2d 1030 (1982). On a
motion for summary judgment, all facts
submitted
and
reasonable
inferences
therefrom must be viewed in the light most
favorable to the nonmoving party. Trimble,
140 Wn. 2d at 93. A court may grant a motion
for summary judgment only if, on the basis of
the facts submitted, “reasonable [minds] could
reach but one conclusion.” Id. (quoting
Clements v. Travelers Indemn. Co., 121 Wn. 2d
243, 249, 850 P.2d 1298 (1993).
A summary judgment motion should
be granted only if the pleadings, affidavits,
depositions
and
admissions
on
file
demonstrate there is no genuine issue as to
any material fact, and that the moving party
is entitled to judgment as a matter of law. CR
56; Hartley v. State, 103 Wn. 2d 768, 774, 698
P. 2d 77 (1985). Then, what facts had been

App E
132a
available to the trial court before a summary
judgment was entered on May 12, 2017?
A short summary of the key facts: J.L.
has autism and documented history of
digestive problems at SCH. He made
significant progress after early intervention.
He visited ER on 10/20/2013, was discharged
within hours by SCH ER physician who
instructed a follow-up with Halamay, who
then made a CPS referral, alleging J.L. having
kidney failure, life threatening. This referral
resulted in J.L.’s removal and significant
regress as well as Chen’s criminal prosecution.
Both dependency and criminal cases were
dismissed with a conclusion of a false CPS
referral. On 10/24/2016, Chen et al pro se filed
suit against Halamay and Allegro Pediatrics,
alleging Halamay’s below-standard care, badfaith CPS referral, misdiagnosis, etc. Chen et
al specially pled that Halamay only saw J.L.
three times at urgent care, and her CPS report
was without consultation with J.L.’s main
treating
physician;
and
Halamay’s
misconduct resulted into irreversible and
permanent damages as to J.L.. On 12/8/2016,
Halamay and Allegro Pediatrics moved for
summary judgment, unilaterally scheduled a
hearing. Through significant withholds and
misrepresentation, Halamay et al concocted a
fanciful and false story of a mother refusing to
send her sick son to ER and depriving him of
milk. Chen’s claims were dismissed with
prejudice.

App E
133a
If Halamay’s allegations are true
(which were denied), then Chen is
undoubtedly a child abuser. A proper inquiry
is that, why prosecutor dropped the criminal
charges against Chen; and why CPS dropped
the dependency action, and returned J.L. back
to Chen’s care? Let’s take a closer look at the
evidence submitted by Halamay and Allegro
Pediatrics to support their summary
judgment: (1) a police report that had been
determined to be false by both prosecuting
office and AG’s office; and (2) a selective
medical record with significant withholds.
An important issue in this appeal is
whether Halamay and Allegro Pediatrics met
their initial burden of proof. A party moving
for a summary judgment has an initial burden
of showing there are no issues of material fact
requiring trial. Only if they meet this burden
is the nonmoving party obligated to produce
facts sufficient to show the presence of an
issue of material fact. Young v. Key Pharm.,
Inc., 112 Wn.2d 216, 225, 770 P.2d 182
(1989), review denied, 118 Wn.2d 1023 (1992)..
If the moving party fails to sustain this
burden, it is unnecessary for the nonmoving
party to submit affidavits or other materials.
Graves v. P.J. Taggares Co., 94 Wn.2d 298,
616 P.2d 1223 (1980); Jacobsen v. State, 89
Wn.2d 104, 108, 569 P.2d 1152 (1977). The
court must consider all facts submitted and all
reasonable inferences from the facts in the
light most favorable to the nonmoving party.
Wilson, at 437. Trimble, 140 Wn. 2d at 93. As
explained in this section, multiple genuine

App E
134a
issues of material facts were present even in
Halamay’s own selective submission. Where
undisputed facts are reasonably susceptible to
more than one interpretation, summary
judgment may be improper. Graves, at 303.
Notably, Halamay and Allegro Pediatrics
amended motion by adding arguments
challenging trial court’s personal jurisdiction,
thus resulting into a CR 12 (b)(2) motion40
effective and operative as of April 13, 2017,
the previously CR 56 motion became moot. As
noted supra in Section of Standard of Review,
the LG court held that, “[e]ven where the trial
court has considered matters outside the
pleadings on a CR 12 (b)(2) motion...this court
treats the allegations in the complaint as
established.” When a CR 12 (b)(2) motion is
made prior to full discovery, all the allegations
in the complaint are treated as established. Id.
While Chen has sufficiently alleged that
Halamay’s below standard care and bad faith
report. Halamay largely failed to specifically
rebut the allegation. Even under the standard
of pure summary judgment, Halamay still had
not met the her initial burden of showing
there is no genuine issue of material facts.
Thus, trial court’s dismissal with prejudice,

40 Though not identified as “amended,” the
contents of newly revised motion were
significantly different from the previous one,
dropping from 6083 words to 4425 words. CP 241256.

App E
135a
which is at variance with the standard of CR
12 and CR 56, is untenable.
1. Trial court erred in dismissing
Chen’s claims with prejudice
because Halamay and Allegro
Pediatrics moving for summary
judgment bore the initial burden
of showing the absence of an issue
of material fact.
Chen et al dispute Judge Ramsdell’s pre­
discovery and pretrial summary dismissal of
their claims for medical malpractice and
alleged bad-faith CPS referral. The statutes
relating to CPS reporting are RCW 26.44.060
(1) (good faith reporting) and RCW 26.44.060
(4) (bad faith reporting). The elements of
medical malpractice are set forth in RCW
7.70.040:
(1) The health care provider failed to
exercise that degree of care, skill, and
learning expected of a reasonably
prudent health care provider at that
time in the profession or class to which
he belongs, in the state of Washington,
acting in the same or similar
circumstances; (2) Such failure was a
proximate cause of the injury complained
of.
This court has interpreted these
elements as particularized expressions of the
four traditional elements of negligence: duty,
breach, proximate cause, and damage or

App E
136a
injury. Harbeson u. Parke-Davis, Inc., 98
Wn.2d 460, 468, 656 P.2d 483(1983); see also
Harris v. Groth, 99 Wn.2d 438, 444-45, 663
P.2d
113 (1983)
(reasonably
prudent
practitioner is measure for standard of care).
At trial, Chen et al have the burden of showing
each necessary element. But when Halamay
and Allegro Pediatrics move for summary
judgment before trial. They “bear the initial
burden of showing the absence of an issue of
material
fact”
requiring
trial
by
uncontroverted facts. CR 56; Young v. Key
Pharm., Inc., 112 Wn.2d 216, 225, 770 P.2d
182
(1989), review
denied, 118
Wn.2d
1023 (1992); Hartley v. State, 103 Wn. 2d 768,
774, 698 P. 2d 77 (1985). Hash v. Children’s
Orthopedic Hosp., 49 Wn. App. 130, 741 P. 2d
584 (1987); LaPlante v. State, 85 Wn.2d 154,
158, 531 P.2d 299 (1975); Rossiter v. Moore, 59
Wn. 2d 722, 370 P. 2d 250 (1962); 6 J. Moore,
Federal Practice 56. 07, 56. 15 [3] (2d ed. 1948).
The motion should be denied if reasonable
persons could reach differing conclusions.
Hansen v. Friend, 59 Wn. App. 236, 240, 797
P.2d 521 (1990), review granted, 116 Wn.2d
1007 (1991); Balise v. Underwood, 62 Wn. 2d
195, 199, 381 P.2d 966 (1963).
Accordingly, the first issue here is
whether Halamay and Allegro Pediatrics bore
their initial burden of showing the absence of
a material issue of fact with respect to meeting
requirements of proper care, and good faith or whether it was evident as a matter of law,
such that reasonable minds could not differ,

App E
137a
that Chen et al did not have any basis for their
claims.
Here, Halamay bore the initial burden of
showing no genuine issues of material fact
requiring trial by uncontroversial facts.
Halamay had to provide evidence to prove that
Chen’s allegation that she failed to contact
J.L.’s^main treating physicians” (CP 3) was
wrong; and her CPS referral was honest. In
their summary judgment, however, Halamay
et al did not even attempt to do any of this:
they failed to provide any evidence to show
Halamay’s diagnoses were correct or within
the standard of care. In light of the dismissal
in the dependency action and its conclusion
that Halamay delivered false information, to
establish “good faith”, Halamay needed to
address why she provided false allegation to
support their “good faith” assertion; etc. We
could not find any answers to these questions
in Halamay and Allegro Pediatrics’ summary
judgment. Instead, Halamayl’s summary
judgment largely failed to rebut the above
information. She did not explain why she
provided false information to CPS and the
court, and whether Halamay verified this
information before making her reports, CP 1635. Further, their motion did not show that
Halamay did not misdiagnose J.L.. or J.L.
actually suffered from kidney failure, lifethreatening at his removal (while records
clearly showed that he was released by Dr.
Russell Migita CP 137.

App E
138a
In Hash v. Children’s Orthopedic
Hosp., 49 Wn. App. 130, 741 P.2d 584 (1987),
this Court held,
“Without that information, a court
cannot conclude that there are no
material issues of fact to be resolved in
deciding the issues of proximate cause
and liability. The record is simply
deficient. It does not tell us either by
facts sworn to under oath or by
admissible
opinion
just
how,
mechanically, the fracture occurred.
The issue of causation is normally a
factual issue. Morris v. Mcnicol, 83
Wn.2d 491, 496, 519 P.2d 7 (1974);
Hall v. McDowell, 6 Wn. App. 941, 944,
497 P.2d 596 (1972). Under these
circumstances, a summary judgment
dismissing the plaintiffs complaint
should not be granted.”
Halamay’s summary judgment did not
resolve the disputed issues, but relied heavily
upon a police report that had been proven to
be false by King County Prosecutors’ Office
and Criminal Court Dismissal Order. Notably,
the police report provided by Halamay was
lacking police officer’s signature that cannot
be admissible evidence. In Burmeister v. State
Farm Ins. Co., 92 Wn. App. 359, 365, 966 P.2d
921 (1998), Division Two held trial court could
not consider police report whose authenticity
was sworn to by plaintiffs attorney but not by
officer who authored the report. Utilizing a
known-to-be false police report to mislead the

App E
139a
trial court, Halamay’s credibility should be
reasonably questioned.
Halamay et al’s another reliance was a
selective medical record provided by Halamay
(which was later found to have withheld 135
pages from Chen and the court) which was in
Allegro Pediatrics’ sole possession. Chen and
Lian were blindsided and the court were
misled.
Here, the record does not tell us either by facts
sworn to under oath or by admissible opinion,
how Halamay met the standard of care, and
requirement of good faith. The criminal court
decided to drop the charges due to the facts
discovered after filing, (which had been
misrepresented by Halamay in her false CPS
referral). CP 235. Given these undisputed
facts, a proper inquiry for a reasonable person
should be, if Halamay’s assertion is true
(which was denied), then Chen is undoubtedly
a child abuser. Why did both the state and
prosecutors agree to drop the cases? A
reasonable inference is that Halamay had
made a false CPS referral. At no point did
Halamay’s affidavit provide the court with a
factual description of what false information
had been included in her CPS referral, and
how she had been acting in good faith and how
she had been meeting standard of care.
Halamay and Allegro Pediatrics did
not address these disputes. Instead, they
argued that they were entitled to summary
judgment because Chen failed to provide an
expert affidavit to support their claim. CP

App E
140a
253-254. Halamay’s argument is without
merit. First. Washington law does not require
Plaintiffs in medical malpractice claim to
provide an expert affidavit prior to discovery.
Putman v. Wenatchee Valley Med. Ctr., P.S.,
166 Wn. 2d 974, 983, 216 P.3d 374 (2009)
(requiring medical-malpractice plaintiffs to
submit expert affidavit prior to discovery
violates Plaintiffs right to access to the court,
which “includes the right of discovery
authorized by the civil rules”). Under the
Order setting civil case schedule (pursuant to
LCR 4), the discovery cutoff was on 9/5/ 2017
and trial date was scheduled on 10/23/2017.
CP 589. Judge Ramsdell dismissed a claim on
5/12/2017 (CP 279), about four months before
the discovery cutoff and over five months
before trial. Id
Second. Halamay’s negligence is so
obvious (provided plainly false medical facts,
i.e., J.L. was not seen at ER on 10/202013, not
supported by records) that dependency court
and criminal court dismissed the cases
without expert affidavits. Under such
circumstances, trial court should adopt
Doctrine of Res Ipsa Loquitur (“the thing
speaks for itself’). Supreme Court has
enumerate three essential elements for Res
Ipsa Loquitur to apply: A plaintiff may rely
upon Res Ipsa Loquitur’s inference of
negligence if (l)the accident or occurrence
that caused the plaintiffs injury would not
ordinarily happen in the absence of negligence,
(2) the instrumentality or agency that caused
the plaintiffs injury was in the exclusive

App E
141a
control of the defendant, and (3) the plaintiff
did not contribute to the accident or
occurrence. Curtis v. Lein, 169 Wn. 239 2d
P.3d at 1082 (2010) (citation omitted). Here,
Chen and Lian’s claims met all the criteria.
As said, Halamay bore the burden the
initial burden of showing that that she met
the standard of care for having consulted with
J.L.’s treating physicians and investigating
his medical history; and her CPS referral was
honest and in “good faith” to satisfy RCW
26.44.060 (1), rather than “bad faith reporting”
under RCW 26.44.060 (4). Otherwise, the
presence of material facts must be decided by
a trier of fact. If the moving party does not
sustain that burden, summary judgment
should not be entered, irrespective of whether
the nonmoving party has submitted affidavits
or other materials. See Preston v. Duncan, 56
Wn. 2d 678 (1960). Also, Trautman, Motion for
Summary Judgment: Their Use and Effect in
Washington, 45 Wash. L. Rev. 1,15 (1970).
2. Trial Court erred in dismissing
Chen’s claims with prejudice
because Halamay and Allegro
Pediatrics had not met their
initial burden of showing that
there are no issues of material
fact, dismissal was improper.
To grant a summary judgment, the
trial court was required to make the inquiry:
Had Halamay and Allegro Pediatrics met
their initial burden of showing that there

App E
142a
were no issues of material fact requiring
trial? That is to say, Halamay and Allegro
Pediatrics are required to show that (1)
Halamay had met the standard of care and
consulted with J.L.’s main treating physicians;
(2) the information Halamay delivered to CPS
was true and consistent with the medical
records; (3) Halamay did not misdiagnose J.L.
who did suffer from life-threatening kidney
failure, etc.
Halamay’s summary judgment was
based upon an incomplete medical record.
Even so, Halamay’s assertion was not fully
support by these selected medical records
submitted by herself. For example, in her
affidavit, Halamay alleged that she had
reasons to believe that this is a child abuse
case because “Ms. Susan Chen and Mr.
Naixiang Lian were not following through
with the providers instructions ...(emphasis
added). CP 73. Throughout the medical
records attached to her affidavit, no
description about Mr. Lian was observed,
Halamay’s allegation towards Mr. Lian is thus
at dispute.
Much of Halamay’s statements in
her CPS reports (as alleged in her declaration
and motion) were again not even supported by
the medical records attached to her
declaration. One example, in Paragraph 8 of
Halamay’s declaration, she asserts that the
nephrology clinic at SCH concluded that
“...Ms. Chen was withholding fluids to J.L..”
CP 74. The full nephrology notes, which were

App E
143a
attached to Halamay’s declaration, clearly
demonstrate that nephrology never reached
such a conclusion. In fact, the referenced notes
support the fact that Chen diligently and
consistently sought medical care, diagnosis,
and treatment for J.L.’s health issues. CP 101102. Another example, Halamay alleged that
Chen did not have J.L. evaluate for
developmental needs at SCH autism clinic. CP
74, at 4. Again, this assertion was not
supported by the medical records attached to
Halamay’s declaration. Physical therapist
from SCH clearly wrote that [J.L.] had been
evaluated by Lakeside Autism Center (and
Kindering), and had been on the waiting list
of SCH Autism Center. CP 89; also, 1083-1083;
1061-1062. Halamay also claimed that SCH
Nephology decided that J.L’s abnormal labs
for kidney function was caused by Chen who
withheld cow milk from him. A full review of
SCH Nephology’s clinical notes did not
support this assertion. CP 101-102; 1500;
1514-1515. Indeed, the later newly-discovered
medical records (which had initially been
withheld by Halamay) indicated that J.L. was
allergy to cow milk. CP 1025; 1515.
Based on record, the summary
judgment was improper in light of the clear
evidence that the dependency and criminal
actions were dismissed in Chen’s favor with a
conclusion that the information received (by
Halamay) was false (CP 235). At no point the
contradictory and inconsistent statement in
their Motion did Halamay and Allegro
Pediatrics address the false information in

App E
144a
their reports or explain how these false
reports met the standard of care as well as the
requirement of good faith. Therefore,
Halamay and Allegro Pediatrics had not met
their initial burden of showing there are no
issues of material fact requiring trial by
uncontroverted facts. Laplante v. State, 85 Wn.
2d 154, 158, 531 P.2d 299 (1975); Rossiter v.
Moore, 59 Wn. 2d 722, 370 P.2d 250 (1962); 6
J. Moore, Federal Practice 56.07, 56.15[3] (2d
ed. 1948).
A court may grant a motion for
summary judgment only if, on the basis of the
facts submitted, “reasonable [minds] could
reach but one conclusion.” Trimble (quoting
Clements v. Travelers Indemn. Co., 121 Wn. 2d
243, 249, 850 P.2d 1298 (1993). A summary
judgment motion should be granted only if the
pleadings, affidavits, depositions on file
demonstrate the absence of any genuine
issues of material fact and that moving party
is entitled to judgment as a matter of law. CR
56 (c); Hartley v. State, 103 Wn. 2d 768, 774,
698 P.2d 77 (1985). Here, multiple disputed
issues were present, and a grant of summary
judgment was improper. This Court should
reverse.
3. Trial Court erred in dismissing
Chen’s
claims
with
prejudice
because Halamay and Allegro
Pediatrics failed to specifically
rebut Chert’s factual allegations

App E
145a
which was required to be treated as
verities under CR 12.
Halamay and Allegro Pediatrics
later chose a CR 12 (b) (2) motion for lack of
personal jurisdiction instead of a pure CR 56
motion. CP 242. In their amended CR 12 (b)
(2) motion (converted summary judgment),
Halamay claimed that the service at her work
place was not sufficient; and Allegro
Pediatrics claimed service was improper upon
the human resources director, “[t]hus, this
Court does not have personal jurisdiction...”
CP 242. “when a motion to dismiss for lack of
personal jurisdiction is resolved without an
evidentiary hearing, the plaintiffs burden is
only that of a prima facie showing.”
FutureSelect Portfolio Mgmt, Inc. v. Tremont
Grp. Holdings., Inc.,175 Wn. App. 840, 885-86,
309 P.3d 555 (2013). Both Halamay and
Allegro Pediatrics were first served by
certified mail and later through Sheriffs
Office on 12/8/2016. CP 207-208. They did not
claim improper service in their answer, nor in
their first motion. They did not deny not being
served or prejudiced. Indeed, both Halamay
and Allegro Pediatrics had notice and were
represented by counsels: Notice of Appearance
was entered about 10 days after the complaint
was filed. Requirements for Due Process were
satisfied.
Our case law allows the introduction of
evidence in support of a motion brought
pursuant to CR 12 (b)(2). However, when this
occurs prior to full discovery, Halamay’s CR

App E
146a
12 (b)(2) motion cannot be treated the same as
CR 56. LG Elecs., Inc. When reviewing a grant
of CR 12 (b)(2) motion, all factual allegations
in Chen’s complaint were required to be
treated as verities and the appellate court
must review the facts and all reasonable
inferences drawn in the light most favorable
to the nonmoving party, in this case Chen et
al. Freestone Capital Partners LP v. MKA Real
Estate Opportunity Fund I. LLC, 155 Wn. App.
643, 653, 230 P. 3d 625 (2010).
In their complaint, Chen alleged that
Halamay made a false CPS referral and
delivered false information to CPS (also police
and the court). CP 3-4; fell below the standard
of care “by refusing to contact Plaintiff, J.L.’s
parents, and plaintiff, J.L.’s main treating
physicians, and reviewing his full medical
records.” CP 3. Trial Court also showed its
awareness41 that this was a false CPS referral
made by an urgent care physician (Halamay)
who falsely alleged that J.L. suffered from
“kidney failure”, “life-threatening” and
“parents not following medical instruction
sending [J.L.] to ER on Oct 20, 2013” (CP 226);
and that both dependency and criminal cases
were dismissed42 with a specific finding that
41 In its Order on granting Halamay and Allegro Pediatrics’
summary judgment, CP 280, the trial court indicated that it had
had considered the “Plaintiffs’ Response” which included
Plaintiffs’ complaint against DSHS. CP 223-240.
42 Dismissal on Dependency means that this was a false CPS
referral since “a reasonable person” would have agreed that CPS
would not have returned J.L. home if it the report of abuse was
correct and Ms. Chen was found to be a child-abuser. The

App E
147a
“the mother did not refuse to admit [J.L.] to
hospital against medical advice on 10/20/13.”
CP 235.
Halamay and Allegro Pediatrics did
not provide factual evidence to specifically
rebut Chen’s allegations. Halamay did not
explain why she did not contact J.L.’s main
treating physicians or reviewing his medical
history before making medical conclusion that
disrupted his treatment and destroyed his
health. Instead, they claimed that Halamay
was acting in good faith when making the CPS
referral and thus immune under RCW
26.44.060. CP 66-68; 145-146. RCW 26.44.060
(1) provides immunity for reporting alleged
child abuse in good faith or testifying on
alleged child abuse or neglect in judicial
proceedings. It does not, however, provide
immunity for outrageous misdiagnoses and
misstatements. RCW 26.44.060 (4) (bad faith
reporting). To support their position, Halamay
and Allegro Pediatrics cited Whaley v. State,
90 Wn. App. 658, 668, 956, P. 2d 1100 (1998).
Did a declaration with inconsistency and
contradictories satisfy this Court who
readily accepted it as “good faith”? With
this inquiry, Chen dug into thousands of
original court record in Whaley.
The current case and Whaley involve
completely different factual background and
significantly different procedural history.
Whaley brought a pure CR 56 motion while
dismissal of the criminal charges further support Ms. Chen’s
innocence.

App E
148a
Halamay et al in this current case brought a
CR 12 (b) (2) motion (converted CR 56 motion).
Whaley sued a daycare and its director
Hupf, alleging Hupfs negligent report caused
eight days’ separation between Whaley and
her son. Hupf moved for summary judgment
by submitting affidavits from multiple
witnesses and herself. In her declaration, Hupf
detailed her nearly six months’ investigation,
consultation (with multiple professionals as
well as the child’s mother, Whaley), and
repeated
validation
(through
multiple
witnesses who did and did not have prior
knowledge about this allegation) concerning a
sexual allegation directly from Whaley’s son
who enrolled in this daycare over one and a
half year prior to this allegation. With this
detailed and direct factual evidence from
multiple
witnesses,
Hupf
sufficiently
demonstrated good faith. But here, Halamay
transmitted obviously false information to
CPS (directly contrary to medical facts in her
possession), quickly and without consulting
with J.L.’s main treating physicians,
reviewing his full medical records, but only
saw him three times at urgent care. CP 1528.
Whether there is a good faith, it should
be tested under undisputed facts. The
standard of good faith is a state of mind
indicating honesty and lawfulness of purpose.
Tank v. State Farm, 105 Wash. 2d 381, 385,
715 P.2d 1133 (1986). The referrals from Hurf
and Halamay were both found to be false, but
the difference is significant. In Whaley, Hupf

App E
149a
honestly passed the allegation from Whaley’s
child (though found to be false) but Halamay
dishonestly described J.L.’s condition. Which
was even not supported by J.L.’s medical
records in her own institution, let alone by
J.L.’s treating doctors. Hupf spent six months
for investigation while Halamay did not even
consult with J.L.’s treating physicians. While
nothing in the record suggests that Hupf was
dishonest but in the current case, Halamay
admitted that J.L.’s kidney function was
normal, but reported differently to CPS. See,
1510-1525; also, Carter Decl. at CP 1526-1529.
Without providing any evidence to
establish good faith and honesty, a good faith
defense fails. See, RCW 26.44.060 (4) (bad
faith reporting). Halamay had failed to
establish the good faith that is necessary to
trigger immunity, and there were no grounds
for Judge Ramsdell to grant a dismissal in
Defendants’ favor. See, Clapp v. Olympic
View Pub. Co., 137 Wash. App. 470, 476, 154
P. 3d 230, 234 (2007) (quoting Tiffin v.
Hendricks, 44 Wash. 2d 837, 843, 271 P. 2d
683
(1954))
(“Pleadings
are
written
allegations of what is affirmed on one side, or
denied on the other, disclosing to the court or
jury having to try the cause the real matter in
dispute between the parties.”). This Court
should reverse.
E. This Court should reverse because the
trial court did not enter any written
findings and conclusions of law to

App E
150a
support their decisions

on disputed

facts.
In Peoples National Bank v. Birney’s
Enters, 54 Wn. App. 668 (1989), Division Two
held that, “CR 52 requires written findings.
This means formal findings on all disputed
facts. CR 52 (a)(1); CR 52 (a)(4).” See State v.
Kingman, 77 Wn. 2d 551, 463 P.2d 638 (1970).
Absence of findings undermines the
conclusions of law. Sandler v. United States
Dev. Co., 44 Wn. App. 98, 721 P. 2d 532 (1986);
State v. Poirier, 34 Wn. App. 893, 664 P.2d 7
(1983). Also, absence of a finding will be taken
as a negative finding on the issue. Smith v.
King, 106 Wn. 2d 443, 451, 722 P.2d 796
(1986); Golberg v. Sanglier, 96 Wn. 2d 874,
880, 639 P.2d 1347, 647 P.2d 489 (1982);
Falling v. Eastern & Pac. Enters. Trust, 41 Wn.
App. 158, 165, 702 P.2d 1232, review denied,
104 Wn. 2d 1014 (1985). It is the prevailing
party’s duty to procure formal written
findings supporting its position. Prevailing
parties must fulfill that duty or abide the
consequences of their failure to do so. People
National Bank v. Birney’s Enters, 54 Wn. App.
668 (1989).
In a recent unpublished opinion in
Chemstation of Seattle, LLC v. Donahoe, (No.
77030-6-1) (2018), this Court held that, “the
lack of adequate findings of fact requires that
we reverse and remand.” This Court pointed
out that, “To facilitate appellate review, a trial

App E
151a
court must enter findings of fact and
conclusions of law and set forth its reasons...”
Where there are no findings as
required under CR 52 (d), the record is “void,”
tantamount to “an invitation to read the
evidence, consider it de novo, and second
guess the trial court.” State v. Kingman, 77
Wn. 2d 551, 552, 463 P.2d 638 (1970)
(declining the invitation). The trial court could
have reasonably concluded the lack of findings
and conclusions was an “irregularity in
obtaining a judgment” for purposes of CR 60
(b)(1). “An irregularity is defined to be the
want of adherence to some prescribed rule or
mode of proceeding; and it consists either in
omitting to do something that is necessary for
the due and orderly conducting of a suit, or
doing it in an unreasonable time or improper
manner.” Port of Port Angeles u. CMC Real
Estate Corp., 114 Wn. 2d 670, 674, 790 P.2d
145 (1990) (internal quotation omitted)
(quoting In re Ellern, 23 Wn. 2d 219, 222, 160
P.2d 639 (1945); see also, Madera u. J.R.
Simplot Co., 104 Wn. App. 93, 15 P. 3d 649
(2001) (describing irregularities under CR 60
(b)(1) as concerning departures from
prescribed rules or regulations); Philip A.
Trautman, Vacation and Correction of
Judgments in Washington, 35 Wash. L.Rev.
505, 509 (1960) (noting that defects in the
judgment
itself
may
constitute
an
irregularity). But here, neither Judge
Ramsdell nor Judge Parisien entered any
written findings.

App E
152a
1. Judge Ramsdell did not enter any
written findings for the disputed
issues when entering a dismissal
with prejudice, nor made any good
cause findings for not appointing
guardian ad litem for minors.
When dismissing Chen’s claims with
prejudice on May 12, 2017, Judge Ramsdell
did not enter any factual findings to support
his conclusion. CP 279-280. If the dismissal
was upon jurisdictional grounds, it cannot be
with prejudice, especially for the minors
whose statute of limitation will not expire in
more than a decade. If the dismissal was on
the merits as asserted by Halamay and
Allegro Pediatrics. Then CR 41 (h)(3) and CR
52 (a)(1) apply. Specifically, CR 41 (b) (3)
provides, “If the court renders judgment on
the merits against the plaintiff, the court shall
make findings as provided in rule 52 (a).” CR
52 (d)(“a judgment entered in a case tried to
the court where findings are required, without
findings of fact having been made, is subject to
a motion to vacate...”) (emphasis added).
Irregularities occur “when there is a failure to
adhere to some prescribed rule...” Mosbrucker
v. Greenfield Implement, 54 Wn. App 647, 652
(1989).
2. Judge Parisien did not enter any
written findings for the disputed
issues when entering an order
denying
vacating
summary
judgment, nor made any good cause

App E
153a
findings
for
not
appointing
guardian ad litem for minors.
Similarly, when denying Chen’s
motion to vacate summary judgments on July
23, 2018, Judge Parisien did not enter any
written findings to support her conclusion. For
example, she did not explain how Halamay
acted in good faith when reporting J.L.’s
condition to CPS in a totally different way
(directly contrary to his medical records), nor
did she explain that Halamay was not
negligent in diagnosing J.L. without
reviewing his medical history.
A review of overwhelming case laws
requires entry of factual findings and
conclusions of laws. But here, trial court had
failed to enter any written findings and
conclusions of law on its May 12, 2017 order
dismissing with prejudice. Absence of findings
warrants a reversal.
F. This Court should reverse on trial
Court’s repeated failure to comply
with Guardian ad Litem Statute for
appointing guardian ad litem for J.L.
and L.L
Procedural due process requires that
the child be represented by guardian ad litem
(“GAL”) in a private paternity action because
“no individual should be bound by a judgment
affecting his or her interest where he [or she]
has not been made a party to the action.” State

App E
154a
v. Santos, 104 Wn. 2d 142 (1985) (quoting
Hayward v. Hansen, 97 Wn. 2d 614, 617, 647
P.2d 1030 (1982)). It is fundamental that
parties whose interests are at stake must have
an opportunity to be heard “at a meaningful
time and in a meaningful manner.” Olympic
Forest Frods., Inc. v Chaussee Corp., 82 Wn.
2d 418, 422, 511 P.2d 1002 (1973)(internal
quotation omitted). In Washington, any
person 18 years or older may sue or be sued in
a state court. A younger person may sue or be
sued, but only through a duly-appointed GAL.
RCW 4.08.050. Washington long recognized
that appointment of guardian ad litem is
mandatory.
In Newell v. Ayers, 23 Wn. App. 767,
598 P.2d 3 (1979), Division Three held,
“the rule is that a minor must be
represented by a guardian ad litem, or
the judgment against him may be
voidable at his option. Whether the
minor will be allowed to avoid the
judgment or whether the judgment is
allowed to stand depends upon
whether the court finds that his
interests were protected to the same
extent as if a guardian ad litem had
been appointed at the time the action
was instituted”.
Similarly, in Dependency of A.G., this
Court held that, “The [guardian ad litem]
statute is mandatory, and the children's
interests are paramount. We cannot condone
ignoring the statutory provision specifically

App E
155a
designed to protect them.” 93 Wn. App. 268,
968 P.2d 424 (1998). (emphasis added). This
Court further recognized that “Had [parents]
drawn the court’s attention to its failure... and
the court still failed to act or relied for its
finding on something other than good cause,
there might well be reversible error”. In re
Dependency ofO.J., 88 Wn. App. 690, 947 P.2d
252 (1997) (emphasis added).
1. Judge Ramsdell did not appoint
guardian ad litem for J.L. and L.L.
when drawing to his attention.
As noted supra, Washington precedents
held that after drawing to its attention, the
trial court’s failure to act warrants a reversal.
Here, Chen drew to the attention of the court’s
attention multiple times for its failure to
appoint guardian ad litem, e.g., CP 210, 282,
286. For example, in their motion for
reconsideration filed on May 19, 2017 before
Judge Ramsdell, Chen wrote, “due to failure
to appoint a Guardian ad Litem (“GAL”) to
bring the action, the action on behalf of the
minors was nullity, and there was no action on
behalf of the minors for judicial consideration,
and therefore no action to dismiss.” CP 282.
Chen also wrote, “If the children’s complaints
are void due to failure to appointing GAL, they
have not legally filed any actions, and have
many years to do so.” CP 286. Judge Ramsdell
neither appointed guardian ad litem, nor
made any good cause not doing so but simply

App E
156a
denied Chen et al’s motion for reconsideration.
CP 308-309.
2. Judge Parisien did not appoint
guardian ad litem for J.L. and L.L.
when drawing to her attention.

In their Motion to Vacate Summary
Judgments, Chen spent lengthy time
discussing the necessity of appointing
guardian ad litem. CP 992-994. For example,
Chen wrote, “without appointment of GAL to
represent their best interests, children are not
made indispensable parties of the case that
deprives the trial court of jurisdiction to enter
a judgment against them.” Judge Parisien did
not address this issue before entering an order
denying Chen’s motion to vacate. CP 15331534.
Chen subsequently moved for
reconsideration,
once
again
raising
unresolved “issue of failure to appoint
guardian ad litem” and pointed out that
“Washington courts long recognized the ‘the
children’s interests are paramount...’’the
appointment of a guardian ad litem is
mandatory...” CP 1547. Again, Judge Parisien
denied reconsideration without addressing
the issue brought to her attention. CP 1578.
In Dependency of A. G., while
everybody involved (attorneys, judges,
commissioners) had been negligent in raising
the issues of absence of guardian ad litem, this
Court impose sanctions upon both the
Department of Social and Health Services

App E
157a
(DSHS) and the trial court for their failure to
comply with the mandate of the guardian ad
litem statute because “the statute is
mandatory, and the children’s interests are
paramount. We cannot condone ignoring the
statutory provision specifically designed to
protect them.” But here, Chen had repeatedly
reminded the trial court of the absence of
guardian ad litem, but neither Judge
Ramsdell nor Judge Parisien had ever
addressed this issue before entering a
judgment. Trial court’s repeated failure
warrants a reversal.
G. This Court should reverse because
Judge Ramsdell and Judge Parisien’s
denying reconsideration was based upon
untenable grounds and for untenable
reasons.
Motions for reconsideration are
addressed to the sound discretion of the trial
court; a reviewing court will not reverse a trial
court's ruling absent a showing of manifest
abuse of that discretion. Perry v. Hamilton, 51
Wn. App. 936, 938, 756 P.2d 150 (1988). A
trial court abuses its discretion when it
exercises it in a manifestly unreasonable
manner or bases it upon untenable grounds or
reasons. State v. Stenson, 132 Wn.2d 668, 701,
940 P.2d 1239 (1997), cert, denied, 118 S. Ct.
1193 (1998); State ex rel. Carroll v. Junker, 79
Wn.2d 12, 26, 482 P.2d 775 (1971).
As noted supra, trial court’s failure to
comply with guardian ad litem statute is a

App E
158a
reversible error if having drawn to its
attention. Here, neither Judge Ramsdell nor
Judge Parisien appointed guardian ad litem
for J.L. and L.L. when Chen raised this issue
in reconsideration. CP 282, 286, 992-994, 1547.
Both J.L. and L.L. were severely prejudiced by
trial court’s denying appointment of guardian
ad litem to represent their best interests. Trial
court’s repeated denial, which is at variance
with this Court’s prior decisions, is untenable.
1. Judge Ramsdell’s denial
reconsideration
was
untenable reasons.

on
for

Seeking
reconsideration
granting
summary judgment, Chen et al also rightfully
raised issues at dispute. For example, Chen
raised the issue of lacking guardian ad litem
(CP 282. CP 286); and reiterated the factual
allegations in their complaint that Halamay’s
CPS referral was without adequately
reviewing medical history and talking with
J.L.’s main providers. CP 284. CP 286. Chen
also presented to the court that Halamay et
al’s false reliance on a police report which had
been determined to be false. Id.
In their Response, Halamay et al failed to
rebut Plaintiffs’ factual allegations that
Halamay’s
conclusion
was
without
consultation with Dr. Green but claiming that
Halamay did not know who is Dr. Green. CP
299. However, Dr. Green’s name was clearly
printed on J.L.’s lab report as ordering
physician, which was in Allegro Pediatrics’

App E
159a
sole possession. CP 1094-1096; also, CP 1528;
CP 1000, at 15.
Judge Ramsdell permitted response
from Halamay and Allegro Pediatrics but
denied did not allow a reply Chen who
discovered Halamay’s misrepresentation in
her response. Judge Ramsdell denied the
reconsideration
right
after
Halamay’s
response. CP 298, 308.
2.
Judge Parisien’s denial on
reconsideration was based upon
untenable grounds.
On July 27, 2018, Chen et al moved for
reconsideration on Judge Parisien’s July 23,
2018 decision. CP 1533-1534. In their motion
for reconsideration, Chen et al argued that
Judge Parisien was precluded from hearing
Chen’s CR 60 motion given the fact that she
was neither “the judge who signed the
judgment” pursuant to LCR 60 (e)(2)(h) nor
“the respective chief judge” under LCR 60
(e)(2)(iii). CP 1544. King County Local
General Rules 29 (h) defines “Respective Chief
Judge” as “(1) in civil cases with a Seattle
case-assignment-area designation (SEA), the
Chief Civil Judge”. Id. Therefore, Judge
Parisien did not obtain legal authority to hear
and rule on a CR 60 motion, rending her order
invalid and without legal effect.
“Where a judgment has been entered by
a court which has not first secured jurisdiction
over the person or the subject matter, or which

>-

App E
160a
lacks the power to render the particular
relief granted, such judgment is void and
of no effect.” (emphasis added). Pamelin
Indus v. Sheen- U.S.A., 95 Wn. 2d 398, 622
P. 2d 1270 (1981) (citation omitted). Judge
Parisien has no legal authority to hear a CR
60 motion to vacate judgment entered by
Judge Ramsdell. Upon Plaintiffs’ motion, “the
court has a duty to absolutely annul such a
judgment.” Id. The Parisien Court’s failure to
set aside her order on July 23, 2018 and her
denial on reconsideration is an abuse of its
discretion.
H. The trial court abused its discretion in
denying Chen et al’s CR 60 motion.
1. Judge Parisien was precluded to
hear and rule on Chen’s CR 60
motion.
After obtaining J.L.’s complete set of
medical records at SCH, Chen et al brought a
CR 60 motion to vacate judgments entered by
Judge Ramsdell. Chief Civil Judge Honorable
Ken Schubert entered a Show Cause Order,
and reviewed pleadings but Judge Parisien
heard and ruled on the motion to vacate. As
noted supra, Judge Parisien acted excess of
her authority in ruling on CR 60 motion, LCR
60 (e)(2).
2. Judge Parisien erred in failing to
consider the merits of the case.

App E
161a
To support their motion to vacate, Chen
submitted a declaration 43 highlighting a
number of example records, which emerged
for the first time in the complete Allegro
Pediatrics’ records, that support Chen et al’s
allegations that Halamay knew that Chen had
acted diligently and in accordance with
medical recommendations in seeking care for
J.L., that Halamay failed to follow up with
J.L.’s known providers about the nature of his
medical conditions, and that Halamay’s report
to CPS contained inaccurate or misleading
assertions that she knew or should have
known to be false. Notably, Halamay and
Allegro Pediatrics did not address these
specific examples of newly discovered
information, supporting Chen’s claims; rather,
Halamay and Allegro Pediatrics repeated
their cherry-picked excerpts and summarily
dismiss the omitted portions of the records as
being immaterial.
At the hearing held on July 19, Chen
presented the newly discovered 135 pages’
critical evidence that had been withheld by

43 Ms. Chen ‘s May 16, 2018 Declaration is central
to support that Chen et al had brought a
meritorious claim. A translated version is
attached as Appendix B. (Ms. Chen translated the
original page numbers into clerks’ paper numbers
for the easy reference of this Court, all other
contents remained unchanged. Ms. Chen’s original
May 16, 2018 declaration was at CP 1510-1524)

App E
162a
Halamay in their sole possession from the
Ramsdell court and Chen.
Washington follows an established
five-prong test to determine whether a new
trial should be granted on the basis of newly
discovered evidence. The party requesting a
new trial must demonstrate the evidence were
“material”, “through due diligence” and
“would have changed the result if a new trial
were granted”. State v. Jackman, 113 Wn.2d
772, 779, 783 P .2d 5 80(1989). To determine
whether the evidence will probably change the
result of the trial, the court considers the
"credibility, significance, and cogency of the
proffered evidence." State v. Gassman, 160 Wn.
App. 600, 609, 248 P.3d 155 (2011). The
credibility of the medical records cannot really
be doubted because the records were provided
by Attorney General’s Office through a
separate federal civil litigation. Halamay and
Allegro Pediatrics did not dispute the
authenticity of these newly discovered
medical records.
Washington Notice Pleading System
allows plaintiffs to “use the discovery process
to uncover the evidence necessary to pursue
their claims,” tempers this aspiration.
Putman v. Wenatchee Valley Med. Ctr., P.S.,
166 Wn. 2d 974, 983, 216 P.3d 374 (2009).
“The notice pleading rule contemplates that
discovery will provide parties with the
opportunities to learn more detailed
information about the nature of a complaint.”
Bryant v. Joseph Tree, Inc., 119 Wn. 2d 210,

App E
163a
222, 829 P.2d 1099 (1992). This is particularly
true because in medical malpractice claim, the
reality is that the vast majority of critical
medical information was in medical facilities
and/medical providers’ sole custody. The
plaintiff, with no access to this information, is
therefore not in a position to fully discover
without engaging in extensive discovery.
Therefore, “[t]his is true even when a plaintiff
exercises utmost care to discover all negligent
health care providers with due diligence and
dispatch. Not infrequently, the particular acts
or omissions of other, non-party health care
providers fail to surface despite vigorous
investigation and discovery.” Winbun v. Moore,
143 Wn. 2d 206, 18 P.3d 576 (2001).
Here, Halamay brought a CR 12
(b)(2) motion prior to full discovery
taking place, attempting to avoid
discovery. For example, they claimed
in their summary judgment that, “no
amount of discovery in this case will
create any issues of genuine material
fact...” CP 213. In LG Elecs., Inc, this
Court explicitly pointed out that,
“Were we to embrace [defendants’]
position [of bringing CR 12 (b)(2)
motion prior to discovery],
we would create a false world — one existing
the
result
of
litigation
as
solely
strategies....the purpose of our liberal notice
pleading regime - to facilitate a proper
decision on the merits.” In the current action,
Chen et al (who were pro se) had exhausted

App E
164a
their reasonable diligence to request J.L.’s
medical records from Allegro Pediatrics twice
but were denied. CP 1506. Halamay was the
urgent care provider and saw J.L. only three
times (not J.L.’s regular doctors) but actually
possessed more documents that Chen could
not have reasonably known prior to discovery.
Washington court favor deciding cases
on their merits. Vaughn v. Chung, 119 Wn. 2d
273, P.2d 668 (1992). The “newly discovered”
medical records well established that
Halamay fell below the standard care for not
consulting with J.L.’s treating physicians, and
acted in bad faith for providing plainly wrong
information to CPS, law enforcement, 2013
Dependency court, 2017 &2018 Civil Court.
In light of these clear and convincing evidence,
this is a meritorious case.
The situation in current case was very
similar to the willful withholds in Roberson v.
Perez, 123 Wn. App. 320 (2004). The Roberson
court held that, “in this case there is material,
very important material...that was not given
to the plaintiffs...that would have been very
important in preparation of the case. They
were blinded, and they were. I believed,
misled, and I believed the court was misled.”
While Defendants in Roberson argued that
plaintiffs never asked for Detective Perez’s
medical file or his Labor and Industries file,
the court rejected this argument, and further
vacated judgment in plaintiffs’ favor.
Specifically, the court finds that (1) was willful
or deliberate and (2) substantially prejudiced

App E
165a
the opposing party’s ability to prepare for trial.
The reviewing court, Division Three affirmed
Roberson Court’s decision and held that,
“When a trial court grants a new trial
on the ground that substantial justice
has not been done, the favored
position and sound discretion of the
trial court is accorded the greatest
deference by a reviewing court,
particularly when the trial court’s
decision involves an assessment of
occurrences...that cannot be made a
part of the record.” Id (quoting
Olpinski v. Clement, 73 Wn. 2d 944,
951, 442 P.2d 260 (1968)).
Evidence is material if it was J.L.’s
medical records. Halamay and Allegro
Pediatrics did not deny that they had
intentionally withheld evidence from Chen
and the Court, but argued that “[the newly
discovered medical record] have no material
relation to [Halamay’s] care of J.L.” CP 1294.
However, “[i]t is not for the defense to
unilaterally decide what is relevant”.
Taylor v. Cessna Aircraft Co., 39 Wn. App.
828, 696 P.2d 28 (1985). Parties are required
“to '"make a trial less a game of blindman's
buff and more a fair contest with the basic
issues and facts disclosed to the fullest
practicable extent.” Gammon v. Clark Equip.
Co., 38 Wn. App. 274, 279-80, 686 P.2d 1102
(1984).
Here,
the evidence was clear that
Halamay and Allegro Pediatrics had

App E
166a
intentionally and willfully withheld J.L.’s
medical records that would have changed the
results of the case. When Halamay et al failed
to provide an innocent explanation for having
withholding critical evidence from Chen and
the Court, a reasonable person could reach
differing conclusion that substantial justice
has not been done. Hansen v. Friend, 59 Wn.
App. 236, 240, 797 P.2d 521 (1990), review
granted, 116 Wn.2d 1007 (1991). But here,
Judge Parisien simply denied Chen’s motion
to vacate summary judgments on untenable
grounds. Judge Parisien abused her discretion
in failing to follow controlling authority,
misapprehending
facts,
and
denying
was
reconsideration.
Her
decision
inconsistent with controlling precedents that
Washington courts favor deciding cases on
their merits, e.g., Vaughn v. Chung, 119 Wn.
2d 273, P.2d 668 (1992,); Fox u. Sackman, 22
Wn. App. 707, 708, 591 P.2d 855 (1979).
3. Judge Parisien’s decision was
arbitrary and capricious, and on
untenable grounds.
While it was made clear to the court
that Halamay’s CPS referral was made
without consulting with J.L.’s main treating
physicians (and evidence on records strongly
supported that Halamay knew Dr. Green was
J.L.’s main treating physician. CP 1000, Chen
Decl. at 15; also, CP 1528, Carter Decl. at 14)
and many of Halamay’s statements in her
CPS referral was false and contradictory to
medical records at Allegro Pediatrics. RP 17.

App E
167a
CP 997-1007. Judge Parisien claimed that
“the referral was made in good faith” (RP 18)
but did not explain why a referral without
reviewing patient’s medical history and/or
providing simply false facts could constitute
“good faith” for “indicating honesty and
lawfulness of purpose.” Whaley, at 669.
During this 25 minutes’ Show Cause Hearing
(CP 1532), multiple issues remained
unresolved. For example, Judge Parisien still
did not appoint guardian ad litem for minors;
nor made any findings on above disputed
issues. Judge Parisient did not provide pro se
Lian an opportunity to make oral argument.
Judge Parisien’s conclusions were arbitrary
and capricious, and on untenable grounds and
for untenable reasons. This Court should
reverse.
I. This Court should reverse because
substantial justice had not been done,
especially for two minors, J.L. and
L.L. The cumulative effect of the trial
court’s errors deprived Chen, Lian,
J.L. and L.L. of a fair hearing
Even if this Court is not persuaded that
the trial court’s errors standing alone warrant
a reversal, they warrant a fair hearing taken
together because the cumulative effect was to
deprive Chen et al of a fair hearing. The errors
imbalanced justice, empowering Halamay”s
misrepresentation while weakening Chen’s
claims across the board.

App E
168a
Moreover, additional errors contributed
to this cumulative effect. The trial court’s
repeated denial to comply with guardian ad
litem statute even after drawing to its
attention. And Judge Parisien erroneously
heard Chen’s CR 60 motion, and failed to
uphold justice when she was made aware of
Halamay’s significant withholds of 135 pages’
critical evidence. The cumulative effect of the
trial court’s errors led to substantial injustice
upon Chen, Lian, J.L. and L.L., particularly
for two minors, J.L. and L.L. whose statute of
limitation will not expire in more than a
decade. This Court should reverse.
V. CONCLUSION
For the reasons stated, this Court should
reverse and remand for trial.
RESPECTFULLY SUBMITTED
this 9th day of February 2019.
/s/ Susan Chen
Susan Chen, pro se Appellant
PO BOX 134, Redmon, WA 98073

App F
170a
No. 98368-2
SUPREME COURT
OF THE STATE OF WASHINGTON
NO.76929-4-1
COURT OF APPEALS, DIVISION I
OF STATE OF WASHINGTON

SUSAN CHEN et al.
Plaintiffs / Petitioners
v.
KATE HALAMAY and ALLEGRO PEDIATRICS
Defendants / Respondents

PETITION FOR REVIEW

Susan Chen, Pro Se Petitioner
PO BOX 134, Redmond, WA 98073
Telephone: (323)902-7038

App F
171a
TABLE OF CONTENTS
I.IDENTITY OF PETITIONERS, CITATION TO
DECISION & INTRODUCTION
175
176
II.ISSUES PRESENTED FOR REVIEW
III.FACTS RELEVANT TO PETITION FOR
REVIEW...................................................................... 177
IV.WHY THIS COURT SHOULD ACCEPT FOR
REVIEW....................................................................... 182
A. Division One’s decision creates a new rule
permitting pro se representation that ignores RCW
2.48.010 et seq and APR 5 &7, conflicts with this
Court’s decision in Great Western and Hagan that
pro se litigants are prohibited from practice of law,
and raises an issue of substantial public interest that
this Court should decide. RAP 13.4 (b) (1)1
(4)
85
B. Guardian ad litem Statute was enacted to protect
the incompetent people’s interests, Division One’s
Misinterpretation and Misapplication of RCW
4.08.050 improperly denied minors’ rights of access
to the courts, conflicts with multiple controlling
precedents, and raises an issue of substantial public
interest that this Court should decide. RAP 13.4
(b)(1)191
(4).
C. Whether the courts have authority over minors
who had not been properly before the court, absent
representation of guardian ad litem and legal
lawyers is an issue to be determined by this

App F
172a
Court
5

19

V.CONCLUSION

197

CERTIFICATE OF SERVICEError!
not defined.

Bookmark

TABLES OF AUTHORITIES

Washington Cases

page(s)

Dependency of E. M.,
12 Wn. App. 2d 510, 458 P.3d 810 (2020)

12

Dependency of A.G.,
93 Wn. App. 268, 968 P.2d 424 (1998)

13

Dep’t of Ecology v. Campbell & Gwinn, LLC,
146 Wn.2d 1, 9-10 43 P.3d 4 (2002)...........

14

Dike v. Dike,
75 Wn.2d 1, 448 P.2d 490 (1968)

16

Hagan & Van Kamp, P.S. v. Kassler Escrow, Inc.,
7, 10
96 Wn.2d 443, 635 P.2d 730 (1981)
In re Ballou,
48 Wn.2d 539, 295 P.2d 316 (1956)

6

In re Bruen,
102 Wash. 472, 172 P.1152 (1918)

7

In re Chi-Dooh Li,
79 Wn.2d 561, 488 P.2d 259 (1971)

6

App F
173a

In re Lambuth,
18 Wash. 478, 51 P. 1071 (1898)

7,9

In re Levy, 23 Wn.2d 607, 161 P.2d 651, 162 A.L.R.
7
805 (1945)
John Hancock Mut. Life Ins. Co. v. Gooley,
196 Wash. 357, 370, 83 P.2d 221 (1938).

16

Kongsbach v. Casey,
66 Wash. 643,120 Pac. 108 (1912).........
Mezere u. Flory,

13

26 Wn.2d 274,173 P.2d 776 (1946)........

13

Newell v. Ayers,
23 Wn. App. 767, 598 P.2d 3 (1979).....

5,13

Schroeder v. Weighall,
179 Wn.2d 566, 316 P.3d 482 (2014) .

14

Shelley v. Elfstrom,
13 Wn. App. 887, 538 P.2d 149 (1975)

15

State v. Krall,
125 Wn.2d 146 (1994).

15

State v. Posey,
174 Wn.2d 131, 139, 272 P.3d 840 (2012)....... 16
State ex rel. Laughlin v. State Bar Ass’n,
26 Wn.2d 914, 176 P.2d 301 (1947)

7

Taylor v. Enumclaw Sch. Dist. No. 216, 132 Wn. App
688, 694, 133 P.3d 492 (2006)

12

App F
174a
Wash. State Bar Assn. v. Great W. Union Fed. Sav.
& Loan Assn.,
1, 7, 9, 10

91 Wn.2d 48, 596 P.2d 870 (1978)

Washington State Bar Association v. Washington
Association of Realtors, 41 Wn.2d 697, 251 P.2d 619
9

(1952)
Other Jurisdictions

Cheung v Youth Orchestra Found. Of Buffalo, Inc.,
906 F.2d 59, 61-62 (2nd Cir. 1990)............

7,12, 17

Johns v. County of San Diego,
114 F. 3d 874, 877 (9th Cir. 1987)

7, 11, 12

Meeker v. Kercher, 782 F.2d 153, 154 (10th Cir. 1986)
(per Curiam).......................................................

7,11

Osei-Afriyie v. Medical College,
937 F.2d 876, 882-83 (3rd Cir. 1990)

7,11

Statutes
RCW 4.08.050

2, 8,13, 14,15

RCW 2.48.170

10

Other authorities
28 U.S.C § 1654

1,7, 11

CR 41 (b)(3)......

5

CR 52 (a)(1).......

5

App F
175a
RAP 13.4 (b) (l)-(4)
I.

2, 8, 13

PETITIONERS,
IDENTITY
OF
DECISION
&
CITATION
TO
INTRODUCTION
As early as 1898, the Washington
Supreme court determined judicial regulation
of the practice of law was necessary to protect
the court and the profession, to ensure the
proper administration of justice, and to
further the public interest. In 1981, this Court
unanimously declared RCW chapter 19.62
unconstitutional, and reasserted its exclusive
power to define and regulate the practice of
law in this state. It is the established rule
throughout the county that nonlawyer pro se
litigants cannot represent others in court. 28
U.S.C § 1654 (“In all courts of the United
States the parties may plead and conduct
their own cases personally or by counsel...”);
Wash. State Bar Assn. v. Great W. Union Fed.
Sav. & Loan Assn., 91 Wn.2d 48, 596 P.2d 870
(1978) (“The ‘pro se’ exceptions are quite
limited and apply only if the layperson is
acting solely on his own behalf”) (emphasis in
original).
Petitioners Chen and Lian (“Chen”) ask
this Court to grant review of Division One’s
two decisions (Ex. A & B). J.L. is a disabled
minor whose claims were dismissed with
prejudice by trial court, affirmed by Division
One when he was not appointed guardian ad
litem and represented by licensed lawyer.
As pro se parents, Chen and Lian are
legally prohibited from representing their

/

APP F
176a
children. By affirming trial court’s dismissal
with prejudice against minors, Court of
Appeals improperly granted pro se litigants’
privilege of unauthorized practice of law.
Guardian ad litem Statue was enacted to
protect minors’ best interests, but in this
Opinion, became ground to deny minors’
rights of access the court.
Conflicts abound, public interests, and
manifest errors require this
Court’s
determination. This Court should accept
review and reverse.
II.

ISSUES PRESENTED FOR REVIEW
1. As determined by multiple decisions, the
Washington Supreme Court has exclusive
authority to regulate practice of law in the
state of Washington to best protect public
interests. Here, the Court of Appeals affirmed
trial court’s dismissal with prejudice against
minors who were represented by pro se
parents. Did the courts below err in granting
pro se parents the privilege of unauthorized
practice of law, warranting review by this
Court? RAP 13.4 (b)(l)-(4).
2. It has been well established through a series
of cases that appointment of guardian ad litem
for minors are “mandatory” in Washington
state. RCW 4.08.050 unambiguously impose
duty upon superior court judge who is
required to make the first inquiry about
guardians’ appropriateness and to avoid
prejudice to minors. Here, the trial court

APPF
177a
never made such inquiry (even after brought
to its attention) but entered an order
dismissing minors’ claims with prejudice.
Despite the plain language of the statute and
controlling precedents, the Court of Appeals
affirmed the dismissal with prejudice against
minors. Did the court misinterpret and
misapply the statute, warranting review by
this Court? RAP 13.4 (b)(l)-(4).
3. RCW 4.08.050 was enacted to protect minors’
best interests. Here, Court of Appeals claimed
that parents’ untimely request appointment of
guardian ad litem, such that minors should be
held accountable at no fault of their own, and
their claims should be dismissed with
prejudice. Did the court misinterpret and
misapply the statute, warranting review by
this Court? RAP 13.4 (b) (l)-(4).
4. Did the trial court have authority over minors
who had not been made parties of the case due
to absence of guardian ad litem and licensed
attorneys?
III. FACTS RELEVANT TO PETITION FOR
REVIEW
below-theHalamay’s
A. Respondent
standard care and misdiagnosis has
caused significant and irreversible
harms J.L. and his family.
Chen’s minor child, J.L. was taken
away by CPS due to Defendant Halamay’s
negligence. Halamay jumped to a conclusion
before reviewing J.L.’s medical history,
consulting with his main treating physicians.

APPF
178a
(CP 3-4). Notably, the state and prosecutors
eventually determined that Halamay’s
allegations in CPS referral were directly
contrary to the facts in J.L.’s medical records,
which was available to Halamay (CP 235).
Indeed, Halamay admitted in the recorded
deposition to Attorney Ms. Twyla Carter that
many of her statements in her CPS report
were untrue, for instance, J.L.’s kidney
function was normal but she misrepresented
to CPS as “kidney failure.” (CP. 1526-1529).
and
misstatements
Halamay’s
misdiagnosis led to J.L.’s one-year out of home
placement among eight different homes, being
abused and denied treatments in foster homes,
and eventually lost all his abilities. At age of
10, still in diapers, cannot speak, constantly
crying
and
screaming
uncontrollably,
sometimes for hours, at any actual or possible
separation from his parents. The parents have
sought treatment at many hospitals including
Harvard, to no avail. J.L. had none of these
characteristics before the misdiagnoses of the
Defendants and the disastrous one year in
eight different foster homes, being denied
treatments, and minimal contacts with his
parents and brother. (CP 284-285).
B. Chen pro se sued Halamay, initially
mistakenly added minors’ names in the
complaint but promptly brought to the
attention of the court. The Court did not
address the issue.
Chen pro se filed a civil action against
Halamay and Allegro Pediatrics in King

APPF
179a
County Superior Court, seeking civil redress
for Halamay’s below-the-standard care and
medical malpractice. At that time, Chen was
still looking for legal representation, but out
of caution, she pro se filed the complaint due
to the concern of expired statute limitation.
Chen mistakenly added minors’ names
as plaintiff, but quickly brought to the court’s
attention that as pro se parents, they cannot
represent the child. CP. 210 (Chen writes, “asi
parents we cannot represent the children in
this claim as parents...”). Without addressing
the raised issue, the trial court entered a
dismissal with prejudice. Chen moved for
reconsideration, raising the issue of absence of
guardian ad litem, and constitutionality of
dismissing minors’ claims with prejudice
without legal representation. See, CP 282
(Chen writes, “due to failure to appoint a
Guardian ad Litem (“GAL”) to bring the action,
the action on behalf of the minors was a
nullity, and there was no action on behalf of
minors for judicial consideration, and
therefore no action to dismiss. In this case, the
Court failed to give consideration to the
additional factor unique to the context of the
case, i.e., L.L. and J.L.’s minority status and
J.L.’s disabilities. American Disability Act
(ADA) of 1990 and Rehabilitation Act protect
the disabled’s rights to fundamental fairness.
J.L.’s constitution rights of access to the Court
cannot be denied during to his inability to
understand the legal proceedings without the
assistance of counsel and before reaching
majority. Dismissing minor’s claims with

APPF
180a
prejudice violates the due process and equal
protection guarantees of the Federal and state
Constitutions.”. The trial court denied Chen’s
reconsideration. CP 308-309. Chen timely
appealed.
C. Court of Appeals affirmed a dismissal
denied
and
prejudice
with
reconsideration, but silent to the issue of
“unauthorized practice of law”.
Chen later discovered that Halamay
withheld 135 pages’ medical records highly
relevant to the litigation and moved to vacate
the judgment on grounds of Halamay’s
withholds and trial court’s failure to comply
with guardian ad litem statute and other
procedural irregularities. Chen specifically
raised issues of the absence of guardian ad
litem (CP 654-656) and minors’ constitutional
rights of being represented by competent
counsel (CP 656-658). Trial court denied
Chen’s motion to vacate, leaving multiple
issues unaddressed, for instance, the absence
of guardian ad litem (CP 1547). Chen
appealed the denial on motion to vacate. The
two appeals were consolidated.
On appeal, Chen challenged trial court’s
defective judgment and its authority over
minors absent appointment of guardian ad
litem. Chen wrote,
“[i]n Newell v. Ayers, Division Three held
that when lacking guardian ad litem,
“judgment against minors may be voidable at
his option.” Similarly, [Division One]
recognized that “[t]he guardian ad litem]

APPF
181a
statute is mandatory, and the children’s
interests are paramount. We cannot condone
ignoring the statutory provision specifically
designed to protect them.” Dependency of A.G.
Brief, at 20.
Chen also argued that the dismissal
cannot be with prejudice absent factual
findings required by CR 41 (b)(3) and CR 52
(a)(1). Chen writes,
“CR 41 (b)(3) provides, ‘If the court
renders judgment on the merits
against the plaintiff, the court shall
make findings as provided in rule 52
(a).” CR 52 (d) (“a judgment entered in
a case tried to the court where
findings
are
required,
without
findings of fact having been made, is
subject to a motion to vacate...”
Brief, at 35.
On February 10, 2020, Division One
entered an unpublished opinion, affirming a
dismissal, but silent as to whether the
dismissal was jurisdictional or on the merits.
Chen moved for reconsideration on multiple
grounds, and specifically challenged Division
One’s manifest error, i.e., by affirming a
dismissal with prejudice, Division One
improperly granted pro se parents privilege of
“unauthorized practice of law”, in consistent
with both federal and state laws. Chen also
contested that ‘[dismissing the minors’ claims
with prejudice without ensuring that they

APPF
182a
receive
meaningful
notice
[through
appointment of guardian ad litem] violates the
children’s due process rights.”
On March 3, Washington licensed
attorney, Mr. James Daugherty, privately
retained by J.L.’s parents to appear on J.L.’s
behalf. Division One denied Chen’s motion,
silent to the issue of “unauthorized practice of
law.” Three weeks later, Court of Appeals
denied Mr. Daugherty’s appearance. Motion
for Discretionary Review on denial of legal
counsel’s representation is filed in #98503-1.
Chen seeks this Court’s review, and is
granted extension to submit the petition by
June 30, 2020 in light of this Court’s order No;
25700-B-611 suspending the provisions of
RAP 18.8 (b) during the COVID-19 public
health emergency.

IV.

WHY THIS COURT SHOULD ACCEPT
FOR REVIEW
It is well settled by repeated decisions
that the Washington Supreme Court has the
exclusive authority to regulate the practice of
law in the state of Washington. See, In re ChiDooh Li, 79 Wn.2d 561, 488 P.2d 259
(1971); In re Ballou , 48 Wn.2d 539, 295 P.2d
316 (1956); State ex rel. Laughlin v. State Bar
Ass'n, 26 Wn.2d 914, 176 P.2d 301 (1947); In
re J, 23 Wn.2d 607, 161 P.2d 651, 162 A.L.R.
805 (1945); In re Bruen, 102 Wash. 472, 172 P.
1152 (1918); In re Lambuth, 18 Wash. 478, 51
P. 1071 (1898). In Hagan & VanKamp, P.S. v.

APPF
183a
Kassler Escrow, Inc., 96 Wn. 2d 443, 635 P.2d
730 (1981), this Court held that, in enacting
RCW
chapter
19.62,
the
legislature
unconstitutionally encroached upon the
judiciary's power to regulate the practice of
law. Relying upon the doctrines of separation
of powers and inherent judicial power, the
court unanimously reasserted its exclusive
power to define and regulate the practice of
law. Id.
It is the established rule throughout
the county that nonlawyer pro se litigants
cannot represent others in court. 28 U.S.C §
1654 (“In all courts of the United States the
parties may plead and conduct their own cases
personally or by counsel...”); Johns v. County
of San Diego, 114 F. 3d 874, 877 (9th Cir. 1987)
(“a nonlawyer ‘has no authority to appear as
an attorney for others than himself’); Wash.
State Bar Assn. v. Great W. Union Fed. Sav. &
Loan Assn., 91 Wn.2d 48, 596 P.2d 870 (1978)
(“The ‘pro se’ exceptions are quite limited and
apply only if the layperson is acting solely on
his own behalf.”) (emphasis in original). Pro se
parents do not have the exemption to bring a
lawsuit on behalf of a minor without retaining
a lawyer, e.g., Osei-Afriyie v. Medical College,
937 F.2d 876, 882-83 (3rd Cir. 1990); Cheung v.
Youth Orchestra Found. Of Buffalo, Inc., 906
F.2d 59, 61-62 (2nd Cir. 1990); Meeker v.
Kercher, 782 F.2d 153, 154 (10th Cir. 1986)
(per curiam); Johns v. County of San Diego,
- 114 F.3d 814 (9th Cir. 1997).

APP F
184a
Petitioners, Chen and Lian (“Chen”)
are nonlawyers and cannot represent their
children. By affirming trial court’s dismissal
with prejudice against minors, Court of
Appeals improperly granted pro se litigants’
privilege of unauthorized practice of law. cf.
Johns (9th Circuit holding that dismissal with
prejudice should be amended as dismissal
without prejudice because pro se parents
cannot represent their children.).
Court of Appeals was silent to the
raised issue of “unauthorized practice of law”.
Petitioners ask this Court to review whether
trial court and Court of appeals have
authority to enter a dismissal with prejudice
against a minor absent representation of both
licensed lawyer and guardian ad litem; and
whether the lower courts have power to grant
pro se parents privilege of acting on others’
behalf in Washington courts. Petitioners
further seek review on interpretation of RCW
4.08.050 concerning the superior court’s duty
of first making initial inquiry about
One’s
Division
fitness.
guardian’s
interpretation and application was at odds
with legislative intent that guardian ad litem
statute was enacted to protect minors’
interests.
The disabled minor, J.L. did nothing
wrong but was injured by Respondent
Halamay’s negligence and will carry on all the
pains and damages to the end of his life. It is
a gross miscarriage of justice to deny his
rights to be fully presented in court by a

APPF
185a
licensed lawyer. By affirming a dismissal with
prejudice against minors, Division One
committed a manifest error affecting minors’
constitutional rights of access to the courts.
This Court should review and decide (i)
whether Division One has the authority to
grant pro se parents privilege of representing
their children in Washington courts; (ii)
whether the superior court has the authority
to render a dismissal with prejudice against
minors who had not been properly before the
court, absent representation by licensed
lawyer and guardian ad litem; and (iii)
whether the lower courts had misinterpreted
and misapplied guardian ad litem statute.
A. Division One’s decision creates a new
rule permitting pro se representation
that ignores RCW 2.48.010 et seq and APR
5 &7, conflicts with this Court’s decision
in Great Western and Hagan that pro se
litigants are prohibited from practice of
law, and raises an issue of substantial
public interest that this Court should
decide. RAP 13.4 (b) (l)-(4).
Regulation of practice of law is an
issue involving public interests. In a series of
cases, this Court has declared that regulating
practice of law is to best protect and serve the
public interest.. In re Lambuth., 18 Wash. 478,
51 P. 1071 (1898) (per curiam). Specifically,
this Court stated,
[Pjower to strike from the rolls is
inherent in the court itself. No statute

APPF
186a
or rule is necessary to authorize the
punishment in proper cases. Statutes
and rules may regulate the power, but
they do not create it. It is necessary for
the protection of the court, the proper
administration of justice, the dignity
and purity of the profession, and for
the public good and the protection of
clients.
Through a series of repeated decisions,
this Court announces its determination to
regulate the practice of law in this state to
protect the public interests. In Washington
State Bar Association u.
Washington
Association of Realtors, 4lWn. 2d 697,251
P.2d619(1952), this Court expands its power
to regulate the practice of law necessarily
broadened
its
authority
to
regulate
laypersons' preparation of real estate
documents. The Realtors Court stated that a
legislative act permitting gratuitous legal
work by the “unskilled or unqualified” could
not prevent the court from granting an
injunction if necessary, to protect the public
interest. In Wash. State Bar Assn. v. Great W.
Union Fed. Sav. & Loan Assn., 91 Wn.2d 48,
586 P.2d 870 (1978), this Court reiterated,
“Ordinarily, only those persons who are
licensed to practice law in this sate may do so
without liability for authorized practice...It is
our duty to protect the public from the activity
of those who, because of lack of professional
skills, may cause injury whether they are
members of the bar or persons never qualified
for or admitted to the bar.”

APPF
187a
In response to the holding in Great
Western, the Washington legislature enacted
RCW chapter 19.62, authorizing escrow
agents and others to select, prepare, and
complete certain real estate documents.
Stressing its duty to protect the public from
injury by unauthorized practitioners, this
Court unanimously determined that the
statute was dangerously flawed because “it
virtually gives free rein to almost anyone of
any degree of intelligence to perform any task
related to real property or personal property
transactions.” Finding RCW chapter 19.62
authorized nonlawyers to perform services
defined by the court as the practice of law, the
court
struck
down the
statute
as
unconstitutional extension of legislative
power. Hagan & Van Kamp, P.S. v. Kassler
Escrow, Inc., 96 Wn. 2d 443, 635 P.2d 730
(1981).
Under Washington law, only active
members may practice law” RCW 2.48.170.
Also, Washington Admission and Practice
Rules (“APR”) Rules. Under General Rule
(“GR”) 24, any legal activities such as
“drafting or completion of legal documents” or
“representation” are considered the practice of
law. In order to practice laws in Washington
courts, one is required to be an active member
of Washington State Bar. Prior to admission,
one is required to complete the required legal
training, pass the bar exam, and receive an
order from the Supreme Court of Washington
admitting one to practice law. Chen does not
meet any of the above requirements and can

’

^

APPF
188a
therefore only represent herself under limited
“pro se exception”.
The Court is under the duty to protect
minors’ interests. As noted by the court in
Osei-Afriyie, “The infant is always the ward of
every court wherein his rights or property are
brought into jeopardy, and is entitled to the
most jealous are that no injustice be done to
him.” Osei-Afriyie, 937 F.2d at 883. In order to
protect those rights, all jurisdictions
throughout the country have chosen to
dismiss minors’ claims without prejudice,
“thereby giving [minors] further opportunity
to secure an attorney at some later time
within the limitations period...[minor] should
not be prejudiced by his father’s failure to
comply with the court order.” Johns. The
Third Circuit explained the rationale:
A litigant has a right to act as his or
her own counsel...However, we agree
with Meeker v. Kercher, 782 F.2d 153,
154 (10th Cir. 1986) (per curiam), that
a non-attorney parent must be
represented by counsel in bringing an
action on behalf of his or her child. The
choice to appear pro se is not a true
choice for minors who under state
law... cannot determine their own
legal actions. There is thus no
individual choice to proceed pro se for
courts to respect, and the sole policy at
stake concerns the exclusion of nonlicensed persons to appear as
attorneys on behalf of others.

f

)

APPF
189a

It goes without saying that it is not the
interest of minors or incompetents
that they be represented by non­
attorneys. Were they have claims that
require adjudication, they are entitled
to trained legal assistance so their
rights may be fully protected.
Osei-Afriyie, 937 F.2d at 882-883.
As a result of its reasoning, the OseiAfriyie Court remanded the appeal to the
district court so that it could be either appoint
counsel under 28 U.S. C.A § 1915 (d) or
dismiss the complaint without prejudice.
Consistent with the third Circuit, the
Second Circuit concluded a dismissal without
prejudice should be entered as to minor who
was represented by pro se parents. In Cheung
v. Youth Orchestra Found. Of Buffalo, Inc.,
906 F.2d 59, 61-62 (2nd Cir. 1990), the Second
Circuit stated:
We
believe
that
no
issues
concerning this litigation should
be decided until the counsel issue
is resolved. We remand to give
Cheung an opportunity to retain
counsel or to request the appointment
of counsel. However, we confess our
own view that the facts of this case
hardly cry out for the appointment of
counsel. If Cheung does not retain
counsel and if the district court
declines to appoint counsel, the

r‘

APPF
190a
complaint should
without prejudice.

be

dismissed

Cheung, 906 F.2d at 11 (emphasis added).
In Johns v. County of San Diego, 114
F.3d 874 (9th Cir. 1997), the Ninth Circuit
stated, “[bjecause the goal is to protect the
rights of infants, the complaints should not
have been dismissed with prejudice as to
minor”. The Ninth Circuit thus directed the
district court to vacate the dismissal with
prejudice and enter an order dismissing the
case without prejudice.
In this instant case, Division One
mistakenly stated that pro se parents can act
on behalf of a minor child. See, Opinion at 16.
In making this conclusion, Division One cited
Taylor v. Enumclaw Sch. Dist. No. 216, 132
Wn. App. 688, 694, 133 P.3d 492 (2006) but
Taylor is factually distinguished: parent in
Taylor was not pro se but was represented by
counsel. Division One’s conclusion also
conflicts with its most recent decision in re
Dependency of E. M., 12 Wn. App. 2d 510, 458
P.3d 810 (2020) (decision entered on February
24, 2020) (“Only legal counsel can advocate for
the legal rights and interests of a child.”). By
affirming superior court’s dismissal with
prejudice
against
minors
who
were
represented by pro se parents, Division One
has improperly granted pro se parents’
privilege of “unauthorized practice of law” and
took over this Court’s exclusive power in
regulating “practice of law”. Division One’s

•A
APP F
191a
manifest error affects minors’ constitutional
rights of access to the court, conflicts with this
Court’s prior holdings and its own and prior
decision.
This Court should accept for review
and reverse.
B. Guardian ad litem Statute was enacted
to protect the incompetent people’s
One’s
Division
interests,
Misinterpretation and Misapplication of
RCW 4.08.050 improperly denied minors’
rights of access to the courts, conflicts
with multiple controlling precedents,
and raises an issue of substantial public
interest that this Court should decide.
RAP 13.4 (b)(l)-(4).
Under Washington law, Guardian ad
litem (“GAL”) is appointed for the benefit of
and to protect the best interests of minors and
incompetent persons. The statutory provision
for the appointment of a GAL is mandatory,
and any adjudication adverse to the interests
of such unrepresented minor is reversible
error. Kongsbach v. Casey,. 66 Wash. 643, 120
Pac. 108 (1912); Mezere v. Flory, 26 Wn. 2d 274,
173 P. 2d 776 (1946); Newell u. Ayers, 23 Wn.
App. 767, 598 P.2d 3 (1979) (In interpreting
RCW 4.08.050, Division III announces, “the
appointment of a guardian ad litem is
mandatory...the rule is that a minor must be
represented by a guardian ad litem, or the
judgment against him may be voidable at his

•

--

APP F
192a
option.”); Dependency ofA.G., 93 Wn. App. 268,
968 P.2d 424 (1998) (“[t]he guardian ad litem
is mandatory, and the children’s interests are
paramount. We cannot condone ignoring the
statutory provision specifically designed to
protect them. If resources are insufficient,
DCFS should address the problem with the
Legislature.”).
admitted
that
Division
One
appointment of guardian ad litem is
mandatory
but
misinterpreted
and
misapplied the statute in two respects.
First. Legislature enacted guardian
ad litem statute to protect the best interests of
the incompetent people who are “always the
ward of every court.” (Osei-Afriyie) and “a
particularly vulnerable population not
accountable for its status” Schroeder v.
Weighall, 179 Wn.2d 566, 316 P.3d 482 (2014).
But here, Division One concluded that minors
should be held accountable for the alleged
failure to comply with guardian ad litem
caused by other people. Division One’s
reasoning is due to parents’ untimely
application, minors should be punished with a
dismissal with prejudice.
Second, Legislative intent was to
protect children’s rights, and to ensure that
minors will be prejudiced by the parents’
incompetence. Therefore, the plain language
of RCW 4.08.050 imposes initial duty upon the
superior court to make the inquiry about the
guardians’ fitness (“in the opinion of the court
the guardian is an improper person, the court

APP F
193a
shall appoint one to act”). Only after the
superior court has met its initial burden, the
responsibility of making the request shifts to
“relative or friend of the infant.” Here, trial
court never made such inquiry and attempted
to address the raised issue, even after J.L.’s
parents brought the issue of absence of
guardian ad litem to its attention for at least
two occasions, e.g., CP 282, 286, 1547.
When interpreting a statute, our
“fundamental objective is to ascertain and
carry out the Legislature’s intent, and if the
statute’s meaning is plain on its face, then the
court must give effect to that plain meaning as
an expression of legislative intent.” Dep’t of
Ecology v. Campbell & Gwinn, LLC, 146
Wn.2d 1, 9-10, 43 P.3d 4 (2002). RCW 4.08.050
imposes a mandatory requirement upon the
court by using “shall”. State v. Krall, 125
Wn.2d 146 (1994).
4.08.050
imposes
the
RCW
mandatory duty for the superior court to make
the initial inquiry whether guardian ad litem
is needed. RCW 4.08.050 provides, in relevant
part:
when an infant is a party he or
she shall appear by guardian, or if he
or she has no guardian, or in the
opinion of the court the guardian is an
improper person, the court shall
appoint one to act. Said guardian
shall [then] be appointed as follows:

APP F
194a
(1) When the infant is plaintiff,
upon the application of the infant, if
he or she be of the age of fourteen
years, or if under that age, upon the
application of a relative or friend of
the infant.
(2) When the infant is
defendant, upon the application of the
infant, if he or she be of the age of
fourteen years, and applies within
thirty days after the service of the
summons; if he or she be under the age
of fourteen, or neglects to apply, then
upon the application of any other
party to the action, or of a relative or
friend of the infant.
The plain language in the statute
provides two step requirements: the first step
is the court’s duty to first determine whether
“the guardian is an improper person”. Only
after the first step is fulfilled does the burden
shift, to “a relative or friend of the infant”,
which is the second step. This interpretation
is consistent with Washington case laws, e.g.,
Shelley v. Elfstrom, 13 Wn. App. 887, 538 P.2d
149 (1975) (The court holding that it was "the
duty of the [trial] court to determine either
that [the party] was competent or that a
guardian ad litem was required." 13Wn. App.
at 889). See, also, In reMignerey, 11 Wn.2d 42,
49, 118 P.2d 440 (1941) ("The welfare of
incompetent persons and the care of their
property are objects of particular care and
attention on the part of the courts.").

APP F
195a
Had the trial court made the initial
inquiry, it would have found that J.L.’s pro se
parents are not competent from representing
their children in court. With the trial court’s
finding, GAL should be appointed to protect
minors’ best interests. Had GAL been
appointed, he/she (and the court) would have
also found that pro se parents (with language
barriers) cannot represent minors’ best
interests, and further prohibited from the
representation in light of this Court’s multiple
decision regarding practice of law. Trial
court’s failure to make the initial inquiry has
affected substantial rights of minors whose
rights of access of the courts were denied.
Division One’s decision was at odds
with legislative intents, conflicts with
controlling precedents. This Court should
accept for review and reverse.
C. Whether the courts have authority over
minors who had not been properly before
the court, absent representation of
guardian ad litem and legal lawyers is an
issue to be determined by this Court.
Generally speaking, jurisdiction is the
power of a court to hear and determine a case.
20 Am. JUR. 2d Courts § 56, at 446
(2005); State v. Posey, 174 Wn.2d 131, 139,
272 P.3d 840 (2012). Washington law has long
understood that the analysis of a judgment’s
validity is not confined merely to analyzing
personal and subject matter jurisdiction. John
Hancock Mut. Life Ins. Co. v. Gooley, 196

APPF
196a
Wash. 357, 370, 83 P.2d 221 (1938)
(recognizing that there are three jurisdictional
elements to any valid judgment - “jurisdiction
of the subject matter, jurisdiction of the
person, and the power or authority to render
the particular judgment.”). Id.; Dike v. Dike,
75 Wn.2d 1, 448 P.2d 490 (1968).
“An elementary and fundamental
requirement of due process in any proceeding
which is to be accorded finality is not ice
reasonably calculated,
under all the
circumstances, to apprise interested parties of
the pendency of the action and afford them an
opportunity to present their objections.”
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 314 (1950). In Anderson v.
Dussault, 181 Wn.2d 360, 333 P.3d 395 (2014),
this Court holding that the minor plaintiffs
action for breach of trust was not statutorily
time barred because the statutory time
limitation was tolled while the plaintiff was a
minor without a guardian ad litem who could
receive notice of the annual trust accountings
on her behalf. Also, State v. Douty, 92 Wn.2d
930, 603 P.2d 373 (1979) (“it should be noted
that the child, though named in the action,
was never served. Consequently, he is not
before the court.”)
Minors
are
considered
legally
incompetent and cannot represent their
interests in court. In this case, representation
of both guardian ad litem and licensed lawyers
are absent. As the Cheung Court stated, “We
believe that no issue concerning this litigation

APPF
197a
should be decided until the counsel issue is
resolved. We remand to give Cheung an
opportunity to retain counsel or to request the
appointment of counsel.” Cheung, 906 F.2d at
11 (emphasis added).
In sum, minors had not been properly
before the courts and the court has no
authority to render judgment against them.
This Court should reverse.
V.

CONCLUSION
In light of foregoing, Petitioners
request that this Court accept for review and
exercise its revisory jurisdiction to reverse
Division One’s decision.
DATED this 30th of June 2020
Respectfully submitted,
/s/ Susan Chen
Susan Chen, pro se petitioner

(

APP. G
198a
RCW 4.08.050
Guardian ad litem for infant.
Except as provided under RCW
26.50.020 and 28 A. 225. 036, when an infant
is a party he or she shall appear by guardian,
or if he or she has no guardian, or in the
opinion of the court the guardian is an
improper person, the court shall appoint one
to act. Said guardian shall be appointed as
follows:
(1) When the infant is plaintiff, upon the
application of the infant, if he or she be of the
age of fourteen years, or if under that age,
upon the application of a relative or friend of
the infant.
(2) When the infant is defendant, upon the
application of the infant, if he or she be of the
age of fourteen years, and applies within
thirty days after the service of the summons;
if he or she be under the age of fourteen, or
neglects to apply, then upon the application of
any other party to the action, or of a relative
or friend of the infant.
NOTES:
Findings—1992 c 111: See note following
RCW 26.50.030.

APP. G
199a
Findings—1992 c 111: "The legislature finds
that:
Domestic violence is a problem of
immense proportions affecting individuals as
well as communities. Domestic violence has
long been recognized as being at the core of
other major social problems: Child abuse,
other crimes of violence against person or
property, juvenile delinquency, and alcohol
and drug abuse. Domestic violence costs
millions of dollars each year in the state of
Washington for health care, absence from
work, services to children, and more. The
crisis is growing.
While the existing protection order
process can be a valuable tool to increase
safety for victims and to hold batterers
accountable, specific problems in its use have
become evident. Victims have difficulty
completing
the
paperwork
required
particularly if they have limited English
proficiency; model forms have been modified
to be inconsistent with statutory language;
different forms create confusion for law
enforcement agencies about the contents and
enforceability of orders. Refinements are
needed so that victims have the easy, quick,
and effective access to the court system
envisioned at the time the protection order
process was first created.
When courts issue mutual protection
orders without the filing of separate written

/

APP. G
200a
petitions, notice to each, and hearing on each
petition, the original petitioner is deprived of
due process. Mutual protection orders label
both parties as violent and treat both as being
equally at fault: Batterers conclude that the
violence is excusable or provoked and victims
who are not violent are confused and
stigmatized. Enforcement may be ineffective
and mutual orders may be used in other
proceedings as evidence that the victim is
equally at fault.

